<html>
<title> - EXAMINING THE COVID 19 RESPONSE IN NATIVE COMMUNITIES: NATIVE EDUCATION SYSTEMS ONE YEAR LATER</title>
<body><pre>[Senate Hearing 117-59]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 117-59
 
            EXAMINING THE COVID 19 RESPONSE IN NATIVE COMMUNITIES: 
                  NATIVE EDUCATION SYSTEMS ONE YEAR LATER

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2021

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
              
              
              
              
                 U.S. GOVERNMENT PUBLISHING OFFICE 
 45-427 PDF               WASHINGTON : 2021             
              


                      COMMITTEE ON INDIAN AFFAIRS

                     BRIAN SCHATZ, Hawaii, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
MARIA CANTWELL, Washington           JOHN HOEVEN, North Dakota
JON TESTER, Montana                  JAMES LANKFORD, Oklahoma
CATHERINE CORTEZ MASTO, Nevada       STEVE DAINES, Montana
TINA SMITH, Minnesota                MIKE ROUNDS, South Dakota
BEN RAY LUJAN, New Mexico            JERRY MORAN, Kansas
       Jennifer Romero, Majority Staff Director and Chief Counsel
     T. Michael Andrews, Minority Staff Director and Chief Counsel
     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2021...................................     1
Statement of Senator Cortez Masto................................     3
Statement of Senator Hoeven......................................    31
Statement of Senator Lujan.......................................    37
Statement of Senator Murkowski...................................     2
Statement of Senator Schatz......................................     1
Statement of Senator Smith.......................................    47

                               Witnesses

Dearman, Tony L., Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................    15
    Prepared statement...........................................    16
Emrey-Arras, Melissa, Director, Education, Workforce, and Income 
  Security Issues, Government Accountability Office..............     4
    Prepared statement...........................................     5
Kamana, Dr. Kauanoe, Principal, Ke Kua `O Nawahiokalani`opu`u 
  Demonstration Laboratory School................................    29
    Prepared statement...........................................    30
Thomas, Dr. Michelle, Superintendent, Belcourt School District...    32
    Prepared statement...........................................    34
West, Lance, Principal, Schurz Elementary; Vice Chairman, BIE 
  Pyramid Lake School Board......................................    22
    Prepared statement...........................................    24

                                Appendix

Response to written questions submitted by Hon. Brian Schatz to:
    Tony L. Dearman..............................................    59
    Melissa Emrey-Arras..........................................    51
    Dr. Kauanoe Kamana...........................................    54
    Lance West...................................................    53


                  EXAMINING THE COVID-19 RESPONSE IN 
      NATIVE COMMUNITIES: NATIVE EDUCATION SYSTEMS ONE YEAR LATER

                              ----------                              


                       WEDNESDAY, APRIL 28, 2021


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m. in room 
628, Dirksen Senate Office Building, Hon. Brian Schatz, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good afternoon. This hearing will come to 
order.
    Before we get started, I would just like to acknowledge 
that this is the first time chairing a hearing that I am not 
wearing a mask. It feels great. I have been vaccinated; the 
people in this room have been vaccinated. These are the among 
the freedoms that you get back if you have been vaccinated and 
waited the full period to achieve your immunity.
    So to business. Nine months ago, this Committee examined 
the Bureau of Indian Education's COVID-19 response and the 
administration of COVID-19 relief funds. This hearing will 
expand the conversation to include the voices of Native school 
administrators, including principals from non-BIE schools.
    For over a year, we have found ourselves navigating through 
unprecedented loss and change due to the coronavirus. In our 
schools, the pandemic has impacted learning and disrupted 
foundational support services for students across the Country. 
Congress responded by providing supplemental funding in the 
CARES Act to support schools and education programs in their 
COVID-19 response, including more than $222 million for the 
BIE. The Fiscal Year 2021 Omnibus Funding Bill provided 
additional funding resources to help schools with their COVID 
needs.
    But for many Native leaders, educators and school 
officials, critical Federal resources have been difficult to 
access or even non-existent. That is not acceptable, especially 
during a pandemic. The United States must fulfill its trust 
obligation to support Native-servings schools and provide 
comprehensive educational opportunities to American Indians, 
Alaska Natives and Native Hawaiians.
    That is why this Committee worked to ensure President 
Biden's American Rescue Plan contained more than $2.5 billion 
for Native students, including the first dedicated funding for 
Native Hawaiian and Alaska Native education organizations to 
address their COVID related needs. Indeed, help is here.
    Our Committee's work, however, must continue. During 
today's hearing we will explore lessons learned from COVID-19's 
impact on Native students and schools, underscore mental health 
and support services needs for Native students and their 
communities and examine Native schools' infrastructure 
priorities to improve school safety and enhance digital 
learning capabilities.
    Before I turn to my Vice Chair, I would like to welcome Dr. 
Kamana and extend our thanks to our witnesses for joining us 
today. I look forward to hearing from each of you.
    Vice Chair Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Yake'i ixw 
sateeni, which in Tlingit means ``it is good to see you.'' I 
will be corrected by my Tlingit friends.
    Today we are going to hear from our witnesses on a very 
important issue to American Indians, Alaska Native communities. 
That is the focus that we have today, on education. Education 
is one of the greatest tools I think we have to achieve 
opportunity and success. It is why so many communities place 
such high importance on ensuring that we have high quality, 
culturally relevant education that prepares young people to 
achieve their highest potential.
    The COVID-19 pandemic has created real uncertainty for our 
Country and the education system has not escaped the impacts. 
Many tribes and States have had to develop and implement 
protocols to ensure that our young people continue their 
education while navigating the COVID new normal.
    The BIE and the U.S. Department of Education are 
responsible for working with tribes to ensure that American 
Indian and Alaska Native youth are equipped for the skills and 
knowledge necessary to prepare them to meet the challenges. 
According to BIE, there are 183 bureau-funded elementary and 
secondary schools located on or near 64 reservations across 23 
States. This is approximately 42,000 Indian students. I would 
note that we don't have any of these BIE schools in Alaska.
    BIE is also responsible for serving and providing resources 
to 26 of the 32 fully-accredited tribal colleges and 
universities. This includes Ilisagvik in Barrow. The college 
describes itself as being unapologetically Inupiaq, which the 
school defines as exercising the sovereign inherent freedom to 
educate our community through and supported by our Inupiaq 
world view, values, knowledge, and protocols.
    When you think about that, the saying really describes well 
the philosophy of self-determination and local control that 
many tribal schools adopt throughout Indian Country.
    In June of last year, I was pleased to see that Assistant 
Secretary of Indian Affairs, Tara Sweeney, announced a series 
of consultation sessions to discuss proposed Department of 
Interior guidance for the reopening of BIE schools. This action 
by the Department reflected a recognition of the importance of 
working on a government-to-government basis with tribes.
    So I am looking forward to hearing from Director Dearman on 
how those consultation sessions went, what the Department is 
doing to incorporate the comments and recommendations that they 
received during the consultations.
    Finally, I look forward to hearing from the department of 
Interior on how they are using the resources that Congress 
appropriated to the BIE to assist in COVID related response and 
the mitigation efforts at our tribal schools. Mr. Chairman, you 
have noted that through the CARES Act, Congress, appropriated 
$69 million directly to the BIE, an additional $153 million 
through DOE's education stabilization fund, and in December, 
Congress provided further $819 million for outlying areas and 
BIE operated and funded schools and tribal colleges and 
universities through the coronavirus response and relief 
supplemental.
    Recently, then, in the American Rescue Plan Act, Congress 
appropriated an additional $850 million to the BIE and $190 
million for the BIE through Department of Education to assist 
on COVID related activities. So resource are out there. Our 
job, our role, our responsibility is to understand where and 
how and what more we might be able to do in terms of exercising 
oversight.
    I thank our witnesses for participating today and look 
forward to their comments and our opportunities to question. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chair Murkowski.
    I would like to turn it over to Senator Cortez Masto to 
introduce the testifier from Nevada.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman. Thank you, 
Ranking Member, I appreciate your calling the hearing on this 
important topic. And thank you to all of the witnesses for 
being here today. I am eager to hear from all of you about what 
lessons we can learn from the past year, as we reopen our 
schools.
    I am especially excited to have before us today Mr. Lance 
West. Mr. West is the principal of Schurz Elementary School in 
Mineral County, Nevada, a school that sits on the Walker River 
Paiute Reservation and serves predominantly Native students. He 
is also vice chairman of the Pyramid Lake School Board, and 
that is a BIE school in northern Nevada.
    Mr. West taught across Nevada for 17 years in Reno, 
McDermitt and Spring Creek, before he returned to his home in 
Schurz to serve as principal of the Schurz Elementary School. 
He has a passion for improving education for Native students, 
you are going to hear that today, and a breadth of experience 
as both an educator and administrator. I am so proud to have 
him here to provide his testimony on how we can improve Native 
education in Nevada and across the Country. Welcome, Mr. West.
    The Chairman. Thank you, Senator Cortez Masto.
    Now to Senator Hoeven to introduce a testifier from his 
home State.
    He is not on the line right now. We will do that later.
    Let me turn to the witnesses. First, we have Ms. Melissa 
Emrey-Arras, Director of Education-Workforce-Income Security 
Issues at GAO; Mr. Tony Dearman, the Director of the Bureau of 
Indian Education; Mr. Lance West, Principal at Schurz 
Elementary School, Vice Chairman, Pyramid Lake Junior/Senior 
School Board of Education in Pyramid Lake, Nevada; Dr. Kauanoe 
Kamana, the Principal of Nawahi on the Big Island, Hawaii 
Island; and Dr. Michelle Thomas, the Superintendent of Belcourt 
School District, in Belcourt, North Dakota.
    I want to remind our witnesses that your full written 
testimony will be made part of the official hearing record. 
Please keep your statement to no more than five minutes. We do 
have a vote starting in about 45 minutes. We have some 
flexibility; but to the extent that our testifiers can 
constrain their remarks to five minutes, that would be very, 
very helpful.
    Ms. Embrey-Arras. you may begin.

          STATEMENT OF MELISSA EMREY-ARRAS, DIRECTOR, 
 EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Embrey-Arras. Thank you, Chair Schatz, Vice Chair 
Murkowski, and members of the Committee.
    I am pleased to be here today to discuss GAO's review of 
distance learning at BIE schools during the pandemic. I will 
focus my remarks on two issues. One, the extent to which BIE 
has provided schools with distance learning guidance during the 
pandemic; and two, the extent to which students have had the 
technology they need for distance learning.
    Beginning with a look at BIE's guidance, we found that BIE 
did not release comprehensive guidance for distance learning, 
despite most schools providing distance learning during the 
pandemic. In March of 2020, BIE issued a short memo including 
one page of guidelines. It directed schools to deliver flexible 
instruction and teach content. But it did not offer specific 
information on how to do so.
    Later, in August of 2020, BIE issued a return to learn 
guide for the 2021 school year. The guide was primarily an in-
person schooling guide and provided little information on 
distance learning. Although school officials we surveyed over 
the summer wanted information on how to develop distance 
learning programs to meet student learning needs, this 
information was not in the guide. Additionally, the guide 
provided few details on how schools could implement distance 
learning in areas without broadband.
    Accordingly, we are recommending that BIE develop 
comprehensive guidance on distance learning to help schools 
both during the current pandemic and in the event of future 
school building closures.
    Now, turning to whether students have the technology they 
need for distance learning, we found that BIE helped improve 
students' internet access, especially in remote and rural 
communities. For example, BIE and Interior's Acquisitions 
Division used CARES Act funds to distribute thousands of wi-fi 
hotspots to students enrolled at BIE-operated schools. In 
addition, BIE installed wi-fi on school buses, and some schools 
parked these buses in remote tribal communities to serve as 
internet hubs for students.
    While BIE helped improve students' internet access, we 
found that most students at BIE-operated schools did not have 
laptops to access online distance learning for most of the 
fall. Interior experienced delays with ordering laptops, 
receiving them, and distributing them to students. In terms of 
ordering laptops, Interior officials did not order the majority 
of laptops for BIE-operated schools until September of 2020. 
The order was delayed because officials lacked accurate, up to 
date information on schools' IT needs, and didn't know 
initially how many laptops were needed.
    Accordingly, we are recommending that Interior implement 
procedures for collecting timely information on BIE-operated 
schools' IT needs. This will help ensure BIE students have the 
technology they need now as well as in the future. This is 
especially important, given that BIE schools will be 
integrating technology into their everyday curricula.
    After the delayed laptop order, nationwide IT shortages 
also contributed to the delayed delivery of the laptops to the 
schools. None of the laptops were delivered to schools until 
more than one month after school began. Some deliveries were 
delayed until January 2021. As of the end of March, one school 
had not yet received laptops from the vendor.
    BIE schools also experienced delays distributing the 
laptops to students. As of the end of December, over 80 percent 
of the laptops ordered in September had not been distributed to 
students. BIE officials said that a lack of IT expertise and 
staff capacity at schools contributed to these distribution 
delays. Interior officials noted that the agency was developing 
a workforce plan to support BIE's IT workforce needs.
    In conclusion, we believe that BIE and Interior can do more 
to support distance learning both now and in the future. 
Implementing GAO's recommendations can help ensure that 
students continue to learn when school buildings are closed.
    This completes my statement. I would be pleased to answer 
any questions you may have.
    Thank you.
    [The prepared statement of Ms. Emrey-Arras follows:]

    Prepared Statement of Melissa Emrey-Arras, Director, Education, 
Workforce, and Income Security Issues, Government Accountability Office
    Chair Schatz, Vice Chair Murkowski, and Members of the Committee:
    Thank you for the opportunity today to discuss our review of 
distance learning at Bureau of Indian Education (BIE) schools. BIE's 
mission is to provide quality education to approximately 41,000 
students at 183 schools it funds on or near Indian reservations in 23 
states. \1\ About two-thirds of these schools are operated by tribes 
and the remaining third are operated by BIE. In March 2020, all BIE 
schools closed their buildings in response to the COVID-19 pandemic. 
Since that time, concerns have been raised that many BIE schools have 
struggled to develop and deliver distance learning programs and that 
schools and surrounding communities often lack the technology and 
broadband Internet access needed to ensure continued learning during 
extended school building closures. Many BIE school communities are 
located in remote, rural areas of the country where broadband Internet 
access has historically been limited.
---------------------------------------------------------------------------
    \1\ For the purposes of this statement, we consider bureau-funded 
elementary, middle, and high schools that are located at the same site 
as single schools. In our prior work, we reported such co-located 
schools separately.
---------------------------------------------------------------------------
    My statement today is based on work we conducted as part of GAO's 
COVID-19 monitoring and oversight responsibilities under the 
Coronavirus Aid, Relief, and Economic Security (CARES) Act. \2\ 
Specifically, we examined the extent to which (1) BIE has provided 
schools with guidance to develop and implement distance learning 
programs during the COVID-19 pandemic, and (2) students have had the 
technology they need to participate in such programs.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 116-136,  19010, 134 Stat. 281, 579-81 (2020). We 
regularly issue government-wide reports on the federal response to 
COVID-19. For the latest report, see GAO, COVID-19: Sustained Federal 
Action Is Crucial as Pandemic Enters Its Second Year, GAO-21-387 
(Washington, D.C.: Mar. 31, 2021). Our next government-wide report will 
be issued in July 2021 and will be available on GAO's website at 
https://www.gao.gov/coronavirus.
---------------------------------------------------------------------------
    To examine the extent to which BIE has provided schools with 
guidance to develop and implement distance learning programs during the 
COVID-19 pandemic, we analyzed agency guidance documents and 
interviewed agency officials about support for distance learning at 
schools. We compared the information we collected with BIE's goals and 
requirements to support schools' instructional programs, including its 
communication plan and relevant federal internal control standards.
    To examine the extent to which BIE students have had the technology 
they need to participate in distance learning programs, we analyzed 
BIE's national information on schools' distance learning programs and 
provision of information technology (IT) to schools and students, 
including information on student and teacher IT devices--such as 
laptops and tablets-that were purchased and delivered to schools. We 
interviewed agency officials about how they gathered this information 
and what procedures they followed to ensure its accuracy and 
completeness and determined that it was reliable for the purposes of 
our work. We also examined the roles and responsibilities of other 
offices under the Assistant Secretary-Indian Affairs (Indian Affairs), 
including the Office of Information Management Technology and the 
Division of Acquisitions, in supporting BIE schools in providing 
distance learning by purchasing and distributing IT equipment and 
devices to schools. We compared the information we collected with BIE's 
goals and requirements to support schools' instructional programs, 
including its strategic plan and relevant federal internal control 
standards.
    For both research objectives, we surveyed a non-generalizable 
sample of 30 BIE schools that were selected for geographic diversity, 
level of community broadband access, whether the school was operated by 
BIE or a tribe, and the school's tribal affiliation, among others. The 
sample included 19 schools operated by tribes and 11 operated by BIE. 
The survey covered several areas related to distance learning, 
including distance learning methods and readiness for the 2020-2021 
school year, challenges to providing distance learning to students, and 
BIE's guidance on distance learning, among other areas. We conducted 
the survey in July 2020 and received responses from 25 schools. The 
responses provided illustrative information about schools' distance 
learning practices and areas in which additional support from BIE was 
needed. We also interviewed officials from 10 of the surveyed schools 
in fall 2020 about their distance learning practices and the extent to 
which BIE provided guidance and technology needed to develop and 
implement distance learning programs. We selected school officials to 
interview based on whether or not the school was operated by BIE or a 
tribe, level of community broadband access, school enrollment size, and 
school tribal affiliation, among other criteria. We also reviewed 
relevant federal statutes and regulations, and met with several 
organizations focused on Indian education.
    We shared our findings and recommendations with BIE and 
incorporated their comments as appropriate.
    We conducted this performance audit from May 2020 to April 2021 in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
Background
Funding to Support Distance Learning Services at BIE Schools
    Annual funding from the Department of the Interior's (Interior) 
Indian School Equalization Program and various programs under the 
Department of Education provide BIE with support for acquiring and 
upgrading educational technology for schools and students, including 
equipment to expand broadband Internet access for students, according 
to agency officials. \3\ In addition to these annual funds, BIE also 
received more than $220 million under the CARES Act. \4\ BIE used about 
69 percent of these funds to support tribally controlled and bureau-
operated schools' response to the pandemic.
---------------------------------------------------------------------------
    \3\ The Indian School Equalization Program provides for the uniform 
direct funding of BIE schools. 25 C.F.R. Part 39.
    \4\ The CARES Act appropriated $69 million to BIE to prevent, 
prepare for, and respond to coronavirus. Pub. L. No. 116-136, 134 Stat. 
at 547. BIE also received an allocation of $154 million for programs 
operated or funded by BIE from funds appropriated to the Department of 
Education for the Education Stabilization Fund. Id.,  18001(a)(2), 134 
Stat. at 564. Subsequently, additional funds were appropriated that BIE 
may use to respond to the COVID-19 pandemic, including more than $400 
million allocated for programs operated or funded by BIE from funds 
appropriated in the Consolidated Appropriations Act, 2021 to the 
Department of Education for the Education Stabilization Fund, and more 
than $850 million appropriated to BIE in the American Rescue Plan Act 
of 2021. See Pub. L. No. 116-260, Div. M, tit. III,  311(a)(2), 134 
Stat. 1182, 1924; Pub. L. No. 117-2,  11005, 135 Stat. 4, 244. 
Reviewing BIE's use of these additional funds was outside the scope of 
our work.
---------------------------------------------------------------------------
Indian Affairs Offices Responsible for Supporting Distance Learning at 
        BIE Schools
    Several offices under Interior's Assistant Secretary-Indian Affairs 
(Indian Affairs) are responsible for supporting distance learning at 
BIE schools. \5\
---------------------------------------------------------------------------
    \5\ The information we present on Indian Affairs offices that 
support schools with education technology and distance learning 
services was gathered from Interior's public documents, and interviews 
with or written responses from agency officials.
---------------------------------------------------------------------------
Bureau of Indian Education
    BIE is responsible for ensuring that all schools have guidance and 
support to implement their academic programs, including school programs 
that provide students with distance learning opportunities during 
school closures. In addition, it has an obligation to ensure that 
schools continue to provide education to students when school buildings 
are closed due to the COVID-19 pandemic, according to agency 
documentation. The following offices have specific responsibilities for 
supporting distance learning, including educational technology.
The Deputy Assistant Secretary-Management
  <bullet> BIE's Deputy Bureau Director-School Operations Division and 
        Chief Academic Officer are both responsible for working 
        together to provide BIE personnel with guidance and direction 
        on supporting educational technology and distance learning at 
        schools. These officials are also responsible for coordinating 
        with managers in the two offices under the Deputy Assistant 
        Secretary-Management to assess and address BIE schools' IT 
        needs.

  <bullet> Staff in 16 agency field offices, called Education Resource 
        Centers and located across the BIE school system, work in close 
        collaboration with their respective Associate Deputy Directors 
        and the Chief Academic Officer on distance education and school 
        IT matters. Education Resource Center staff are responsible for 
        working directly with schools to identify IT and distance 
        education needs.

  <bullet> The Office of Information Management Technology (OIMT) is 
        responsible for supporting IT across Indian Affairs, including 
        BIE. OIMT includes staff responsible for assisting BIE-operated 
        schools with their technology needs, including providing 
        technical assistance with configuring and operating electronic 
        devices for students and teachers to support distance learning.
  <bullet> The Division of Acquisitions, under the Chief Financial 
        Officer, is responsible for handling major procurements--
        including technology--for BIE and other offices under Indian 
        Affairs. \6\
---------------------------------------------------------------------------
    \6\ For the purposes of this statement, we refer to the Division of 
Acquisitions as Acquisitions.

Longstanding Challenges to Technology Access on Tribal Lands
    Many BIE schools are located in communities on tribal lands that 
have faced longstanding challenges with technology, including access to 
broadband Internet. For example, the Federal Communications Commission 
(FCC) reported that as of 2018, an estimated 28 percent of Americans 
living on tribal lands lacked access to broadband services, compared to 
6 percent of all Americans. \7\ Similarly, there is a gap in broadband 
access between rural areas and rural tribal lands. FCC reported that as 
of 2018, about 47 percent of Americans living on rural tribal lands 
nationwide lack fixed broadband and mobile access, compared to about 23 
percent of rural Americans overall. \8\ However, as we have told this 
Committee, the manner in which FCC collected data for these estimates 
led to overstatements of fixed broadband availability on tribal lands. 
\9\
---------------------------------------------------------------------------
    \7\ 2020 Broadband Deployment Report, 2020 WL 2013309 at *34 para. 
94, FCC 20-50. For purposes of its report, FCC aggregated federally-
recognized tribal lands into four categories: The Lower 48 States, 
Tribal Statistical Areas, Alaskan Villages, and Hawaiian Homelands. For 
additional information on the availability of broadband on tribal 
lands, see GAO, Telecommunications: FCC Should Enhance Performance 
Goals and Measures for Its Program to Support Broadband Service in 
High-Cost Areas, GAO-21-24 (Washington, D.C.: Oct. 1, 2020).
    \8\ 2020 Broadband Deployment Report, 2020 WL 2013309 at 19 para. 
47, FCC 20-50. For more information, see GAO-21-24.
    \9\ FCC has noted that overstatements of broadband availability can 
be particularly problematic in rural areas, where census blocks cover 
larger areas. For more information, see GAO, Tribal Broadband: FCC's 
Data Overstate Access, and Tribes Face Barriers Accessing Funding, GAO-
19-134T (Washington, D.C.: Oct. 3, 2018).
---------------------------------------------------------------------------
    Other federal data provide an expanded picture of the technology 
challenges faced by BIE school communities. For example, recent data 
from the U.S. Census's American Community Survey show that many BIE 
schools are located in areas of the country where the rates of 
broadband Internet subscription have historically been limited.
    In nearly half of all BIE school communities for which ACS data 
were available, less than 50 percent of households had access to 
broadband prior to the COVID-19 pandemic.
    American Community Survey data also show access to technology 
overall has been especially limited on certain American Indian 
reservations. \10\ For example, an estimated 70 percent of households 
on the Navajo Nation Reservation lacked access to the Internet and 51 
percent did not have a computer, compared to the national averages of 
14 and 10 percent, respectively. Over a third of all BIE schools are 
located in Navajo Nation.
---------------------------------------------------------------------------
    \10\ The American Community Survey defines federal American Indian 
reservations as areas that have been set aside by the United States for 
the use of tribes, the exterior boundaries of which are more 
particularly defined in final tribal treaties, agreements, executive 
orders, federal statutes, secretarial orders, or judicial 
determination.
---------------------------------------------------------------------------
    As we have recently reported, those without broadband access are 
especially disadvantaged during COVID-19 because efforts to limit the 
spread of the disease have resulted in many care systems, government 
entities, businesses, educational institutions, restaurants, and other 
merchants transitioning some or all operations online. \11\
---------------------------------------------------------------------------
    \11\ GAO-21-24.
---------------------------------------------------------------------------
Federal Efforts to Increase Broadband Internet Access on Tribal Lands
    In recent years, the federal government has undertaken a variety of 
efforts to address limited access to broadband on tribal lands, 
including at BIE schools.

  <bullet> BIE has participated in FCC's E-rate program, \12\ providing 
        BIE with additional funding to increase Internet bandwidth at 
        schools. \13\ In addition, Indian Affairs' Office of Indian 
        Energy and Economic Development began partnering with the 
        National Telecommunications and Information Administration on 
        its National Broadband Availability Map Program in August 2020 
        to analyze and map broadband availability on tribal lands, 
        including BIE school communities, according to information from 
        agency officials. \14\
---------------------------------------------------------------------------
    \12\ Since 1998, FCC's E-rate program has been a significant source 
of technology funding for schools and libraries to obtain affordable 
broadband and telecommunications services. E-rate program funds can be 
used for Internet access, internal connections, managed internal 
broadband services, basic maintenance of internal connections, 
telecommunications, and telecommunications services. Internal 
connections are products--such as routers, switches, hubs, and wiring--
needed to bring broadband into, and provide it throughout, schools and 
libraries. For more information, see GAO, Telecommunications: FCC 
Should Take Action to Better Manage Persistent Fraud Risks in the 
Schools and Libraries Program, GAO-20-606 (Washington, D.C.: Sept. 16, 
2020).
    \13\ BIE officials responded to us that expanding broadband 
services at BIE schools would not, by itself, be sufficient to provide 
online learning for all of its students because the same broadband 
barriers exist for teachers, students, and parents at their homes. The 
officials also noted that increasing the availability of home Internet 
services alone also would not address the challenge of families in BIE 
school communities being able to afford such home broadband service.
    \14\ The National Broadband Availability Map, administered by the 
National Telecommunications and Information Administration, is a 
platform for sharing information compiled from federal, state, and 
commercially available data sources to better inform broadband projects 
and decisionmaking.

  <bullet> FCC has prioritized tribal lands in administering its Rural 
        Digital Opportunity Fund by targeting tribal areas lacking 
        access to high speed Internet service. FCC also established a 
        tribal priority window for tribes in rural areas to obtain 
        unassigned 2.5 GHz spectrum licenses prior to the spectrum 
        being put up for competitive bidding. This spectrum is suitable 
        for both mobile and fixed point-to-point coverage, and is 
        currently used to provide broadband service by legacy 
        educational licensees and commercial providers that lease the 
---------------------------------------------------------------------------
        spectrum.

  <bullet> In January 2021, Indian Affairs released its National Tribal 
        Broadband Strategy, developed in collaboration with the White 
        House Council on Native American Affairs, to guide federal 
        government and private sector coordination to expand broadband 
        Internet access on tribal lands. Among the activities 
        identified in the strategy, Indian Affairs plans to conduct an 
        assessment of barriers to broadband access in communities on 
        tribal lands and increase funding for grants to support tribal 
        broadband planning efforts, according to information from 
        agency officials. \15\
---------------------------------------------------------------------------
    \15\ Federal Communications Commission, 2.5 GHz Rural Tribal 
Window, accessed Mar. 22, 2021, https://www.fcc.gov/25-ghz-rural-
tribal-window.

  <bullet> The American Rescue Plan Act of 2021 appropriated more than 
        $7 billion for the establishment of an Emergency Connectivity 
        Fund, for which FCC has the responsibility for distributing 
        funding to eligible schools or libraries. \16\ This fund will 
        support distance learning during the COVID-19 pandemic by 
        helping schools and libraries purchase Wi-Fi hotspots, routers, 
        and connected devices necessary for students to get online. 
        Schools funded by BIE would be eligible for support through the 
        Emergency Connectivity Fund.
---------------------------------------------------------------------------
    \16\ Pub. L. No. 117-2, tit. III, subt. D,  7402(c), 135 Stat. 
4,109.

Prior GAO Work on BIE Schools
    Our prior work on Indian education found numerous weaknesses in 
BIE's management and oversight of BIE schools, including problems with 
monitoring school spending and conducting annual safety and health 
inspections of school facilities. \17\ As a result of these and other 
systemic problems with BIE's administration of Indian education 
programs, we added Indian education to our High Risk List in February 
2017. In our 2021 High Risk update, we found that BIE had made some 
progress in addressing weaknesses in some areas of supporting and 
overseeing BIE schools but needed to take actions in other areas, such 
as developing a comprehensive, long-term capital asset plan to inform 
its allocation of school facility construction funds. \18\ We also 
added seven recommendations on Indian education from a May 2020 report 
to our 2021 High Risk update. These recommendations address weaknesses 
in BIE's support for and oversight of special education services at 
schools. \19\
---------------------------------------------------------------------------
    \17\ GAO, Indian Affairs: Bureau of Indian Education Needs to 
Improve Oversight of School Spending, GAO-15-121 (Washington, D.C.: 
Nov. 13, 2014); GAO, Indian Affairs: Key Actions Needed to Ensure 
Safety and Health at Indian School Facilities, GAO-16-313 (Washington, 
D.C.: Mar. 10, 2016).
    \18\ GAO, High Risk Series: Dedicated Leadership Needed to Address 
Limited Progress in Most High-Risk Areas, GAO-21-119SP (Washington, 
D.C.: Mar. 2, 2021).
    \19\ GAO, Indian Education: Actions Needed to Ensure Students with 
Disabilities Receive Special Education Services, GAO-20-358 
(Washington, D.C.: May 22, 2020).
---------------------------------------------------------------------------
BIE Provided Schools with Some Support but Limited Guidance for 
        Distance Learning
BIE Gave Some Support to Schools Providing Distance Learning
    In March 2020, all schools funded by BIE closed their buildings in 
response to the COVID-19 pandemic, and BIE directed them to continue to 
provide learning opportunities. These closures affected approximately 
41,000 students enrolled at 183 schools on or near Indian reservations 
in 23 states. Many schools provided learning opportunities while their 
school buildings were closed. For example, officials from 23 of the 25 
schools that responded to our July 2020 survey reported that their 
school provided distance learning online or through paper instructional 
packets. \20\
---------------------------------------------------------------------------
    \20\ Our survey results are not generalizable to the entire 
population of BIE schools. Some officials we interviewed told us the 
school delivered and picked up paper instructional packets from 
students' homes on a regular basis. Of the two schools that responded 
in the negative, an official from one school said the school sent 
packets home to students but did not require them to be returned, and 
did not consider that to be distance learning. The remaining school 
responded that it did not provide distance learning.
---------------------------------------------------------------------------
    Eighteen of the 25 school officials who completed our survey 
reported they had received some support from BIE, including from field 
office staff, related to distance learning during spring 2020. For 
example, an official from one school said BIE provided a presentation 
on online instruction and equity. A senior BIE official told us that in 
the spring BIE provided schools with links to free distance learning 
resources that covered topics such as behavioral health, math, reading, 
science, and social studies. In addition, some links were to online 
materials on curricula and support for distance learning provided by 
the Public Broadcasting Service and the National Science Institute. BIE 
officials said its field office staff shared additional information 
with schools, such as a webinar on complying with the Individuals with 
Disabilities Education Act while in a distance learning environment. 
\21\ Field office staff also provided individualized support as needed 
to schools, according to BIE officials.
---------------------------------------------------------------------------
    \21\ The Individuals with Disabilities Education Act ensures a free 
appropriate public education to eligible children with disabilities and 
governs how states and public agencies provide early intervention, 
special education, and related services to these children.
---------------------------------------------------------------------------
    To prepare for the 2020-2021 school year, when most schools 
provided distance learning, BIE officials reported providing support 
materials and training on a rolling basis to schools. BIE officials 
said that the materials and training included topics such as blended 
learning practices, best practices on mobile devices, teaching with 
tablets, and digital learning strategies. Training continued throughout 
the school year. Different field offices provided different trainings 
to schools in their jurisdiction.
    However, school officials we surveyed and interviewed said BIE's 
distance learning support was insufficient. For example, one school 
official responding to our survey reported that BIE's support on 
virtual tools was ``severely lacking.'' Another respondent reported 
that school officials felt they had to determine on their own how to 
deliver distance learning to students. In addition, officials we 
interviewed from five schools noted the limited nature of the support 
intended to help schools prepare for the 2020-2021 school year. For 
example, officials from one school said that while BIE provided a 
presentation on academic assessments, the presentation did not explain 
how to administer the tests. Another official said the field office 
offered to provide help when asked, but provided no specific 
assistance.
BIE Did Not Release Comprehensive Distance Learning Guidance, Although 
        Most Schools Provided Distance Learning During the Pandemic
Guidance in Spring 2020
    In March 2020, BIE issued a short guidance memorandum regarding the 
provision of distance learning that included one page of guidelines and 
guiding principles. The memorandum directed schools to, for example, 
``deliver flexible instruction'' and to ``teach content,'' but did not 
offer specific information on how to accomplish those objectives. A 
senior BIE official said BIE provided no additional distance learning 
guidance to schools in the spring, despite all school buildings closing 
in March.
Guide for 2020-2021 School Year
    BIE's guide for the 2020-2021 school year--''Return to Learn!''--
was released in late August 2020 and included little information 
related to distance learning. BIE created the document primarily as an 
in-person schooling instruction guide. At the start of the 2020-2021 
school year, however, most BIE schools exclusively provided distance 
learning, according to BIE information. For example, of the 54 BIE-
operated schools, 53 opened the 2020-2021 school year exclusively 
providing distance learning and the remaining school used a combination 
of distance and in-person learning. Of the 129 tribally controlled 
schools, 100 started the school year exclusively providing distance 
learning, and 16 used a combination of distance and in-person learning.
    The Return to Learn! guide's distance learning section mainly 
describes how schools can temporarily pivot to distance learning from 
in-person instruction. The 76-page guide devotes about seven pages to 
distance learning. Some relevant topics included are eligibility for 
distance learning, grading principles, and providing services to 
students with disabilities. Half of the seven pages discuss the roles 
and responsibilities of teachers and administrators within BIE and the 
schools.
    Some school officials who responded to our July survey said they 
wanted information that was not included in the guide. \22\ For 
example, 13 of the 25 responding school officials indicated they wanted 
information from BIE on how to develop and implement a distance 
learning program that addresses students' learning needs. This 
information is not provided in the guide. Additionally, 12 of 25 
respondents to our survey reported they wanted information on distance 
learning delivery methods for areas without broadband. BIE's guide 
provides half a page of information on what schools should provide for 
students who are unable to access the Internet. The section lists what 
a school should include in a plan for students without Internet access-
ensuring students have access to instructional materials, for example. 
However, it does not describe how schools can or should practically 
provide these items to students.
---------------------------------------------------------------------------
    \22\ Respondents completed the survey prior to the release of BIE's 
Return to Learn! guide and therefore their responses relate to what 
they wanted to see in the guidance, rather than what the document 
actually included.
---------------------------------------------------------------------------
    The distance learning section in the guide states that schools 
would receive a ``technology package with a toolkit'' at an unspecified 
later date, but some school officials we interviewed were unaware of 
the toolkit. According to the Return to Learn! guide, the toolkit would 
support distance learning efforts with information on future technology 
procurements, instructions on connectivity and device installations, 
and user support. A senior BIE official said the toolkit can be found 
on BIE's website. However, the technology toolkit posted to BIE's 
Return to Learn! website consists solely of user agreements for 
students and parents who receive school-issued equipment. We asked nine 
school officials whether they had received a toolkit from BIE. None had 
received it and some said they were unaware of its existence.
    BIE issued its reopening guide on August 21, 2020, and some school 
officials said the release was too late to greatly influence their fall 
planning. Seven of the 10 school officials we interviewed in fall 2020 
said they thought BIE's late summer release limited the guide's 
usefulness, as they had already started their planning for the academic 
year. For example, while one official said she reviewed the guide to 
ensure the school would be compliant, the school's plans were largely 
complete by the time BIE released it. Additionally, 42 tribally 
controlled schools began their school year prior to the release of 
Return to Learn!, and all BIE-operated schools began the year less than 
one month later, on September 16, 2020. A senior BIE official explained 
that BIE needed to hold tribal consultations before it could finalize 
and release the guide. Those consultations occurred on July 9 and 10, 
2020. BIE also had to gather formal comments after these consultations. 
These comments were gathered under an expedited 15-day period, rather 
than the typical 30-day period.
    Officials we spoke with from six schools said that in the absence 
of BIE guidance on distance learning, they used guidance created by 
other state educational agencies. For example, officials from two 
schools said they used Arizona's guidance, which included many topics 
on distance learning, including distributing technology, meeting the 
needs of special education students, delivering meals to students, and 
providing professional learning for staff.
    BIE has not provided comprehensive guidance to all BIE schools on 
distance learning, although there are clear current and potential 
future needs. BIE's communication plan states that it is important to 
regularly inform schools and key stakeholders of critical developments 
and key information that impacts instruction. \23\ In addition, federal 
standards for internal control state that management should identify, 
analyze, and respond to risks related to achieving defined objectives 
and externally communicate the necessary quality information to achieve 
those objectives. \24\ By providing schools with comprehensive guidance 
in this area, BIE would better position them to develop and implement 
distance learning programs both during the current pandemic and in the 
event of future school building closures.
---------------------------------------------------------------------------
    \23\ U.S. Department of the Interior, Bureau of Indian Education 
Communications Plan (Washington, D.C.: Sept. 2015).
    \24\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, D.C.: Sept. 2014).
---------------------------------------------------------------------------
BIE Helped Improve Students' Internet Access, but Many Did not Have 
        Laptops at the Start of the 2020-2021 School Year
BIE Helped Improve Students' Internet Access, Especially in Remote, 
        Rural Communities
    BIE helped improve both community and at-home Internet access for 
students for the 2020-2021 school year. Many BIE students live in areas 
of the country where Internet access has been historically low, and BIE 
officials said in April 2020 that distance learning had been 
challenging for BIE schools to provide during the pandemic because of 
limited connectivity on tribal lands. Officials from 13 of the 25 
schools that responded to our July survey--including officials from 
seven of the 10 BIE-operated schools--reported that fewer than 50 
percent of students had access to broadband Internet at home. \25\ To 
help address these issues, BIE and Indian Affairs Division of 
Acquisitions (Acquisitions) used CARES Act and other funds to purchase 
and distribute over 7,000 Wi-Fi hotspots to students enrolled at BIE-
operated schools during the pandemic. With these hotspots, students 
could access the Internet in their homes for education-related 
purposes. Additionally, BIE reported completing a pilot program in 2020 
to install Wi-Fi on 25 school buses, and BIE officials said schools 
parked these buses in remote tribal housing communities to serve as 
hubs for Internet access for students and families. \26\ BIE also 
provided CARES Act funds to tribally controlled schools, which allowed 
some schools to improve Wi-Fi access for students (see below).
---------------------------------------------------------------------------
    \25\ BIE officials stated that the agency does not have the 
authority to compel students or families to provide information on home 
access to broadband. As such, the information may in some cases serve 
as estimates of student Internet access.
    \26\ In July 2020, a senior BIE official testified before Congress 
that the agency hopes to equip more buses beyond the initial 25 in 
order to improve Wi-Fi accessibility for more students and tribal 
communities. Preparing to Head Back to Class: Addressing How to Safely 
Reopen Bureau of Indian Education Schools, Hearing Before the S. Comm. 
On Indian Affairs, 116th Cong. 4 (2020) statement of Tony L. Dearman, 
Director, Bureau of Indian Education.

         Tribally Controlled Schools Used CARES Act Funds to Improve 
---------------------------------------------------------------------------
        Wi-Fi Access for Students

         Officials at some tribally controlled schools funded by the 
        Bureau of Indian Education (BIE) said they used CARES Act funds 
        distributed by BIE to increase home Internet access for 
        students by purchasing Wi-Fi hotspots. For example, an official 
        at one school said that about 90 percent of students were able 
        to consistently access online distance learning, up from 25-49 
        percent of students before CARES Act funding became available. 
        Similarly, an official at another tribally controlled school 
        reported increasing home Wi-Fi access for students from 50-74 
        percent over the summer to over 95 percent by fall 2020 due to 
        CARES Act funding.

         Source: GAO analysis of statements from BIE school officials. 
        GAO-21-492T

Most Students Did Not Have Laptops to Begin the 2020-2021 School Year, 
        Partly Because BIE Did Not Have Complete and Accurate 
        Information on Schools' IT Needs
    Most students at BIE-operated schools lacked devices to access 
online distance learning until months after the 2020-2021 school year 
began because BIE and Acquisitions did not provide these students 
school-issued laptops in a timely manner. In April 2020, BIE officials 
said that many students were unable to participate in online distance 
learning during the spring because they did not have computers or 
laptops at home. Additionally, when we surveyed BIE schools over the 
summer, officials from eight of the 10 BIE-operated schools that 
responded stated that students lacked devices to participate in online 
distance learning.
    BIE began collecting information on school IT needs as schools 
closed in the spring. In June 2020, BIE officials said that the agency 
planned to use the majority of its CARES Act funding to purchase IT 
equipment, and in July, Interior's Office of the Inspector General 
issued a report stating that BIE planned to use its CARES Act funds to 
target immediate hardware and software needs to facilitate student 
access to online learning resources. \27\ A senior BIE official also 
testified before Congress in July 2020 and stated that the agency was 
working collectively with its schools to maximize purchasing power to 
ensure schools have the IT equipment necessary to help their students 
achieve academically during the pandemic. \28\
---------------------------------------------------------------------------
    \27\ U.S. Department of the Interior, Office of Inspector General, 
CARES Act Flash Report: Bureau of Indian Education Snapshot, No. 2020-
FIN-050 (Washington, D.C.: July 2020).
    \28\ Hearing, supra note 26, at 4, statement of Tony L. Dearman, 
Director, Bureau of Indian Education.
---------------------------------------------------------------------------
    BIE and Acquisitions, however, faced delays with the order for the 
laptops. Acquisitions did not order the majority of laptops for BIE-
operated schools until September 2020. In September, Acquisitions 
ordered nearly 10,000 laptops for students at BIE schools, according to 
Interior information. \29\ BIE officials said that some schools 
submitted orders for laptops over the summer but were told the orders 
would take over 6 months to fill due to nationwide IT shortages. As a 
result, BIE and Acquisitions officials decided to order laptops for 
schools in bulk to achieve cost savings and ensure all schools were 
purchasing approved computers. Officials from Acquisitions said they 
negotiated with the vendor to order a laptop model that could be 
delivered in a quicker timeframe. In total, Acquisitions used about 
$13.5 million of CARES Act funding to order laptops for students at BIE 
schools in September 2020. Specifically, Acquisitions placed orders for 
about 8,600 laptops for students at 46 BIE-operated schools on 
September 3 and 4, and about 1,000 additional laptops for BIE-operated 
schools during the rest of the month. \30\
---------------------------------------------------------------------------
    \29\ For the purposes of this report, we use the word ``order'' to 
indicate a purchase order to a vendor.
    \30\ Acquisitions, along with BIE schools, also purchased over 
1,600 laptops for teachers at BIE-operated schools, according to 
Interior information.
---------------------------------------------------------------------------
    BIE also experienced delays with delivery of the laptops. At the 
time BIE-operated schools reopened on September 16, none of the laptops 
ordered in early September had been delivered to schools, according to 
Interior information. In contrast, Acquisitions ordered laptops for two 
schools during spring 2020, each of which received laptops before the 
school year began. \31\ While most of the laptops ordered in September 
were delivered to schools in late October or November, none were 
delivered to schools until more than a month after the school year 
began, and some deliveries were delayed until January 2021. As of the 
end of March 2021, one school still had not received 100 laptops from 
the vendor, according to Interior information.
---------------------------------------------------------------------------
    \31\ According to Interior information, Acquisitions ordered 500 
laptops during the spring for the two BIE-operated schools.
---------------------------------------------------------------------------
    In addition, schools faced delays distributing laptops to students. 
By the end of December 2020--more than 3 months after the school year 
began--over 80 percent of the laptops ordered in September had not been 
distributed to students, according to Interior information. \32\ As of 
March 26, 2021--the date of the most recent information Interior 
provided--nearly 20 percent of the laptops ordered in September had not 
yet been distributed to students.
---------------------------------------------------------------------------
    \32\ In instances where Interior provided a range of dates for a 
school's distribution of laptops to students, we report distribution 
using the end date of the range because it indicates when all of the 
school's laptops were distributed.
---------------------------------------------------------------------------
    In addition to delays stemming from nationwide IT shortages, two 
other factors primarily delayed the order, delivery, and distribution 
of laptops to students: incomplete information on schools' IT needs and 
insufficient IT expertise and capacity at some schools.

  <bullet> Incomplete information on schools' IT needs: BIE officials 
        said that while the agency had been collecting information on 
        schools' IT needs since early 2020, it did not have complete 
        information to place the bulk laptop order prior to September. 
        Although Interior officials stated that a contractor had 
        conducted an IT inventory of BIE-operated schools in February 
        2020, this inventory was not provided to BIE until March 2021. 
        Even if this inventory had been provided earlier, Interior 
        officials noted that it would have been of limited use in 
        assessing schools' IT needs for distance learning because the 
        information was gathered before the pandemic. Interior 
        officials stated that one of the lessons learned was the 
        necessity for accurate and up-to-date information on school IT 
        needs to guide technology purchases.

         Without accurate, complete, and up-to-date information on 
        schools' IT needs, BIE and Acquisitions were unable to identify 
        discrepancies between enrollment counts and the number of 
        laptops needed when in July 2020 BIE-operated schools submitted 
        spending plans for CARES Act funds that included requests for 
        laptops. Officials from Acquisitions said that some schools 
        provided incomplete or inconsistent information that required 
        further review. For example, some schools requested fewer 
        laptops than their number of enrolled students, which led to 
        confusion and delays in the ordering process as officials from 
        Acquisitions and BIE worked to reconcile the information.

         Having up-to-date information on BIE schools' IT needs is 
        essential for schools' readiness to deliver distance learning 
        and requires policies and procedures to gather information from 
        schools and verify its completeness and accuracy. However, BIE 
        lacks such policies and procedures and as a result was unable 
        to place the laptop order in a timely fashion. Federal internal 
        control standards state that agencies should collect reliable 
        and quality information in a timely manner to inform 
        decisionmaking. \33\ Furthermore, BIE's strategic plan states 
        that BIE will work collaboratively with schools to continuously 
        improve the quality of education by prioritizing needs and 
        making data-driven decisions, among other factors. \34\ 
        Establishing policies and procedures to gather information on 
        schools' IT needs and verify its completeness and accuracy 
        would help BIE ensure it has the information it needs to guide 
        IT purchases now and in the future.
---------------------------------------------------------------------------
    \33\ GAO-14-704G.
    \34\ U.S. Department of the Interior, Bureau of Indian Education 
Strategic Direction 2018-2023, (Washington, D.C.: Aug. 2018).

  <bullet> Insufficient IT expertise and capacity: BIE officials said 
        that a lack of IT expertise and staff capacity at schools 
        contributed to delays in distributing laptops to students. Once 
        laptops reached schools, school officials tagged, configured, 
        and distributed the laptops to students. However, BIE officials 
        said students at some schools received laptops later than they 
        otherwise would have because schools did not have personnel 
        with the IT expertise needed to tag and configure the laptops. 
        Officials said that the laptop tagging and configuration 
        process was time-consuming and, in some cases, confusing for 
        staff who lack IT training. BIE officials stated in March 2021 
        that OIMT had contracted for an IT workforce assessment and was 
        developing a workforce plan to support the IT needs of BIE in 
        all its major IT functions. \35\
---------------------------------------------------------------------------
    \35\ BIE officials stated that as of March 2021, OIMT had not yet 
completed the documentation regarding this assessment and workforce 
plan, so we were unable to review this documentation during the course 
of our audit work.

    The delayed order, delivery, and distribution of laptops to some 
students put them at risk of falling behind their peers. An official at 
one BIE-operated school said that the school lost 15 percent of its 
students because, unlike local public schools, it was unable to provide 
online distance learning to students in the fall. \36\ Additionally, 
thousands of students in BIE-operated schools participated in distance 
learning programs without online learning during fall 2020 because they 
had not received a laptop or other device to access the Internet, and 
some schools relied primarily on providing packets to students, 
according to BIE information. As of March 2021, 25 BIE-operated schools 
were still providing instructional packets to approximately 1,400 
students, some of whom have continuing connectivity issues, according 
to Interior officials.
---------------------------------------------------------------------------
    \36\ This school official stated that in many cases these students 
withdrew from the BIE-operated school and enrolled at a local public 
school.
---------------------------------------------------------------------------
Conclusions
    BIE officials said that as Interior plans to purchase laptops and 
other devices for students and teachers on an ongoing basis, BIE will 
continue to need accurate and up-to-date information on schools' IT 
needs. For example, in addition to the laptops ordered in September, 
Acquisitions, along with some BIE schools, purchased over 1,300 iPads 
for students and over 1,600 laptops for teachers between February and 
September 2020, according to Interior information. Further, BIE 
officials said BIE plans to provide students with laptops and other 
devices even if schools are not operating in a distance learning 
environment because schools will begin to integrate technology into 
their everyday curricula. As IT devices become damaged or obsolete and 
school enrollment numbers change, officials will need up-to-date 
information on schools' IT needs. Having policies and procedures to 
collect and verify this information will be essential to guide these IT 
purchases.
    BIE has an obligation to ensure schools continue to provide 
education to students when school buildings are closed due to the 
COVID-19 pandemic, according to agency documentation. To that end, the 
CARES Act provided BIE with more than $220 million and subsequent 
legislation provided significantly more funds to help BIE and its 
schools respond to the pandemic. BIE took some steps to support 
schools' online distance learning programs and used CARES Act funds to 
buy laptops and invest in IT infrastructure so that students can 
participate in these programs online from their homes or in their 
communities. However, BIE's limited guidance on distance learning for 
schools and the lack of policies and procedures for assessing schools' 
technology needs have impeded the agency's ability to ensure that 
schools can provide online distance learning when their buildings are 
closed to students. Addressing these areas would better position BIE to 
ensure that schools have the information they need to deliver distance 
learning programs and students have the technology to participate in 
those programs now and in the future.
Recommendations for Executive Action
    We are making the following two recommendations to BIE:

    The Director of BIE should provide comprehensive guidance to 
schools on distance learning to ensure they have the information to 
create and maintain effective distance learning programs during 
extended school building closures. (Recommendation 1)

    The Director of BIE should work with Indian Affairs' Office of 
Information Management Technology to develop and implement written 
policies and procedures for collecting timely information on BIE-
operated schools' technology needs. (Recommendation 2)

    Chair Schatz, Vice Chair Murkowski, and Members of the Committee, 
this completes my prepared statement. I would be pleased to respond to 
any questions that you may have at this time.

    The Chairman. Thank you very much.
    Next, we have Mr. Tony Dearman, Director of the Bureau of 
Indian Education. Before you begin, I just wanted to note that 
Rule 4(b) of this Committee requires that testimony be 
submitted on time. It was late; and actually, our rule requires 
that you testify as to why this testimony was submitted late.
    I will waive that in the interest of getting to the 
substance of the matter. But I will just note that we have had 
some difficulty as a committee getting information out of BIE. 
I would like to reset expectations, and not just comply with 
the letter of our rule and our procedures, but more generally 
be able to conduct oversight, which is going to require more 
responsiveness than we have seen in the past.
    With that said, Mr. Dearman.

   STATEMENT OF TONY L. DEARMAN, DIRECTOR, BUREAU OF INDIAN 
           EDUCATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Dearman. Good afternoon, Chair, Vice Chair, Committee 
members. Thank you for the invitation to appear before you on 
behalf of the BIE.
    As you can imagine, the pandemic caused many hardships to 
our tribal communities and our schools. BIE had its own 
personnel losses, with 9 school staff passing and nearly 200 
COVID-19 cases reported. Please know that BIE, Indian Affairs, 
and the Department considers any single death as one too many, 
as we pay our respects to those lost and to their families.
    BIE schools are operating in-person, hybrid and remote 
learning, guided by local decisions to keep students, 
educators, and communities safe. BIE school leaders and their 
staff dedicated themselves to ensure students had a scholastic 
environment to learn.
    BIE agency staff worked hard with their schools, 
communities, States and tribal leaders to support local 
academic and behavioral needs of students and staff. They 
coordinated with tribes as they exercised their sovereign right 
to protect their people.
    While BIE's goal has been and remains on-site learning to 
the extent it is safe, BIE is using the latest updated 
Department of Education and CDC guidance to inform school site 
reopening activities. The decision is made locally, at the 
school level, in coordination with our field staff, public 
health officials, alongside tribal governments, as we honor 
their sovereignty and decision-making authority.
    To support our students and staff, with the geographic 
isolation of many BIE schools, we prioritized the need to 
bridge the gap in the internet connectivity and access to IT 
hardware to support distance learning. Our team works across 
Indian Affairs to support high-speed broadband access to all 
BIE school sites.
    BIE ordered more than 8,000 hotspots and jet packs to 
provide internet for students at home, and supplied more than 
10,000 laptops to school leaders to determine delivery to their 
students. Our goal is to support fully a full connectivity 
infrastructure in the communities we serve, as outlined under 
the President's American Jobs plan.
    BIE is also working with a team to integrate a unified 
learning management system that will support long-term digital 
curriculum and our ability to implement our first-ever 
standards assessment and accountability system. Our entire team 
has worked to ensure that our BIE direct appropriations are 
helping schools and improving operations as effectively and 
efficiently as possible.
    Of the [indiscernible] $153 million of Department of 
Education CARES Act funding, more than 93 percent has been 
obligated. Sixty-seven .5 percent of the $409 million in BIE 
funding through the second tranche of relief funds has also 
been obligated. Most recently, the American Rescue Plan 
provided an additional $850 million to BIE, which was 
distributed this past week after consultation with tribes.
    While technology and funding relief has been critical in 
supporting our schools locally, reopening our school sites 
safely also requires safe and modern school facilities. BIE 
coordinated with our Indian Affairs Public Health and Safety 
Program for a school reopening health and safety training 
summit over the past year. The program is also working with a 
third party to conduct school ventilation system assessments to 
provide recommendations for site improvement supported by COVID 
relief funds.
    With 86 schools in poor condition, 44 are prioritized for 
action. However, 73 school projects remain unfunded. Funding is 
a key factor in our ability to provide modern, inspiring, and 
safe schools. Currently, the average cost of replacing a school 
in poor condition is $62 million, putting the total cost of 
replacing BIE schools in poor condition at roughly $4.5 
billion.
    I also want to note that during consultation in March, a 
tribal leader shared that tribes are deeply invested in 
educating our children, because we know our kids are the future 
community leaders, cultural protectors and language speakers. 
Unfortunately, COVID-19 has disproportionately affected our 
elder population, who are often the community's remaining 
Native speakers. This year, BIE awarded $14 million in language 
immersion awards to 17 schools who are working to get funding 
distributed more efficiently to help schools conduct classes 
aimed at increasing Native language proficiency and support the 
cultural needs of our communities.
    BIE has increased our employment from 43.6 percent filled 
in 2018 to a high of 70.3 filled in recent months. Staff also 
implemented the BIE's first ever standards assessment and 
accountability system to better align academic supports to the 
needs of our students and schools.
    Thank you again for the invitation to appear today. I look 
forward to answering your questions.
    [The prepared statement of Mr. Dearman follows:]

   Prepared Statement of Tony L. Dearman, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Schatz, Vice Chairman Murkowski, and 
Members of the Committee. Thank you for the invitation to appear again 
on behalf of the Bureau of Indian Education (BIE). I am glad to join 
you today to discuss the BIE regarding ``Examining the COVID-19 
Response in Native Communities: Native Education Systems One Year 
Later.''
    As you may know, COVID-19 death rates for Native people are 
disproportionally higher than for other demographic groups. BIE has had 
its own personnel losses from COVID-19 over the last year. So, please 
know that BIE, Indian Affairs, and Department of the Interior 
leadership considers any single death related to COVID-19 as one too 
many. I am also personally cognizant, from my own family experiences, 
that such loss can affect an entire school and local community, so BIE 
is working to provide personnel supports, where appropriate, as well as 
help our schools and staff as we all work to recover from the last 
year.
    BIE career and school staff across the country also understand well 
the toll the pandemic has taken on our schools and communities as many 
work locally and have experienced hardships alongside many of our 
students and school staff. As such, I want to acknowledge the faculty 
and staff we have lost to, or have been personally affected by, COVID-
19. We pay our respects to those lost and to their families. We lost 
nine school staff members and tracked nearly 200 cases of COVID-19 to-
date.
    Our school leaders have dedicated themselves each day to ensure 
students have as normal a learning environment as possible as schools 
work to physically reopen their local sites. BIE staff across the 
organization are actively working with their schools, communities, 
states and tribal leaders to better understand local conditions as well 
as to address behavioral health and wellness needs of our students 
during these trying times.
    Across the organization, BIE staff are working with tribal 
communities to ensure we emphasize collaboration among school 
administration, parents, staff, tribal leaders, and their communities. 
We respect tribal public health orders, we reaffirm our commitment to 
tribal sovereignty, and active and ongoing coordination helps us 
support our tribal, school and community leaders.
Student and School Support: COVID-19 Recovery
    Through the pandemic, BIE has been, and continues to be, focused on 
supporting our students, schools, tribal communities, and stakeholders 
by meeting a broad range of challenges. BIE staff across the 
organization are dedicated to supporting the following priorities as a 
result of direct engagement and consultation with Indian Country over 
the last year, including:

  <bullet> School Site Closures and School Year 2021-2022 Reopening 
        Planning

  <bullet> Mental and Behavioral Health Supports and IHS Coordination

  <bullet> Student Connectivity and IT Infrastructure

  <bullet> COVID-19 Relief Funding

  <bullet> Native Language Supports

    I also include several congressional recommendations that may 
assist with ensuring BIE is better situated to continue its support to 
our schools and students. We want to help increase parity among BIE 
students with their non-Native peers under these unique circumstances.
School Site Closures
    As the COVID-19 pandemic spread, BIE and its Indian Affairs 
partners worked to transition school sites to remote learning 
operations as quickly and safely as possible. BIE worked to provide 
distance learning supports and critical services at the local level 
such as providing onsite school lunches where it was safe. When tribes 
requested additional support, such as at Navajo Nation, BIE worked with 
its partners across Indian Affairs to directly provide specific 
guidance that addressed the requests of the tribe and the needs of the 
local community. We did this collectively to protect our students, 
educators, staff and communities to the extent practicable during the 
quickly changing COVID-19 environment.
    As part of the site closure work in the spring 2020, BIE used its 
emergency management (EM) team and its dedicated personnel with 
specific roles and responsibilities to support schools and address 
mitigation needs. Using the BIE chain of command, the EM team and 
support staff from BIE's School Operations Division provided dedicated 
support to schools and has continued that support. BIE leadership 
communicated specific points of contact for the field to improve BIE 
support to schools, such as providing additional personal protective 
equipment (PPE) or mitigation services for instances of COVID-19.
    Today, BIE-funded school opening status is different from the 
initial onset of COVID-19. BIE is now using Department of Education 
(ED) and Centers for Disease Control and Prevention (CDC) reopening 
guidance \1\ for our schools as they look to reopen activities and 
support the mix of students learning on-site, remotely, or through a 
hybrid model that combines distance and on-site learning. As has been 
the case throughout the pandemic, the goal remains to support on-site 
learning. This decision is made locally at the school level, in 
coordination with our field staff and public health officials, and 
alongside tribal governments as we honor their sovereignty and 
decisionmaking authority. The below statistics relate to the status of 
BIE-funded schools as of mid-April 2021. These numbers change weekly 
based on the priorities and direction of tribal governments and the 
needs of local communities. BIE continues to support local and tribal 
coordination as BIE staff honors the best path forward to keep students 
and community members safe.
---------------------------------------------------------------------------
    \1\ Volume 1: Strategies for Safely Reopening Elementary and 
Secondary Schools and COVID-19 Handbook, Volume 2: Roadmap to Reopening 
Safely and Meeting All Students' Needs.
---------------------------------------------------------------------------
    Bureau Operated Schools: Of the 22 Bureau Operated Schools, no 
schools are operating under a traditional, on-site classroom setting, 
while seven schools are operating with a hybrid learning model 
consisting of onsite and remote learning models. The remaining 15 
schools are operating completely remotely using distance learning 
educational models to support educational continuity for students.
    Tribally Controlled Schools: Of the 98 Tribally Controlled Schools, 
15 schools are operating under a traditional, onsite classroom setting, 
while 32 schools are operating with a hybrid learning model consisting 
of onsite and remote learning models. The remaining 51 schools are 
operating completely remotely using distance learning educational 
models to support educational continuity for students.
    BIE Navajo Schools: To adhere to local Tribal orders, of the 64 
schools serving the Navajo Nation (both Bureau Operated and Tribally 
Controlled Schools), 62 schools are operating remotely using distance 
learning educational models to support educational continuity for 
students and one school site is now operating under a hybrid model. 
Richfield Residential Hall, a Tribally Controlled peripheral dormitory 
facility that supports a local public high school, is open for onsite 
services for Native youth.
School Year 2021-2022 Reopening Planning
    BIE staff are working to address the needs of students who have 
been disrupted by the pandemic. BIE is determining the best means for 
assessing the gaps in learning due to the lack of traditional face-to-
face instructional hours. As such, we plan to consult with tribes and 
stakeholders on May 4-5 regarding the extent to which BIE-funded 
schools can administer BIE's assessments this year and whether BIE 
should request an assessment waiver from ED. BIE will also host school 
reopening consultations on May 10 for Grades K-12 and BIE residential 
facilities and May 11 for post-secondary institutions to determine if 
supplemental reopening guidance is needed due to the unique nature of 
our system. BIE staff is also working with schools to identify summer 
school options with eight tribally controlled schools and 17 Bureau 
Operated Schools that have plans to host summer school. BIE is 
implementing plans to expand operational capacity through BIE's first-
ever bureau-wide learning management system (LMS), which will align 
student data, communications, and curriculum for learning inside the 
classroom and in a remote environment interchangeably. We are also 
providing additional hotspots and other hardware, working across Indian 
Affairs to provide dedicated Information Technology (IT) support staff, 
and improving BIE's IT infrastructure more broadly that will support 
BIE schools, students and families for years to come.
    Through consultation with tribal leaders and stakeholders, BIE will 
work to identify gaps in existing ED and CDC reopening guidance 
respective to our unique education system, such as BIE's residential 
facilities. As BIE staff gathers recommendations for reopening, they 
will work with schools to assist in the updating of locally and 
culturally responsive individual school reopening plans to prepare for 
the 2021-2022 school year. Further, BIE is partnering with states with 
high Native populations through our ED-funded comprehensive center to 
exchange best practices for reopening and also supporting school 
leaders by providing opportunities for cross-collaboration and 
professional development. Directives provided from Washington, DC must 
allow for local flexibility to be successful due to the unique local 
needs of tribes and BIE schools.
Mental and Behavioral Health Supports and IHS Coordination
    The BIE, through the efforts of our Student Health Program 
Specialist, implemented the agency's first-ever comprehensive 
behavioral health and wellness program to support those in need during 
and post-pandemic. The $2.1 million proposal is providing behavioral 
health/crisis support services for students, families, and staff in 
Bureau-Operated and Tribally Controlled Schools as well as at the 
agency level to meet their unique and local needs presented as a result 
of the COVID-19 pandemic. The Student Health Program Specialist 
researched and met with other federal agencies before finalizing the 
proposal. The supports under the contract will work to address the 
following at a national level:

  <bullet> The expansion of BIE's current Employee Assistance Program 
        (EAP) contract to include students and Tribal school staff for 
        a minimum of five months (approximately $1.5 million). Services 
        would include a BIE-specific 24/7 toll-free number connecting 
        individuals to a licensed mental health professional; virtual 
        counseling sessions (three sessions per individual); and 
        proactive mental health/suicide prevention screenings.

  <bullet> The creation of a specific wellness, emotional support, and 
        telehealth contract (approximately $2 million) with a Native-
        owned vendor focusing on: weekly virtual wellness events/
        trainings, a resource library specific for BIE staff and 
        students, and telehealth counseling support with licensed 
        clinicians from the University of New Mexico.

  <bullet> The creation of a specific clinical/therapeutic service 
        contract (approximately $400,000 for 200 hours of service 
        delivery) with a Native-owned clinical provider. This vendor 
        employs the following types of mental health service providers: 
        adult/child psychiatrists (MD), licensed clinical social 
        workers, adult/child psychologists (Both PhD and Masters level 
        clinicians), traditional counseling (using Native specific 
        traditional interventions), and case managers.

    Additionally, BIE initiated communication with the Indian Health 
Service (IHS)-Division of Behavioral Health (IHS Headquarters) and IHS 
Regional Office behavioral health consultants in 2020 to begin COVID-19 
coordination for BIE off-reservation boarding schools. BIE is also 
hiring additional behavioral health staff members in each of its three 
divisions (Bureau Operated, Tribally Controlled, and Navajo Schools) to 
expand capacity to better support schools while coordinating nationally 
with BIE Central Office. BIE also continues to coordinate with IHS at 
the occurrence of a student or employee death to support counseling 
services that IHS may have available for students, families, and school 
employees.
    Through our partnership with IHS on various issues, a weekly 
coordination call has expanded direct coordination with IHS on 
counseling/crisis support and local memoranda of agreement for specific 
behavioral health supports in Bureau-operated schools. BIE leadership 
also meets weekly with IHS personnel and leadership, as necessary, to 
support IHS COVID-19 vaccination efforts to prioritize BIE school staff 
and employees due to their essential status, which will support local 
school reopening, where feasible.
Student Connectivity and IT Infrastructure
    Due to the geographical isolation of BIE schools, we understand 
connectivity challenges well. We are coordinating across Indian Affairs 
to support high-speed broadband access at all BIE school sites. We made 
rapid gains over the last year to provide high-speed Internet to BIE 
students in remote environments. To further support this work, the 
funding request in the President's American Jobs Plan proposal for 
broadband expansion as well as inter- and intra-Departmental 
coordination will also help BIE and tribal communities address gaps in 
access. We are not content to rely solely on hotspots and jetpacks to 
expand access. Our goal is to support the better, more expansive 
solution of full connectivity infrastructure in the communities we 
serve as outlined more broadly under the American Jobs Plan.
    In the near term, BIE staff are responding to issues pertaining to 
Internet connectivity as well as having the correct device, often 
dictated by the age of the student, to access the Internet for 
learning. BIE not only ordered more than 8,000 hotspots or jetpacks 
that provide Internet for students at home, but we also piloted a 
project to create 25 ``smartbuses'' for the BIE's 25 longest bus routes 
that can also be parked near centralized housing locations or in 
parking lots for students to access Wi-Fi while remaining socially 
distant during the pandemic. BIE ordered more than 10,000 laptops, and 
to date, 99 percent have been delivered to schools for school leaders 
to determine how best to deliver the new hardware to their respective 
students. BIE staff coordinated and continue to hold calls several 
times per week with Indian Affairs staff to plan for new students and 
potential hardware repair needs as identified by school leaders.
    We also continue to focus support for IT through implementation of 
BIE's LMS as described above. However, we face continued challenges, 
including the inability of jetpacks to receive a signal in student 
homes and powering devices in homes without electricity. To meet these 
challenges, BIE staff used school check-in calls to assist with Wi-Fi 
extension supports and investigated how solar chargers might be used to 
support distance learning.
    Understanding the need to continue local support, BIE plans to 
provide extensive professional development for educators that support 
improvements in instructional design. Staff members are working to 
empower teachers, academic aides, and school administrators to 
effectively use technology to support student learning. BIE's LMS is 
expected to be in place later this year to facilitate and support 
student learning. BIE-funded Tribally Controlled Schools will continue 
to use their own systems. Field staff are working to engage families in 
using technology by providing support, such as tutorials on the use of 
technology and platforms provided by the school. And, BIE, through 
coordination with Indian Affairs, also identified a dedicated IT 
support group to assist schools with IT problems as they arise.
COVID-19 Relief Funding
    BIE-U.S. Department of the Interior (DOI) funds under the 
Coronavirus Aid, Relief, and Economic Security (CARES) Act has targeted 
immediate student needs related to mental health and safety, staff 
training, and IT investments. The identified goals of the more than $46 
million in DOI CARES funding targeted for K-12 schools are distinct but 
complementary to ED Education Stabilization Funding (ESF) of $153 
million. When I testified last year, we discussed the importance of 
getting BIE funding to communities and schools as quickly as possible 
to make the most impact.
    Our entire team has worked to ensure that our BIE direct 
appropriations are helping communities and improving operations as 
effectively and efficiently as possible. As of early April, I can 
report that 92 percent of the BIE direct appropriations have been 
obligated. Of the initial $153 million ED Stabilization dollars, more 
than 90 percent has been obligated. The ED ESF-2 funding of $409 
million under the Coronavirus Response and Relief Supplemental 
Appropriations Act (CRRSAA) is 33 percent obligated. The American 
Rescue Plan (ARP) funding also provides an additional $850 million, on 
which BIE consulted, in coordination with Indian Affairs, to receive 
further input from Indian Country on BIE uses of relief funding. The 
ARP funding was routed to recipients by April to meet the 45-day 
funding deadline.
    The relief funding equips individual schools with the necessary 
resources to provide customized solutions to locality-specific 
reopening challenges. In locations where a school has unfortunately had 
COVID-19 related cases and/or deaths, the relief funding equips school 
leaders with the ability to provide staff and students critical mental 
health support through contract services. Other relief funding, such as 
that from ED, is designed to provide schools the ability to plan for 
and address mid-to-long-term challenges in providing continuation of 
instruction, such as gaps in IT infrastructure. Because each BIE-funded 
school faces unique COVID-19 related challenges, and pursuant to 
current ED guidelines, specific percentages of expenditures vary by 
school location. Providing schools with this flexibility to match 
funding to the immediate reopening needs of each school is critical to 
ensuring that schools expedite a return-to-traditional operations as 
quickly and safely as possible.
Safe and Modern Facilities
    Reopening schools safely also requires safe and modern school 
facilities. BIE coordinated with our Indian Affairs public health and 
safety program for a School Reopening Health and Safety Training 
Summit. The Summit addressed a wide range of needs and guidance 
regarding safe practices to mitigate transmission of COVID-19, face 
coverings, social distancing, cleaning, disinfecting, ventilation 
systems, and appropriate measures for water systems like flushing and 
testing, as well as procedures for COVID-19 related requests, emergency 
preparedness, and opportunities for one-on-one virtual site visits and 
consultation. The Public Health and Safety Program is also moving 
forward with a third party to conduct school ventilation system 
assessments and provide recommendations. CARES Act and ARP funding will 
help address these needs.
    In the long term, the President's American Jobs Plan will also help 
modernize our nation's schools and upgrade federal facilities that 
service our students. We are modernizing our schools through additional 
resources provided under the Great America's Outdoor Act and improved 
management actions, such as our new site assessment and capital 
investment process and the use of smart acquisition vehicles. However, 
modernizing our schools will take time. There are currently 86 Grades 
K-12 schools in poor condition, 44 schools prioritized for action, and 
73 unfunded schools. Resources are a key factor in our ability to 
provide modern, inspiring schools.
    The average cost of replacing a school in poor condition is $62 
million, putting the total cost of replacing BIE schools in poor 
condition at roughly $4.5 billion.
Native Language Supports
    During formal tribal consultation in March 2021 a tribal leader 
from the Fort Belknap Indian Community told BIE staff that ``tribes are 
deeply invested in educating our children because we know these kids 
are our future community leaders, cultural protectors, and language 
speakers.'' Unfortunately, COVID-19 has also disproportionately 
affected elder populations who are most often a community's remaining 
Native speakers.
    Through this loss, COVID-19 has taken away primary support 
structures for our students. Native language immersion and nest 
programs are also directly supported through the U.S. Department of 
Health and Human Services' Administration for Native Americans (ANA), 
Native American Language (NAL) grants from ED under Title VI of the 
Elementary and Secondary Education Act (ESEA), and Native American and 
Alaska Native Children in School Program (NAM) Grants from ED under 
Title III of the ESEA. Also, the BIE, ANA, and ED collectively have 
hosted an annual Native Languages Summit to provide cross departmental 
language support resources.
    The BIE continues to focus its Native language development funding 
through Indian School Equalization Program (ISEP) and Education Program 
Enhancements. Due to the pandemic, local implementation may have varied 
over the last year in delivery. But, in general, schools conduct 
classes aimed at increasing Native language proficiency during the 
instructional day. Schools also provide teachers with professional 
development to incorporate Native language use in their curricula and 
integrate language and culture into instruction. The Education Program 
Enhancement subactivity enables BIE to provide services and necessary 
resources to meet the unique needs and priorities of individual tribes 
and their schools. BIE local Education Resource Centers use the 
Enhancement Program to fund professional development and technical 
assistance at all levels of the BIE school system to improve student 
outcomes.
    The ISEP funding formula generated $27.9 million for Language 
Development in BIE-funded schools in School Year 2018-2019, and $27.6 
million in School Year 2019-2020. In accordance with the congressional 
set-aside for Native language immersion, the BIE also distributed $2 
million in grant funds in each of Fiscal Year 2018 and 2019 to 30 
Bureau-funded schools to increase oral Native language proficiency by 
expanding or creating language immersion programs. For this year, BIE 
has awarded $14 million in language immersion awards to 17 schools. Of 
the 17 schools, 16 were tribally controlled schools like Navajo Prep 
School, Hopi Junior High and High School, Pine Hill School and one BIE-
operated school.
Conclusion
    Throughout the pandemic, I have consistently witnessed the 
dedication of our local-level school staff and our employees in the 
field. It has been a difficult year for all, but whether they are 
essential staff providing direct on-site services at a school or 
support staff working virtually to indirectly support our agency's 
mission, BIE employees have continued to improve our services. BIE has 
worked to improve school-level supports and has ensured Bureau-wide 
projects continued under often stressful conditions by continuing to 
increase our agency-level capacity even during the pandemic. This 
includes a position filled rate of just 43.6 percent filled in 2018 to 
a high of 70.3 percent filled in recent months with more hires in 
process. Staff have also continued their work to implement the BIE's 
first-ever Standards, Assessment, and Accountability System to better 
align academic supports to the needs of our students and schools.
    Through this work and support for other national Bureau priorities, 
BIE staff are focusing attention on the needs of our schools and 
communities as well as upholding our trust responsibility to Indian 
Country and our dedication to tribal sovereignty. Whether our employees 
were making sure students had food, bus drivers were making photocopies 
and delivering paper packets to students with poor connectivity, or 
field employees had to work virtually, the support of BIE staff members 
for our communities has been dedicated and always cognizant of the need 
to partner and support the students and tribes we serve.
    However, no system is perfect and the unique environment under 
COVID-19 required coordination on an unprecedented scale and consistent 
support from BIE leadership and the field to school leaders. Early on, 
BIE Central Office and field staff like Education Program 
Administrators held calls directly with school leaders to improve 
communication and identify solutions to problems in real time. Through 
direct engagement with our schools and support to our field staff, I am 
proud that when nearly 46 percent of the BIE workforce was retirement 
eligible in 2018, and with that eligibility rate increasing annually, 
our staff has remained on the job, our capacity is increasing, and we 
are resilient to provide improved education services to BIE students.
    Chairman Schatz, Vice Chairman Murkowski, and Members of the 
Committee, thank you again for the invitation to appear today. I look 
forward to answering your questions and our continued partnership in 
improving educational services to BIE students as we plan for the 2021-
2022 school year. I appreciate the opportunity to share the needs of 
BIE students in our schools and the supports BIE provided over the last 
year. Thank you again for your leadership and the continued support you 
provide for our students and BIE schools.

    The Chairman. Thank you very much.
    Next is Mr. Lance West, Principal of Schurz Elementary 
School in Nevada.

          STATEMENT OF LANCE WEST, PRINCIPAL, SCHURZ 
    ELEMENTARY; VICE CHAIRMAN, BIE PYRAMID LAKE SCHOOL BOARD

    Mr. West. Chairman Schatz, Vice-Chair Murkowski, and 
Committee members, thank you for the invitation to testify on 
behalf of the Agai Dicutta, Walker River Paiute, and Cui-ui 
Dicutta, Pyramid Lake Paiute. How mu. Nu Lance West me nanea. 
Nu Cui-ui Dicutta. Nu pooenabe tunedooedu. How are all of you? 
My name is Lance West. I am an enrolled member of the Pyramid 
Lake Paiute Tribe.
    I am an elementary school Principal for Schurz Elementary 
School, a public K-6 school located on the tribal lands of the 
Walker River Paiute Reservation. I am also an elected school 
board member for Pyramid Lake Junior/Senior High School, a 6-12 
BIE-funded school, located in Nixon, Nevada on the Pyramid Lake 
Paiute Reservation.
    First, Pesa mu. Thank you all for your continued support as 
members of this important Committee. You allow for our voice to 
be heard and concerns to be presented that can result in 
policymaking for the benefit of our people.
    Your work as a committee and with Senatorial colleagues to 
advocate for all Indian children, including the 70 Schurz 
Elementary Students and 150 Pyramid Lake students that I get 
the privilege and honor to serve every day is recognized and 
greatly appreciated. Pesa mu.
    I will summarize one strength and one area of improvement. 
One strength identified during the past year is recent high 
speed internet connectivity and access for Schurz Elementary 
School and Walker River Paiute Tribal Community. Historically, 
both the school and community endured poor, unreliable internet 
access. The only options were a nationwide cellular network or 
satellite-based internet.
    This lack of high-speed access prevented our educators' 
ability to provide a 21st century education to our students. 
How could our teachers incorporate internet-based projects if 
only a small percentage of students had internet access from 
home?
    In 2018, I advocated for school internet infrastructure 
improvements, recognizing immediately the inequity that existed 
when comparing ourselves to nearby districts and towns. Thanks 
to my advocacy, the Mineral County School District applied and 
was approved for E-Rate grant funding. As of late spring last 
year, right in the midst of the pandemic, Schurz Elementary 
School began running at 1 gigabyte internet speed.
    The Walker River Paiute Tribe were also included in the E-
Rate grant, attaining high speed access. All of our students' 
homes received installation and high-speed internet access, 
thanks to a partnership between Walker River Paiute Tribe and a 
local internet company using CARES Act funding.
    I consider this a major accomplishment for myself, for the 
tribe and for each of you on this Committee. Pesa mu.
    One area of improvement that must receive attention is 
this. As a school board member, there was very little guidance 
and direction provided from BIE with respect to reopening last 
summer. Unlike my experience in Mineral County, where a 
committee composed of parents, teachers, certified and 
classified staff, and administrators, developed a reopening 
plan over several meetings, Pyramid School's reopening plan was 
created primary by staff and administrators.
    Sitting in school board meetings over the summer during 
discussion of reopening, I could not help but think of all of 
the guidance and the direction provided to the school districts 
from the Nevada Department of Education. All the while, my 
question was, where is BIE in all of this? Where is their 
guidance and direction? We were missing important stakeholder 
input, which would have been extremely valuable to the 
planning.
    If there were BIE deadlines and submission requirements for 
the reopening plan, I was not made aware, nor was the school's 
leadership team. To the staff's credit, they did a fantastic 
job creating a plan. All reopening plans deserve high quality 
review and support, especially with the damage COVID could do 
to our Native communities. As a BIE-funded school board member, 
I believe questions should be asked.
    In conclusion, during the past year, the pandemic has 
impacted every facet of the lives of our Native students, 
particularly their education. As you know, statistically, prior 
to the pandemic, the achievement gap comparing Native students 
to their white counterparts was wide. Now that gap has 
increased.
    Our tribal governments and school districts that serve high 
Native student populations need access to timely, reliable and 
accurate achievement data for all students, K-16. How can you 
ask tribes to exercise their educational sovereignty when they, 
one, do not have access to the most recent data on their 
students, enrolled tribal members, and two, are not trained to 
interpret and support students effectively based on this data?
    I ask each of you to provide Federal support for a 
statewide framework for data sharing resources that tribal 
governments can use to effectively support and maintain K-12 
and higher institution student achievement. No defined 
structure exists for tribes to quickly acquire vital short term 
and long-term achievement data. This includes grades, State and 
national test results, attendance and discipline data.
    Once a system is established a tribe will require highly 
qualified and effective professional development to understand 
how to interpret and implement education services.
    The second ask is expansion of funding from the Office of 
Indian Education's Indian Professional Development Program. Our 
Native students must see more of themselves represented in the 
classroom. Service and post-service programming that recruits 
and retains highly qualified culturally responsive Native 
teachers and administrators must become a priority.
    As of today, no higher education institution in Nevada 
offers such a program. The time to act is now. The Federal 
Government should also encourage the importance of growing your 
own teacher preparation programs in tribal communities as well.
    With that, I look forward to answering any questions you 
may have for me. Pesa mu.
    [The prepared statement of Mr. West follows:]

 Prepared Statement of Lance West, Principal, Schurz Elementary; Vice 
                Chairman, BIE Pyramid Lake School Board
    Chairman Schatz, Vice-Chair Murkowski, and committee members, thank 
you for the invitation to testify on behalf of the Agai Dicutta (Walker 
River Paiute) and Cui-ui Dicutta (Pyramid Lake Paiute). How mu. Nu 
Lance West me nanea. Nu Cui-ui Dicutta. Nu pooenabe tunedooedu. How are 
all of you. My name is Lance West. I am an enrolled member of the 
Pyramid Lake Paiute Tribe. I am an Elementary School Principal for 
Schurz Elementary School, a public K-6 school located on the tribal 
lands of the Walker River Paiute Reservation. I am also an elected 
school board member for Pyramid Lake Junior/Senior High School, a 6-12 
BIE-funded school, located in Nixon, Nevada on the Pyramid Lake Paiute 
Reservation.
    First, Pesa mu. Thank you all for your continued support as members 
of this important committee. You allow for our voice to be heard and 
concerns to be presented that can result in policymaking for the 
benefit of our people. Your work as a committee and with Senatorial 
colleagues to advocate for all of Indian children, including the 
seventy Schurz Elementary Students and one-hundred fifty Pyramid Lake 
students that I get the privilege and honor to serve every day is 
recognized every day is greatly appreciated. Pesa mu.
    My experiences as a public school administrator and BIE school 
board member serving in high native student communities during the past 
year will provide you with a full perspective of how this pandemic has 
impacted Indian Education in Nevada. My perspective will focus on 
strengths found, areas of improvements, and realistic solutions moving 
forward which I believe each of you need to be aware
    I am currently in my third year as Principal and sixteen months 
into my role as a Pyramid Lake Schools Board of Education member.
    I am a realist. Realism is the philosophy I have lived and worked 
by in my profession the last nineteen years. This approach has received 
criticism at times that my outlook is viewed as pessimistic, where my 
focus is that on the negative. Improvements to Indian Education 
requires one to acknowledge the conditions found in educational systems 
today in order for progress to be made. Those conditions include 
acknowledging and addressing systemic racism, inequities for students 
of color, and the deficit mindset. One personal goal that I strived for 
since my acceptance into the University of Nevada Reno's College of 
Education's Teacher Program all those years ago is this: Improving 
education for the young Native people in my community.
    The opportunity, or achievement gap, between students of color and 
their white counterparts, has widened, make no mistake, due to the 
Pandemic. Despite improvements to tribal Internet connectivity and 
access to technology for students, the Digital Divide remains. Once the 
funds associated with the pandemic are long gone, Indian Education 
continues. My schools, along with all other high Native student 
population schools in Nevada and throughout the country, will continue 
with the business of preparing students for college and/or careers 
after high school. The current education system in place, before the 
pandemic, has yet to build capacity for success for our Native American 
children will continue, business as usual. The achievement gap has 
widened, make no mistake. Additional funding for interventions, mental 
health, Native teacher recruitment and retention pre- and post-service 
programming, and culturally relevant pedagogy should become the 
priority of this committee.
    The Pandemic and the murder of George Floyd are defining moments 
for me and many of my fellow Indigenous educators the past year. A 
group of us Indigenous educators and community activists realized that 
rather than wait around for the help from the state's department of 
education to provide solutions to Indian Education in Nevada to 
problems that have existed for far too long, that we organize and 
become the voice of Native communities in our state. Our organization, 
Indigenous Educators Empowerment, regularly collaborates with NDE's 
Indian Education Department, the Nevada Indian Commission, 
universities/community colleges, and school districts. This 
collaboration discusses all the issues and concerns that we have seen 
in Indian Education locally for years. We have solutions, but we cannot 
do it alone.
    I look forward to answering any and all questions you may ask of 
me. Pesa mu.
Strengths--Student Access to Technology
    PLHS staff early in the pandemic recognized the need for technology 
and didn't hesitate to request funding for purchase. Same with the 
Internet for students at home. In collaboration with PLPT, full time 
distance learners were provided with devices for Internet access. At 
Schurz Elementary, WRPT had developed a relationship with a local 
Internet provider and utilized COVID CARES funding to pay for 
installation and funds toward monthly payment of Internet services. The 
provider, Preferred Internet, provided enough bandwidth to support live 
streaming video for students learning from home. At MCSD, getting 
technology into the hands of our Schurz students was not an issue. 
Schurz Elementary was at a 1 to 1 student/Chromebook ratio and with the 
support of MCSD district office, were able to provide our JH/HS 
students attending Hawthorne the technology. Food services for both 
communities was well coordinated by all staff.
    Veteran staff as well, not accustomed to technology in their normal 
teaching schedule, were hesitant as well and struggled with the 
transition to the blended learning model. The lesson was learned, but 
it took an entire semester to figure out a revised approach, at 
semester, there was a push to bring struggling students back in person. 
This approach was very helpful and continues to be the right decision.
Area of Improvement: Addressing the Widening Opportunity (Achievement) 
        Gap
    Academic achievement for Native students in grades 3-12 is lower 
than their white counterparts. Nevada has a Nevada School Performance 
Framework (NSPF) that rates schools on a number of factors from state 
assessment results to chronic absenteeism. his rating is based on a 
scale from 0-100 and one to five stars. Schurz Elementary School has 
been rated a Rising Star (one star) school for all three years. Last 
year (2019-2020 SY), no testing took place so we were rated based on 
the 2018-2019 data. The majority of high Native student population 
schools in Nevada have a similar rating. This was before the pandemic. 
Now, with the gap widening due learning from home and/or hybrid 
learning. We have interventions in place, but have had no time to 
implement due to the reopening plan requirements such as social 
distance. For us this meant to create two sessions, one AM and the 
other PM. All of our in-person learners at Schurz Elementary School are 
on campus for no more than 3 hours each day. That is just enough time 
to eat lunch or breakfast (depending on your session) and 90 min of 
Reading and Math blocks. There is no time for Intervention. Another 
requirement of our reopening does not allow our classes to interact. 
Typical Intervention programming allows a student, below grade level, 
to interact with students with the same skill level. So a 3rd grader, 
behind academically in Reading, would be allowed to work in a small 
group with 2nd graders during our Intervention Block (30-40 minutes).
    There are distance learners' parent/guardians who have not allowed 
them to take their quarterly MAP assessments in Reading, Math, Science, 
and Language Usage because of their own concerns, despite the protocols 
in place. We respect their concerns and allow them not to test. 
However, without a baseline, our teachers are in the dark in this area. 
There are other data points of course, such as grades, attendance, unit 
test scores, and projects to determine any re-teaching to those 
students.
    We are currently in the middle of completing our state SBAC 
testing. Now, our distance learners will return to test this week, we 
can only hope for the best.
    Next year, we will need to maximize Intervention blocks to a level 
never seen before. With my small staff, that will not be possible 
without more feet on the ground. This means hiring more teacher aides, 
an Interventionist, a Literacy Strategist, a PD Coach, a Student/Parent 
Involvement Coordinator, a Counselor, etc. I need these positions.
Strengths--BIE funding to Address Additional Staffing Needs
    Pyramid Lake Schools have a large budget for being a smaller 
school. School administration has been hiring additional staff to 
support our students during their return to hybrid learning second 
semester. As a board member, we will continue to monitor student data 
points and identify areas of need with the confidence that hiring 
qualified staff to support student achievement is a top priority.
Strengths--Strict Tribal Community Lockdowns
    Tribal leadership in both communities and lockdown of the 
reservation with curfews and restrictions for visitors helped keep 
overall COVID numbers and deaths down.
    Each of the two community's tribal governments early on took 
immediate action to protect our people such as enacting strict 
lockdowns and curfews. This approach, in hindsight, reduced the number 
of infections and loss of life. This approach could not be ignored by 
both schools. As board member, no decision by the board was made 
without thorough discussion regarding the impact it would have on our 
vulnerable populations. As Principal, all matters were shared with 
Walker River Paiute tribal leadership. Over the summer both schools 
designed and implemented reopenings plans in collaboration with tribal 
leadership and emergency response teams. During planning, My 
Superintendent would always remind district leadership to keep in mind 
the tribe's pandemic policies and to be respectful, always, of their 
decisions.
Strengths--Upgraded Internet Connectivity/Infrastructure
    Another strength was Internet connectivity. Historically, the town 
of Schurz, located on the Walker River Paiute Reservation, had poor 
Internet access. Nationwide cellular network or satellite Internet were 
the primary and reliable options. Of course, there would be an Internet 
provider business that would pass through the town, but would 
eventually move on. As an educator, the thought of assigning any work 
that required home Internet access, was out of the question. For years, 
the digital divide was evident in the community. Our children were not 
prepared for a 21st Century education. You might be asking yourself, 
``If the community had poor Internet access, what about the school's?'' 
Schurz Elementary School's current building is 21 years old. Until late 
Spring 2020, the school had a network infrastructure that fell way 
below the standard of all academic institutions. The Internet was 
delivered to the school via a satellite dish that was aimed directly at 
another satellite installed on top of the El Capitan Casino in 
Hawthorne. It was horrible. So, yes, generations of students were not 
receiving a 21st Century education with adequate Internet access. 
Thanks to a collaborative effort between the school district and the 
Walker River Paiute Tribe, MCSD applied for an E-Rate grant. It was 
approved and CC Communications was awarded the contract. As of Spring 
2020, our school was outfitted with one gigabyte of Internet. Fiber 
optic lines were run and connected up to the school. The final quarter 
of the school year, like all other schools in the state, we sent home 
paper packets. Over the summer, we were directed by NDE to provide 
distance learners using an acceptable and proven LMS (Learning 
Management System). We were allowed to choose a platform. We selected 
Google Classroom, rather than Canvas.
    Returning to the inconsistent community Internet access, a company 
began marketing high speed Internet, six months before the Pandemic, it 
was much better and reliable. It could stream! The community began 
replacing their bulky satellite dishes with smaller dishes. There were 
still way too many families without Internet. Thanks to the COVID-19 
relief CARES Act, the tribe used the funding to pay for installation 
and months of Internet access. By the start of the school year, 95 
percent of our families were connected from home. Eventually, every 
family had high speed and reliable Internet. A lesson, however, was 
going to be learned. Limited Teacher Technology Literacy.
    Pyramid Lake Schools also had a combination of nationwide cellular 
network and Internet access.
Strength--In Person and Distance Learner Curricular Alignment
    Pyramid Lake School teacher expectation was to provide live 
instruction via Google Classroom and Google Meet at the start of the 
school year. The roll out of distance learning, like all other schools, 
was shaky. Nonetheless, the PL teachers persisted. Professional 
Development was provided with weekly meetings to address concerns with 
shifting their curriculum to accommodate distance learners. The first 
nine weeks of the school year, all students were distance learning. In 
hindsight, this forced teaching staff no other option for providing 
instruction except with Google Classroom. This, in my opinion, was a 
good thing. As any school reopening plan will mention, should there be 
an exposure of students by someone who tests positive for COVID, the 
class, or depending on contact tracing, the entire school, may shut 
down for two weeks at a time. Transitioning their curriculum and fine 
tuning it the first nine weeks was of great benefit to students; with 
administration providing feedback and support.
    Fast forward to the end of March. I was conducting class 
walkthroughs with the PL school principal. In every classroom I 
observed the teachers were easily alternating between the in-person 
learners and distance learners seamlessly. Back at Mineral County 
School District, you would not see such a thing, particularly at their 
junior high/high school.
    My expectation as principal was the same at Schurz Elementary 
School. Live instruction, every day. You provide distance learners the 
same content as in person learners. Equity.
Area of Improvement--In-Person and Distance Learner Curricular 
        Inequities
    How would you feel, if your child was at home learning, with no 
real, formal way to communicate with any of their seven teachers? It 
took months for the school to enact something in the way of teacher 
contact information. How would you feel if your child was at least two 
years below grade level in ELA? Yet, the curriculum content was at 
grade level? Your child would struggle.
    Lessons learned specific to academics for our distance learners was 
rolling out distance education without time to test and create a system 
that could accommodate all learners. Both community's teachers 
frantically changed and revised curriculum to meet the needs of 
distance learners with only a few days of professional training. 
Professional learning was real time. What didn't work was dropped and 
replaced on a whim. In the meantime, our students below grade level or 
working from home was not an optimal situation and struggled while our 
teachers figured out a best approach. The emphasis of using online 
credit recovery programs such as Edgenuity did more damage as our 
learners below grade level struggled with at-grade level content.
    A large majority of the WRPT 7-12 students attending MCSD were full 
time distance learners. Elementary and Secondary teachers and 
leadership took two different approaches when it came to providing 
instruction for distance learners. Elementary emphasized daily live 
instruction via Google Meet and Classroom, while Secondary educators 
decided against daily live instruction. Instead, secondary educators in 
MCSD chose an online credit recovery program called Edgenuity. Rather 
than daily live interactions between student and teacher, all 7-12 
Walker River students would complete activities using this program. 
Direct communication was found in the program's built-in email system. 
When a student encountered issues with their progress, failed quizzes, 
exams, or missing required files, they emailed teachers. Now, the 
teachers also were responsible for their in-person learners as well as 
their distance learners. But, the instruction, when comparing the two 
groups, were completely different. Student issues and questions were 
answered immediately by in-person learners, while distance learners 
waited days on end for a response or ``unlocking'' of the next content 
area within the Edgenuity software. Every one of our Walker River 
students experienced this. They would contact me at the elementary 
school to ask me to follow up. Or, I would hear about their lack of 
progress and inquire directly with the high school administrator and 
teachers.
    The entire first semester was a waste due to poor communication, 
on-grade level content for students below grade level, and inequities 
between distance learner and in-person curriculum. Our parents and 
guardians accepted and acknowledged they were the ``last in line''. 
That the teachers would ``get to us, when they get to us.'' An 
acknowledgement that was painful to hear because they were accepting 
that there were not important enough to have their concerns addressed. 
The educational system, in the middle of the pandemic, failed our 
Walker River Paiute 7-12 students attending Mineral County School 
District during the Fall Semester of 2020.
    As I reflect on the past year, a pattern of behavior among our 
student's parents and guardians emerged that was concerning.
    These experiences and interactions with our 7-12 students and 
parents/guardians reminded me of a response to trauma. The awful 
feeling of accepting that you may not matter nor be valued. It reminds 
me of our Native people visiting our local Indian Health Clinic, with 
genuine health concerns and an optimism that our IHS resident doctor 
will do everything he/she can to let us know everything will be ok. 
Hoping that their every ounce of expertise will be dedicated to us. 
Then, to find out the reality that the doctor dismisses or invalidates 
your concern or your community tells you how horrible the doctor is. 
You try not to believe it. You hold judgement and remain optimistic. 
You make excuses such as, ``He was busy'' or ``Maybe I'm not as sick as 
I think I am.''
    Over time, perhaps your interactions continue to be similar and the 
advice and affirmation that the doctor does not care about you or the 
community sinks in. ``I don't have insurance, just IHS, how am I going 
to afford to see another doctor?'' You are stuck with the same health 
care system, the clinic. These realities present themselves and maybe, 
you resign yourself to the notion that our health care is not 
acceptable, but the only one I have, so the sooner you accept and 
acknowledge that you will be given poor health care for the rest of 
your life.
    This is the attitude I have seen with our parents/guardians here 
the past three years. They believe they have no power or control of the 
quality of education their child receives. They have accepted the fact 
that their child will receive a poor to modest education. What reality 
checks did they encounter to validate their resignation? Cycling 
through school principals yearly, continued rumors about Schurz 
Elementary School closing, low quality teacher hirings, and non-
existent teacher communication have all contributed to this reality to 
name a few.
    Our parents/guardians feel marginalized in this school system in 
which I work as elementary school principal.
    I see it, I feel it and it fuels the fire inside me. I acknowledge 
the resignation. I know this feeling all too well as a person of color. 
I respond to this equity with solutions.
Area of Improvement--Limited Educator Technological Capacity
    An area of improvement discovered was the teacher's technological 
capacity. In a school culture where limited Internet service was the 
norm for generations and lack of emphasis in digital curriculum, high 
quality and consistent professional learning for teachers must be a 
priority.
Strengths--Organized MCSD Reopening Committee
    Mineral County School District created a reopening committee 
composed of staff, parents, and administrators. Multiple meetings were 
held.
    Summer reopening meetings were often, with plenty of backtracking 
and re-interpretation of CDC guidelines. Eventually, Schurz Elementary 
Reopening Team had a reopening plan that was approved by the school 
board, Nevada Department of Education, and tribal emergency management 
leadership.
Area of Improvement--Limited Stakeholder Input in PLHS Reopening 
        Planning
    PLHS Reopening Plan was an agenda item for every board meeting held 
in late Spring leading up to September 2020. PLHS Administration 
reopening presentations were met with the typical concerns and 
questions referencing social distancing, cleaning and sanitation 
protocols, daily screenings, COVID indirect/direct contact protocol, 
and distance learning planning.
    We hired a new administration team early summer. In the meantime, 
staff developed what would become the reopening plan. Most of our 
reference and reopening template focused on nearby district state 
submissions. School administration confirmed what I had noticed in 
board meetings with reopening plans on the agenda. There was very 
little from BIE. There was no direction from BIE. The school board and 
I looked to the administration for direction, the administration should 
be able to look to BIE, but without induction and some training, all of 
us were left with addressing the reopening based on NDE and nearby 
school district plans. There were missing stakeholders whose input was 
extremely valuable. Parents, Tribal Leadership, and BIE were noticeably 
absent from the planning. Annual school improvement plans require input 
and sign off by all stakeholders. Same with high school accreditation. 
How could there not be a planning committee for reopening? The absence 
of parents, tribal leadership, and most importantly BIE, was 
concerning. There was no listed deadline and/or approval of the 
school's reopening. If there was, I was not made aware of it, nor was 
the school's leadership team.
    PLHS Reopening Plan was an agenda item for every board meeting held 
in late Spring leading up to September 2020. PLHS Administration 
reopening presentations met the typical board concerns and questions 
referencing social distancing, cleaning and sanitation protocols, daily 
screenings, and COVID indirect/direct contact protocol, and distance 
learning planning.
My Asks
    Provide federal support for statewide frameworks for data sharing 
resources that tribal governments can use to effectively support and 
maintain K-12 and higher ed student achievement. No defined structure 
exists for tribal education departments to quickly acquire vital short 
and long term achievement data including grades, discipline, 
attendance, and state and national test results (SBAC, MAP, ACT).
    Once a system is established, the tribes, to flex their educational 
sovereignty rights, will require effective professional development to 
understand how to interpret and implement services that must include 
all stakeholders.
    Our Native students must see more of themselves represented in the 
classroom. Recruitment and retention of highly qualified, culturally 
responsive Native teachers and administrators programming must be 
implemented. Office of Indian Education has a grant CFDA 84.299B, the 
Indian Professional Development Program. This highly valuable program 
should be expanded. The capacity exists in Nevada where this 
programming can finally become reality like the University of Idaho's 
IKEEP program. \1\ This program is a Teacher Pre-service program. Here 
in Nevada, I propose a Higher Education Institution offer both a 
Teacher and Administrator pre-service program. I formally mentor 
Natives students from their IKEEP (Indigenous Knowledge for Effective 
Education Program). Due to this relationship, I have been able to 
successfully recruit a Native teacher who is now working for Mineral 
County High School as their new PE teacher. The federal government 
should encourage the importance of ``Grow Your Own'' teacher 
preparation programs in tribal communities.
---------------------------------------------------------------------------
    \1\ https://www.uidaho.edu/ed/resources/student/ikeep

    The Chairman. Thank you, Mr. West.
    Now we have Dr. Kauanoe Kamana, the principal of Ke Kua `O 
Nawahiokalani`opu`U Demonstration Laboratory School in Keaau, 
Hawaii. Welcome, and aloha.

     STATEMENT OF DR. KAUANOE KAMANA, PRINCIPAL, KE KUA `O 
      NAWAHIOKALANI`OPU`U DEMONSTRATION LABORATORY SCHOOL

    Dr. Kamana. Aloha, Committee Chair Senator Schatz, Vice 
Chair Senator Murkowski, and members of the Senate Committee on 
Indian Affairs.
    Mahalo for this opportunity to testify before you on COVID-
19 impacts upon Native education systems.
    My name is Dr. Kauanoe Kamana. I am an associate professor 
at the State Hawaiian Language College. My position there is 
director of laboratory school programs, and I also serve as 
principal of the largest of the college's four P-12 laboratory 
schools, Ke Kua `O Nawahiokalani`opu`U, also known as Nawahi 
School.
    My testimony will focus on Nawahi. However, it will have 
some relevance for Native Hawaiian education as a whole. In 
addition, because Nawahi is the largest Native language medium 
school in the United States, the challenges of Nawahi are 
relevant for Native language medium education on a national 
level.
    We at Nawahi School remember your visit to us, Senator 
Schatz, as one of your first outreach efforts after joining the 
Senate. We also remember your visits to our community to assess 
hurricane and lava flow damage. COVID-19 is but the latest 
emergency that we at Nawahi have faced.
    Nawahi shares many of the challenges found among other 
schools with a Native majority enrollment. We are located in a 
large rural area with spotty wi-fi connectivity and high 
poverty. Our distinctive Native-related issues are often poorly 
addressed or much less understood by State government education 
authorities.
    Prior to COVID, many of our families lacked the necessary 
technology for distance education. The school's infrastructure 
was already insufficient for our expanding enrollment. In order 
to bring groups of students back to campus, and provide the 
required social distancing, we needed to make major adjustments 
to the management and delivery of the overall P-12 program.
    However, as a Native language medium school, Nawahi has 
relied on its cultural strengths to navigate through these 
challenging times. Those unique strengths come from our Native 
identity and our shared purpose rooted in the revitalization of 
our Native language.
    Researchers of dual language education describe cognitive 
advantages of students such as ours. Nawahi is proud of our 
student outcomes including high school graduation and college 
attendance rates.
    Nawahi was quick to respond to the COVID-19 crisis. We used 
our own aloha to begin to provide parent learning, student 
learning, physical and mental health services, technological 
assistance and food distribution. We have since implemented a 
safe and timely return to on-campus learning for our most 
vulnerable populations of students. They include the youngest 
students, special education students, students without internet 
access and other students with academic challenges.
    Nawahi faces distinct challenges as a Native language 
school delivering distance learning and hybrid scheduling. Many 
parents speak Hawaii Creole English rather than Hawaiian. Their 
homes cannot provide their children with the Hawaiian language 
medium environment that exists on campus.
    This language gap impacts the maintenance and further 
development of our students' Hawaiian language proficiency. It 
also affects their access to academics through Hawaiian, and 
mastery of standard English as taught formally at Nawahi.
    Nawahi continues to struggle with a lack of learning 
materials through Hawaiian. Distance learning has increased an 
already difficult situation. Nawahi teachers must create all 
online lessons on their own. Online lessons are widely 
available through English for English medium schools.
    Lower funding of charter schools compared to standard 
public schools in our State reduces Nawahi's ability to address 
challenges in general. Nawahi's language nest preschool 
component provided through the non-profit 'Aha Punana Leo has 
been especially impacted by COVID-19. Its private school 
delivery is extremely vulnerable to economic challenges.
    COVID-19 has negatively impacted our already existing 
teacher and staff shortage. Hawaii faces a 4.9 percent shortage 
of certified teachers compared to the national average of 2.6 
percent. For Hawaiian language medium schools, the shortage of 
certified teachers is 45 percent. A major contributor to this 
problem is the lack of scholarship support addressing the 
distinctive features necessary to develop certified Native 
language medium teachers.
    Mahalo again, Senators, for this opportunity to testify 
today. I would be happy to answer any questions and can provide 
additional written information as needed. Mahalo and nui loa.
    [The prepared statement of Dr. Kamana follows:]

    Prepared Statement of Dr. Kauanoe Kamana, Principal, Ke Kua `O 
          Nawahiokalani`opu`u Demonstration Laboratory School
    Aloha Committee Chair Senator Schatz, Vice Chair Senator Murkowski 
and members of the Senate Committee on Indian Affairs.
    Mahalo for this opportunity to testify before you on COVID-19 
impacts on Native Education Systems.
    My name is Dr. Kauanoe Kamana. I am an Associate Professor at the 
state Hawaiian language college. My position there is Director of 
Laboratory School Programs and I also serve as Principal of the largest 
of the college's four P-12 laboratory schools--Ke Kula `O 
Nawahiokalani`opu`u, also known as Nawahi School.
    My testimony will focus on Nawahi. However, it will have some 
relevance for Native Hawaiian education as a whole. In addition, 
because Nawahi is the largest Native language medium school in the 
United States, the challenges of Nawahi are relevant for Native 
language medium education on a national level.
    We, at Nawahi school remember your visit to us, Senator Schatz, as 
one of your first outreach efforts after joining the Senate. We also 
remember your visits to our community to assess hurricane and lava flow 
damage. COVID-19 is but the lastest emergency that we at Nawahi have 
faced.
    Nawahi shares many of the challenges found among other schools with 
a Native majority enrollment. We are located in a large rural area with 
spotty wi-fi connectivity and high poverty. Our distinctive Native-
related issues are often poorly addressed or much less understood by 
state government education authorities.
    Prior to Covid, many of our families lacked the necessary 
technology for distance education. The school's infrastructure was 
already insufficient for our expanding enrollment. In order to bring 
groups of students back to campus, and provide the required social 
distancing, we needed to make major adjustments to the management and 
delivery of the overall P-12 program.
    However, as a Native language medium school, Nawahi has relied on 
its cultural strengths to navigate through these challenging times. 
Those unique strengths come from our Native identity and our shared 
purpose rooted in the revitalization of our Native language. 
Researchers of dual language education describe cognitive advantages of 
students such as ours. Nawahi is proud of our student outcomes 
including high school graduation and college attendance rates.
    Nawahi was quick to respond to the COVID-19 crisis. We used our own 
aloha to begin to provide parent learning, student learning, physical 
and mental health services, technological assistance and food 
distribution. We have since implemented a safe and timely return to on-
campus learning for our most vulnerable populations of students. They 
include the youngest students, special education students, students 
without Internet access and other students with academic challenges.
    Nawahi faces distinct challenges as a Native language school 
delivering distance learning and hybrid scheduling. Many parents speak 
Hawai'i Creole English rather than Hawaiian. Their homes cannot provide 
their children with the Hawaiian language medium environment that 
exists on campus. This language gap impacts the maintenance and further 
development of our students' Hawaiian language proficiency. It also 
affects their access to academics through Hawaiian, and mastery of 
Standard English as taught formally at Nawahi.
    Nawahi continues to struggle with a lack of learning materials 
through Hawaiian. Distance learning has increased an already difficult 
situation. Nawahi teachers must create all on-line lessons on their 
own. On-line lessons are widely available through English for English 
medium schools.
    Lower funding of charter schools compared to standard public 
schools in our state reduces Nawahi's ability to address challenges in 
general. Nawahi's language nest preschool component provided through 
the non-profit 'Aha Punana Leo has been especially impacted by COVID-
19. Its private school delivery is extremely vulnerable to economic 
challenges.
    COVID-19 has negatively impacted our already existing teacher and 
staff shortage. Hawai'i faces a 4.9 percent shortage of certified 
teachers compared to the national average of 2.6 percent. For Hawaiian 
language medium schools, the shortage of certified teachers is 45 
percent. A major contributor to this problem is the lack of scholarship 
support addressing the distinctive features necessary to develop 
certified Native language medium teachers.
    Mahalo again Senators for this opportunity to testify today. I 
would be happy to answer any questions and can provide additional 
written information as needed. Mahalo.

    The Chairman. Mahalo.
    Next, we have Dr. Michelle Thomas, Superintendent of the 
Belcourt School District in Belcourt, North Dakota.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Mr. Chair, may I be allowed to make an 
introduction?
    The Chairman. Yes, sorry, Senator Hoeven, I wasn't sure if 
you were online. We would be pleased to have you introduce your 
testifier.
    Senator Hoeven. Thank you, Mr. Chairman. I appreciate it.
    The education of our Nation's youth is an important 
endeavor. We must strive to uphold our trust and treaty 
responsibility to this Nation's tribes, and that includes 
ensuring Indian Country has the resources and tools necessary 
to provide quality education to students who attend Bureau of 
Indian Education operated schools. This important 
responsibility is made even more challenging over the course of 
the last year due to the COVID pandemic.
    With that, I would like to introduce Dr. Michelle Thomas. 
Dr. Thomas is the Superintendent for the Belcourt School 
District in Belcourt, North Dakota. The Belcourt School 
District serves the Turtle Mountain Band of Chippewa Indians 
through a cooperative agreement between the school district and 
the Bureau of Indian Education.
    Dr. Thomas was unanimously approved to serve as 
superintendent in January of 2020. She started her role as 
superintendent one week before the start of the pandemic. Dr. 
Thomas has devoted her professional career to educating our 
youth. She previously served as an assistant principal at both 
the middle and elementary schools, and is principal of Dunseith 
Indian Day School. Dr. Thomas has done a commendable job of 
managing the Belcourt School District in light of the COVID-19 
pandemic. I am glad she is here to testify today, and I look 
forward to learning more about the impacts of the pandemic on 
the Turtle Mountain education system.
    So I thank you, Mr. Chairman, I appreciate it, and welcome 
to Dr. Thomas.
    The Chairman. Dr. Thomas, please proceed with your 
testimony.

  STATEMENT OF DR. MICHELLE THOMAS, SUPERINTENDENT, BELCOURT 
                        SCHOOL DISTRICT

    Dr. Thomas. Thank you, Senator Hoeven. It is hard not to 
call you Governor, as I remember.
    [Laughter.]
    Dr. Thomas. So, Chairman Schatz, Vice Chairwoman Murkowski 
and members of the Committee, my name is Dr. Michelle Thomas. I 
am the School District Superintendent in Belcourt, North 
Dakota. I am a member of the Turtle Mountain Band of Chippewa.
    Thank you for this opportunity to submit testimony.
    When the pandemic hit the United States, all schools across 
the Country were forced to rethink pedagogy to reach students 
without face-to-face instruction. This became an even bigger 
challenge in Indian Country, where hunger, mental health 
issues, student safety and technology support were additional 
disparities in our schools.
    Data continuously points to the fact that Native American 
students in Bureau operated schools operated schools have been 
significantly behind in reading and math. Since COVID-19 these 
achievement gaps have increased at an even higher and more 
rapid rate. Native schools scrambled to continue education with 
the limited resources they had available while waiting for the 
necessary support from tribal, State and Federal Government.
    The experiences I am about to share with you have always 
been obstacles in Indian Country. COVID-19 only magnified them. 
As COVID-19 spread, the shift to remote learning was immediate, 
as well as other unanticipated challenges in instructional 
delivery. Many schools incurred a delayed delivery of devices 
for students due to the high demand. Indian Country incurred 
longer delays due to the late allocation of ESSER funds from 
BIE. Many schools were forced to resort to paper and pencil 
instruction for up to six months.
    Unfortunately, once the devices were received, Federal 
requirements to set them up were cumbersome. Adding to this 
conundrum was the lack of IT staff at each respective school. 
The expectation of immediate delivery to students upon receipt 
of these devices was unrealistic and frustrated the efforts of 
school administrators and staff.
    Indian Country is also amongst those who struggle most to 
access broadband due to rural locations. A study in 2016 by the 
U.S. Government Accountability office revealed that seven of 
ten tribal residents lack access to broadband. Unfortunately, 
the effort to provide mobile hotspots and jet packs for 
students proved to be a struggle as well, due to few carriers 
in Indian Country, resulting in little to no connectivity.
    Fortunately, tribal and State governments stepped in and 
provided internet broadband support to their ESSER funds, which 
provided a more level playing field for our Native American 
students.
    Learning management systems also allowed schools to more 
effectively manage online instruction. Many schools in Indian 
Country quickly navigated toward specific yet different systems 
to suit their needs. I have great respect for all tribal 
nations and their student needs, and it is my hope that the BIE 
will consider all current learning monitoring systems that 
individual schools have already embraced before and during the 
pandemic.
    Background checks adhering to the Department of Interior 
regulations is a process I support, as it protects our 
students. However, the length of time required to complete 
these have become a huge obstacle for attaining the highest 
level of educators. Principals consistently share the 
frustration of losing valuable and often hard to fill positions 
due to the length and complexity of this process.
    The electronic process poses a problem due to lack of 
internet connectivity and competency of technology skills of 
applicants and the short time frame for these responses, which 
often leads to postponement and even termination of background 
checks of highly qualified applicants.
    Training local professionals could assist BIE's centralized 
office in an efficient yet just as effective background 
process. Localized support could ensure a thorough submission 
of required documents, ultimately moving toward a quicker 
appointment of applicants.
    School year 2021 is the inaugural year for the BIE spring 
assessment, but very little is known about it at the local 
level. We need resources to understand what the test comprises, 
what standards it focuses on per grade level, and the weight 
each question carries. We also seem to be punishing our Native 
students by double testing them in order to satisfy Federal and 
State requirements in cooperative schools such as ours.
    Finally, the importance of timely feedback from Federal 
Government from standardized testing causes great concern as 
the results of these assessments are often delivered months, 
sometimes years, later. Considering these points, my 
recommendation would be to provide a waiver for States to 
determine which assessment best serves their student 
population.
    As Native Americans, we still strive to recover from more 
than 100 years of historical trauma and educational malpractice 
by the dominant culture. Now, during COVID-19, we are quite 
literally witnessing the loss of language, culture, history, 
and heritage, with the passing of our tribal elders and 
community leaders. This emotional toll has drained our school 
staff to the point where there is not much left to give, and 
has pushed many of them closer to their professional, 
physiological, emotional, and psychological breaking points at 
a rapid pace.
    Now, we are also expecting them to provide mental health 
support to students when they too have experienced the same 
historical trauma and COVID-19 loss. Our staff have been 
trained to be professionals in education, not in health 
services. Direct counseling support to BIE students and staff 
is imperative and urgent.
    In closing, I must stress that although this pandemic 
prevented educators from reaching students personally, it also 
pushed them to find creative and innovative ways to deliver 
instruction. I humbly ask that this is considered, and that 
each school initiative be respected when considering 
government-wide mandates.
    As educators, we differentiate based on individual needs of 
students. We ask the same courtesy to be given to us in BIE 
funded schools, to allow and support us in determining best 
practices and platforms to address the unique needs of our 
students in each school
    I would like to thank you again for this opportunity, and I 
would be honored to answer any questions you may have.
    [The prepared statement of Dr. Thomas follows:]

  Prepared Statement of Dr. Michelle Thomas, Superintendent, Belcourt 
                            School District
    Chairman Schatz, Vice Chairwoman Murkowski, and members of the 
Committee, thank you for the opportunity to submit testimony on behalf 
of Indian Country in regard to the COVID-19 response. My name is Dr. 
Michelle Thomas. I am a member of the Turtle Mountain Band of Chippewa. 
I was born and raised on our reservation, and my school and 
professional career has been centered on Native education systems. I 
have been an educator for 26 years: a teacher for ten, a BIE 
administrator for fifteen, and a School District Superintendent for one 
(I started my current position one week before the pandemic). Today, I 
will share my experiences, as well as others within our community, as 
to how the pandemic impacted our efforts to educate our Native American 
students.
COVID-19 Impact on Native Education Systems
    When the pandemic hit the United States in March 2020, all schools 
across the country were forced to rethink pedagogy to reach students 
without face-to-face instruction. This became an even bigger challenge 
in Indian Country, where the poverty level became a huge obstacle for 
delivery of effective instruction in a virtual environment. Hunger, 
mental health issues, student safety and Internet/technology for 
instruction were only a few disparities our schools were faced with. 
Now, more than ever, support was needed for technology, highly 
qualified staff, and mental/behavioral support for both students and 
staff.
    Data continuously points to the fact that Native American students 
in Bureau Operated Schools (BOS) have been significantly behind in 
Reading and Math. \1\ Federal, state and local governments have 
endlessly searched for solutions to remedy this tragic failure. 
Historical implications continue to impact current educational issues 
in Indian Country. The same problems have been identified for over a 
century, but a solution has yet to be discovered.
---------------------------------------------------------------------------
    \1\ National Indian Education Study (NIES). Retrieved from https://
nces.ed.gov/nationsreportcard/subject/publications/studies/pdf/
2017161.pdf
---------------------------------------------------------------------------
    Since the onset of COVID-19, the achievement gaps for Native 
American students have increased at an even higher and rapid rate, 
although not unexpected. Educators and administrators scrambled to 
continue education with the limited resources they had available while 
waiting for the necessary support from Tribal, State and Federal 
Government. The entire world became reactive to the pandemic, resulting 
in delayed and/or weak educational services to students. This is 
detrimental to our Native Youth.
    The experiences I'm about to share with you were always educational 
obstacles in Indian Country. The COVID-19 Pandemic only magnified these 
disparities. I urge you to consider the following priorities:

        1. Technology Equipment

        2. Internet Connectivity

        3. Learning Management Systems

        4. Background Checks

        5. BIE Assessments

        6. Teacher and Student Mental/Behavioral Health Support

Technology Equipment
    As schools closed down across the country, the shift to remote 
learning was immediate, and educators were faced with unanticipated 
challenges requiring flexibility and grace to the students they served. 
Due to the high and immediate demand for technology, many schools were 
faced with a delayed delivery of devices for students. However, Indian 
Country incurred even longer delays due to a late allocation of ESSER 
funds from the Bureau of Indian Education. Funds were not released 
until June of 2020, and the process required to order the laptops 
delayed the delivery until October and November for most schools, and 
December 2020 in some cases. Many schools were forced to resort to 
paper and pencil instruction for up to six months of SY 20-21 due to 
lack of laptops.
    Unfortunately, once the laptops were received (approximately in 
November 2020), federal requirements to set up the laptops were 
cumbersome and time limited, meaning the setup process for an 
individual device had to be completed within a 24 hour window, or it 
would have to be repeated. Adding to this conundrum was the lack of 
Information Technology staff at the respective schools to image each 
computer. The expectation of immediate delivery to students upon 
receipt of the laptops was unrealistic and frustrated the efforts of 
many school administrators who desperately wanted to deploy a 
functioning remote learning environment for Native American students.
    Laptops that were received from the Federal Government have quickly 
become defective (such as overheating, camera failure, systems 
failure), resulting in wasted funds and time. Tribal and State 
Government assisted in the purchase of chromebooks to provide devices 
in a quick and efficient manner.
Internet Connectivity
    Indian Country is amongst those who struggle most to access 
broadband due to rural locations. A study in 2016 by the U.S. 
Government Accountability Office revealed that 7 of 10 tribal residents 
lack access to broadband. Reasons include inability to access high 
speed Internet connection due to rural location, affordability, and/or 
lack of knowledge in Internet capabilities. \2\
---------------------------------------------------------------------------
    \2\ Broadband Internet: FCC's Data Overstate Access on Tribal 
Lands. Retrieved from: https://www.gao.gov/products/gao-18-630
---------------------------------------------------------------------------
    The effort to provide mobile hotspots for students without 
connectivity proved to be a struggle as well. There are very few 
carriers in Indian Country, and the data connection is very limited, 
resulting in little to no connectivity in many households.
    Again, on behalf of our schools in Turtle Mountain, Tribal and 
State Government stepped in and provided Internet broadband support 
through their ESSER funds, which provided a more level playing field 
for our Native American students in a remote learning environment.
Learning Management Systems
    Learning management systems (LMS) in education allow schools to 
more effectively manage participation, ensure completion of 
assignments, and monitor student progress (or lack of it). There are 
many worthwhile LMS to choose from, and many schools in Indian Country 
quickly navigated towards specific LMS's to structure online learning 
in the most productive way possible. I have great respect for all 
Tribal Nations, and acknowledge that student learning needs differ from 
tribe to tribe, resulting in different LMS selections. Because of this, 
a grave concern of mine and others is that the BIE will determine ONE 
system for all. My hope is that BIE will give consideration to current 
LMS's that individual schools have already embraced and become fluent 
in before and during COVID-19.
Background Checks
    Background checks adhering to the Department of Interior 
regulations is a process I support, as it only serves to protect our 
Native American students. However, the length of time required to 
complete a background check has become a huge obstacle for attaining 
the highest level of educators. Principals have consistently shared the 
frustration of losing very valuable (and often hard to fill position) 
applicants due to the length and complexity of the background check 
process. Although I applaud the movement to the electronic process for 
the background check process, the lack of Internet connectivity, 
incompetency of technology skills of applicants, and short timeframe 
for responses to continue the electronic process without personal 
support has resulted in postponement and/or termination of numerous 
background checks of highly qualified applicants.
    Training local professionals could assist the BIE's centralized 
office in a more efficient, yet just as effective, background clearance 
process. Providing onsite support would ensure a thorough submission of 
required documents of the highly qualified staff selected for the 
position, ultimately moving towards a quicker appointment process. This 
support would ultimately benefit our students, where obtaining highly 
qualified staff in Indian Country is an issue in itself.
BIE Assessments
    There is a lack of any Memorandum of Agreement between the BIE and 
States, causing double testing in cooperative school locations. This 
limited understanding for the need of a triangular relationship many 
BIE schools must operate within (BIE, State and Tribal) puts strenuous 
and repetitive expectations on our Native Students.
    SY20-21 is the inaugural year for the BIE Spring Assessment, but 
little is known about it at the local level. We need resources and 
tools to better understand what the test comprises, which ELA and 
mathematics standards it focuses on per grade level, and the weight 
different kinds of questions carry for student scoring. Providing the 
fundamental understanding of the creation of the BIE Spring assessment 
could perhaps bring stronger support of it.
    Finally, the importance of timely feedback from the Federal 
Government from standardized testing causes great concern for Indian 
Country. The results of these assessments serve no purpose to school 
improvement, as they are often delivered months, sometimes years later. 
In an ever changing school environment based on current research, many 
educators and administrators view this additional assessment as another 
obstacle to accelerated student learning.
    Considering double testing of many Native American students, 
limited information about the BIE Spring Assessment, and the delayed 
delivery of feedback regarding standardized assessments, my 
recommendation would be to provide a waiver for states to determine 
which assessment(s) best serve their student population (State or 
Federal).
Teacher/Student Burnout/Mental Health Support
    The COVID-19 Pandemic forced teachers to work in a technological 
environment that they had little training or professional development 
for and zero preparation time. The stress of being an effective and 
responsive professional while training to maintain personal health and 
safety has pushed many school staff members closer to their 
professional, physiological, emotional and psychological breaking 
points and faster than ever before. Local retirements and resignations 
are at an all time high resulting from the pandemic.
    As Native Americans, we are still trying to recover from more than 
100 years of historical trauma and educational malpractice by the 
dominant culture. Now, during the COVID-19 Pandemic we are quite 
literally witnessing the loss of language, culture, history and 
heritage with the passing of tribal elders and community leaders. This 
emotional toll has drained our school staff to the point where there is 
not much more that they can give.
    Indian Country has been underserved in many health areas, but 
particularly in the area of mental health. BIE Director Tony Dearman 
himself cited this significant challenge in testimony provided before 
the Committee on Indian Affairs in May 2018. Indian Health Service 
(IHS) providers have always been limited in regard to access to 
resources, isolated locations of Tribal Nations, and the struggle to 
recruit and retain qualified personnel to address behavioral needs of 
our schools, let alone our communities. Now, coupled with the COVID-19 
pandemic, IHS service providers have been pushed to their limits as 
well.
    As a result, we are pushing our educational staff to provide the 
mental health support to their students, when they too have experienced 
historical trauma and current loss due to COVID-19. Our staff have been 
trained to be professionals in education, not in health services. The 
mental health concerns of our Native youth have exponentially increased 
during COVID-19. Direct counseling to BIE students and staff is 
imperative to the survival of our school systems, as the lack of 
support in this area is an epidemic itself.
Conclusion
    In closing, I must stress that it is important to take what works 
from the past and bring forth to the present moment. COVID-19 did not 
allow us to be proactive, but rather reactive as we navigated into 
uncharted waters in education. However, it is crucial to examine what 
worked for different Tribes on many reservations throughout the United 
States, and respect the time and effort each respective school took to 
provide the best education possible during one of the most difficult 
pandemics in history.
    During a pandemic that prevented educators from reaching students 
personally, it also pushed them to find creative and innovative ways to 
deliver instruction. I humbly ask that this is considered and that each 
school initiative be respected when considering government-wide 
mandates. Allowing the many different tribes the autonomy to determine 
the most effective platform to deliver instruction empowers educators 
and students to work on the achievement gaps of Native American 
students. Whether Chippewa, Sioux, Navajo, Cherokee, etc., those of us 
working in BIE school systems have witnessed firsthand what works and 
what doesn't work for our students. This is what we as educators 
practice--we differentiate based on the individual needs of our 
students. We ask that the same courtesy apply to us in BIE funded 
schools--to allow and support us in determining best practices for the 
unique needs of our students at each respective school.
    Thank you again for the opportunity to present this testimony. I 
appreciate your continued dedication to our Native American students 
and look forward to working with you to ensure that BIE funded students 
educated on Tribal lands are provided with the opportunity to achieve 
academic success in a functional, safe and secure learning environment. 
I would be honored to answer any questions you may have.

    The Chairman. Thank you to Dr. Thomas, and thank you to all 
of the testifiers.
    We will start with Senator Lujan.

               STATEMENT OF HON. BEN RAY LUJAN, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Lujan. Chairman Schatz, thank you so very much for 
allowing me to go first. I thank all my colleagues as well for 
that consideration.
    Ms. Embrey-Arras, according to GAO's estimates, what 
percent of homes on Navajo Nation lack broadband?
    Ms. Embrey-Arras. I am going to have to look this one up, 
but I have it right at my fingers. We noted that in nearly half 
of all BIE school communities, where data were available, less 
than 50 percent of households had access to broadband. This is 
prior to the pandemic. So there are significant broadband 
access issues.
    Senator Lujan. It is my understanding that about 70 percent 
of homes on Navajo Nation lack broadband. We will come back to 
that.
    Ms. Embrey-Arras. Yes, we have several statistics in here. 
I think there are also some challenges with the data, some data 
limitations. But your point is well taken, there are 
significant limitations to broadband access.
    Senator Lujan. And how many Navajo households do not have a 
computer?
    Ms. Embrey-Arras. We note that about half of the Navajo 
Nation reservation homes lacked a computer.
    Senator Lujan. About 51 percent is my understanding.
    Ms. Embrey-Arras. Correct.
    Senator Lujan. Do you know how many BIE schools are located 
on the Navajo Nation?
    Ms. Embrey-Arras. I don't have that number at the tip of my 
finger, but I can get back to you on that.
    Senator Lujan. It is my understanding that is over one-
third, but I would appreciate if you could get back to us to 
confirm that.
    Ms. Embrey-Arras. Sure.
    Senator Lujan. Yes or no, did BIE issue guidance on 
distance learning methods for areas without broadband?
    Ms. Embrey-Arras. Yes, but it is extremely limited.
    Senator Lujan. It is my understanding that BIE's Return to 
Learn guide for the 2021 school year was 76 pages long. Of 
these, how many pages were devoted to what schools should 
provide for students who were unable to access the internet?
    Ms. Embrey-Arras. I know that only seven pages were focused 
on distance learning, and of that, even less was focused on 
students who did not have access to the internet. So that was 
one of the main concerns that we uncovered in our survey, was 
that the guidance that was being provided was not meeting the 
needs of the school officials that we had surveyed.
    Senator Lujan. So if could verify this, it is my 
understanding that of 76 pages, only half a page provided 
guidance for students who were unable to access the internet.
    Mr. Dearman, we know that many students will continue to 
learn remotely in the foreseeable future, so there is a long 
term need to provide schools with adequate information as to 
how to navigate the digital divide. Yes or no, will you commit 
to including information for schools on what they should 
provide for their students who are unable to access the 
internet when BIA releases its guidance for the 2021-2022 
school year?
    Mr. Dearman. Thank you, Senator, and yes, we will 
definitely work with our schools and other Indian Affairs 
agencies to make sure that guidance is provided.
    Senator Lujan. And as was noted earlier, Mr. Dearman, due 
to the pandemic, many BIE students have been forced to complete 
their schooling at home. Unfortunately, over 1,400 BIE students 
have been forced to rely on paper packets to learn over the 
past year, due to inadequate access to the internet.
    In addition to BIE providing many students with computers 
at hotspots, many live in areas that don't have any 
connectivity, what we would call dead zones, where they cannot 
access online instruction. I challenged everyone that I have 
been able to ask this question, I still don't understand how 
someone can get in an airplane in Los Angeles, connectivity in 
the air at 30,000 feet, land in New York or in Miami and stay 
connected to the internet, yet our students that live in 
communities where those planes fly over cannot. Students in 
tribal lands don't have access to fast, affordable internet to 
simply complete their homework.
    It is my understanding that one of the areas that BIE did 
make investments was wi-fi on school buses. Can you expand on 
how BIE was able to expand and what difference that made?
    Mr. Dearman. Thank you, Senator Lujan. I agree, it goes 
even beyond internet access. We still have communities and 
students that are living in homes without electricity or 
running water. We do have some issues that we definitely need 
to make sure that we are addressing, to make sure our students 
are educated.
    We did equip the 25 longest bus routes within BIE with wi-
fi. The intent was to make sure the students had access to 
internet to and from school. Then the pandemic hit. When the 
pandemic hit, the locations shifted. So depending on the 
reservation and what the tribe had in place determined how the 
buses were used. There were some locations that they actually 
put a bus out into the community and parked it so the students 
could have access to wi-fi. Then there were also areas to where 
the restrictions did not allow any transportation or any 
movement of the buses, and they remained on campus.
    So it varied, depending on the situation, as far as the 
pandemic on each reservation, and what the tribe had in place.
    Senator Lujan. Thank you, Mr. Dearman.
    Chair Schatz, this may be an area where we can also work to 
get an inventory from BIE, as we have already requested from 
IHS, of how many households, which households don't have access 
to electricity, running water, wastewater and broadband.
    Thank you, Chair, and I thank my colleagues.
    The Chairman. Thank you, Senator Lujan. I think your point 
is well taken about the lack of data and the lack of a plan. We 
are still in this period of time where the BIE has to provide 
guidance about reopening. I have experienced this in the State 
of Hawaii, where everyone is trying in earnest.
    But the truth is that school leaders and educators are not 
epidemiologists. They are not public health officials. They are 
rules followers, so they are going to rely on CDC or their own 
departments of health, or in this case, the BIE for guidance.
    So as we think about the vaccine succeeding and eventually 
being on the other side of this pandemic, one of the tragedies 
that I think we really aggressively need to avoid is losing the 
fall of the school year, losing next school year. It is tragic 
enough, it is devastating enough that kids missed this year of 
school, but it is somewhat understandable, as devastating as it 
was for millions of kids.
    But if we do it again, shame on all of us, because there 
will be no public health reason to do that, it will be purely 
the fault of the adults. So all of us have to be leaning into, 
at a minimum, where we are going to have in-person school 
across the Country, in Indian Country, in Alaska Native 
communities and in Native Hawaiian communities. Assuming the 
trajectory of the pandemic continues in a positive direction we 
need for schools to be open this fall.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Well said. We 
all recognize that as we are hearing within this Committee, 
districts are not equally situated, schools may have access to 
the laptop, but if you can't connect to anything, or if you are 
in this dead zone, it doesn't really get you where you need to 
be.
    Another issue with access that can be a barrier is the 
issue of cost. I was on a Zoom call yesterday with some folks 
from the North Slope Burrough School District, so right there 
at the top of the State of Alaska. They shared with me that 
while they have internet, the connectivity is pretty poor, but 
that doesn't mean that they get a bargain rate on the price. 
They shared with me that prices per month are between $700 and 
$800 per month for families to connect to the internet. So 
think about what that means, if you have an internet bill that 
is close to $1,000 for your usage, it may as well not even 
exist if you cannot afford your internet.
    So we asked in that situation, and again, I indicated we 
don't have BIE schools elementary, but we do have a tribal 
college up there in the North Slope Borough, Ilisagvik. So 
Ilisagvik is in a place where you have very poor or non-
existent broadband, internet connectivity, that again is 
incredibly expensive.
    So the question that I have is whether or not, and this is 
to Mr. Dearman, whether the Bureau has a plan to assist tribal 
colleges like Ilisagvik that are located in places like this, 
where the cost is just exorbitantly high.
    When I ask you to answer that question, I would just also 
share that the FCC is considering now stakeholder comments 
about how to provide flexibility to schools to use E-Rate 
funded connectivity and equipment. I don't know whether BIE has 
submitted comments as part of that process, but I would ask you 
that question as well, what possible support might be had for 
those institutions that are experiencing extraordinarily high 
costs for lousy internet.
    Mr. Dearman. Thank you, Senator. One of the things that the 
BIE is trying to really get the data we feel is important 
[indiscernible] Indian energy [indiscernible] National 
Telecommuting and Telecommunications Administration and the 
National Broadband Availability Map program. Because we need to 
understand where our communities are, do not have 
[indiscernible] our service areas. So once we get hold of that 
data, and we are expecting the maps to be available sometime 
around early summer, we can actually start addressing what we 
need to do to bring some of the costs down.
    You are right about the E-Rate programs, and I will follow 
up to see how that applies to our TCUs. But we are willing to 
work with the Committee and any other organization or agency to 
address the situation that you brought up today.
    Senator Murkowski. So in other words, there are no 
resources. Again, it was outlined in both my opening statement 
and that of the Chairman that there are significant resources 
that are coming by way of the American Rescue Plan and the 
multiple measures that we advanced and put into law last year. 
Are you looking to perhaps be able to provide some level of 
financial relief to help offset some of these extraordinarily 
high internet costs?
    Mr. Dearman. Again, thank you, Senator. We would be happy, 
with appropriations we receive from Congress, to provide 
additional appropriations to our TCUs or anyone else to help 
bring down and assist with the costs of the high connectivity 
situation that they are currently in. But that would be 
determinant on the appropriations that we receive from 
Congress, how much we can actually help our TCUs in remote 
locations.
    Senator Murkowski. Well, it seems to me that we have, 
again, we have the American Rescue Plan funds that are coming 
your way. So again, I would encourage you to look at that 
aspect of what access means as well.
    Last question for you here relates to mental and behavioral 
health. According to your testimony, BIE has implemented the 
agency's first ever comprehensive behavioral health and 
wellness program. It is available to those in Bureau operated 
and tribally controlled schools.
    So the question is whether BIE is providing behavioral and 
health crisis support for tribal colleges as well. I think we 
all recognize the stress that our students, both young and 
older, have experienced during this time of the pandemic.
    Mr. Dearman. Yes, Senator, and we did include all thestaff 
and the students at our tribal colleges and universities to 
make sure that they were covered through the contract. We are 
in the process of addressing the privacy issues within the 
contract and we are able to provide [indiscernible] and the 
direct crisis or TCU staff and students will be included in 
that contract.
    One of the things that we have done, Senator, along with 
the contract, as a kind of a sidebar, we have also been 
providing youth mental health first aid contract, which is an 
eight-hour training. What that does is help staff identify the 
unique risk and the warning signs of mental health problems. Up 
to this date, we have 432 staff that have been trained and 
another 120 that are scheduled for May to have the training 
complete.
    Senator Murkowski. Mr. Dearman, thank you. Unfortunately, 
some of your comments were cut off. We seem to have a little 
bit of lag with your particular testimony. I am not sure why. 
But it just is a reminder that this is the reality that so many 
face, the connections are there but they are still tough to 
follow.
    I have specific follow-ons to that particular question. I 
will do so. Mr. Chairman, thank you.
    The Chairman. Thank you very much.
    Although I think Mr. Dearman is in Washington, D.C., oh, he 
is in Oklahoma, I am sorry.
    Dr. Kamana, thank you for your great work. It has been a 
long time since we have seen each other in person. I want to 
talk about the American Rescue Plan. As you know, $2.5 billion 
overall for Native students, including $85 million specifically 
for Native Hawaiian education. Can you just talk about the 
importance of those dollars and specifically what the Congress 
and the United States Department of Education need to do to 
make sure that the implementation of these funds works best for 
you on doing the work?
    Dr. Kamana. Hi, aloha. First of all, mahalo nui, thank you 
so much for the NHEP funding that we received. Because that 
essentially is the only way that the money can come directly to 
the communities.
    So in that way then we can spend the money, the funds, in 
the way that we see as being important and significant within 
our school community, within our Hawaiian language medium 
school community. If it weren't for that kind of funding, we 
would not be able to really pivot in March of last year to do 
what we did. I did mention that we did things with our aloha 
and trying to address the issues of technology and distance 
learning right away.
    So for our school, then, we made decisions to do online 
learning right in March. And for all of our staff, we did 
virtual work from home and just had the essential people on 
campus there. We would not be able to really move that quickly 
if we didn't have that kind of support funding to our schools.
    So having designated funding for Native culture and 
language medium charter schools is very important. Because the 
regular public school system usually, if Federal funds come 
through that way, it never really gets to us on time, which is 
the case this past year also.
    Also for Native American language non-profit operated 
language nests, it is very, very important for our work with 
revitalizing the language, professional development, curriculum 
development by our teachers. So our funding would all go to 
training our people.
    We talk about technology or even the people who are working 
on our campus to work with parents on technology, how to use 
the computers, how to get online, how to help their children. 
That needs training, and we don't have that available to us, 
but we try the best that we can with what we have.
    So if we did not have that kind of funding, we would not 
have been able to provide immediate assistance to our families, 
to our teachers, and to our staff on campus.
    The Chairman. Thank you very much, Dr. Kamana.
    Ms. Embrey-Arras. I want to talk to you a little bit about 
the institutional capacity issues that landed BIE on the GAO's 
high risk list in 2017. I am just wondering whether you see 
those institutional capacity issues flagged by GAO as feeding 
into the problems that we had in responding to the COVID-19 
crisis, understanding that everybody was dealing with an 
emergency that was totally, in a lot of ways, unforeseeable for 
most institutions. Unless you are in the CDC you are not 
thinking about pandemic preparedness necessarily. Lesson 
learned.
    But it seems to me some of these problems that we have 
experienced have to do with issues unaddressed in the 2017 
report. I am wondering if you can speak to that.
    Ms. Embrey-Arras. Certainly. We do think that capacity is 
key to effectively supporting BIE schools. In terms of the 
vacancy rate right now at BIE, our understanding is that 
overall it is around 30 percent. However, there is variability 
within BIE in terms of the vacancy rate and the school 
operations division has a vacancy rate that I believe is around 
50 percent. That division provides assistance to schools with 
education technology, and there are vacancies for IT positions 
that are supposed to be supporting schools at the school level.
    So I think it makes it harder for BIE to support schools 
with those vacancies in place.
    The Chairman. Thank you very much.
    Mr. Dearman, the last time you testified before the 
Committee the BIE was unable to confirm the specific number of 
students forced to use paper packets during distance learning, 
whether all schools were actually offering some form of 
learning opportunities, and also how many BIE students and 
staff are known to have contracted COVID-19.
    BIE never responded to questions for the record. I know 
that you have data collection issues. So this is not to say 
that you have to magically configure data that may not be 
possible to gather. But it seems to me not responding at all to 
a member of the Senate who writes you a question for the record 
is not the way to allow us to conduct oversight.
    So do I have your commitment to respond to all 
correspondence from members of this Committee on a bipartisan 
basis to the extent that they are pursuant to our work?
    Mr. Dearman. Thank you, Chairman. I just want to let the 
Committee know that BIE takes all Congress inquiries as well as 
our tribal leaders. We respond very quickly. Once we provide 
the response, it is put into a clearance system within the 
Department. Then we lose control of that document.
    But what we will do, Chairman, we will definitely take this 
concern back to the Department and make sure that this was 
brought up today and see what we can do about improving our 
response time.
    The Chairman. So in other words, you developed responses 
and then you sent them upstairs, so to speak, and then they got 
buried? Is that what happened?
    Mr. Dearman. Yes, Chairman, we have a data tracking system 
that we enter all documents into. It is routed through 
different offices through Interior. So we will definitely go 
back and address our administration.
    The Chairman. Okay. It seems to me that one way we could 
sort of build trust and get back into a rhythm of working 
together but also understanding that we are co-equal branches 
of government is to respond to those questions that remain 
unanswered, because they are still relevant to our policy-
making process on a going-forward basis. So we will follow up 
on those QFRs that remain unanswered.
    Another thing I would like to do is work with you and 
members of the Committee on having a school reopening plan. And 
I understand, first of all, schools are going to have 
individual needs. Communities are going to have individual, not 
just idiosyncrasies, but are going to have different situations 
as it relates to the COVID-19 pandemic. And you have tribal 
sovereignty, which has to be exercised. So all of that is the 
context.
    Yet, it still occurs to me that BIE needs to display some 
leadership here on criteria for reopening, on the mechanics of 
reopening, of how to provide resources from CDC or local health 
agencies or whomever is most helpful. Because yes, that 
sovereignty has to be exercised. But it really can't be 
exercised without the logistical support, without the technical 
support, without the expertise on the public health side.
    So hopefully we can work together on clarifying reopening 
criteria. Again, a lot of these decisions are going to be made 
at the local level. But we want to at least get people in a 
position so they can decide whether or not to open. I lean very 
strongly towards opening all schools in the fall. But I 
understand there may be individual circumstances where that 
becomes difficult.
    But we should not, by virtue of our bureaucracy not being 
mobilized, end up in a situation where an individual principal 
has to behave like some public health expert. That is not what 
they are trained to do, and they should be able to rely on our 
Federal agencies to provide that guidance on when, how, and 
under what circumstances to reopen.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Chairman. I really 
appreciate the conversation today.
    Principal West, let me start with you, focusing on mental 
health. I know in the past you have talked about how important 
it was for students' social and emotional well-being to have 
in-person learning. And you made it possible because Schurz 
Elementary was able to use a hybrid learning model. It allowed 
students to see their peers, at least a few hours a week, I am 
told. And now with more Federal funding coming into Nevada, you 
will be able to move to 80-20 in person and virtually.
    Can you talk about your experience working with students in 
the classroom, and have you seen an in-person learning boost 
and better mental health outcomes because of it?
    Mr. West. Yes, Senator, thank you for the question.
    I attribute our increase in in-person students compared to 
our distance learners through the strict tribal lockdown in 
both Pyramid Lake and down here at Walker River. From the very 
beginning, the tribal government took it extremely seriously 
and implemented signage on the borders of the reservation as 
well as curfew. So early on, I don't believe that we would have 
that type of sense of security moving through the pandemic if 
we didn't have the leadership of our tribal governments to make 
sure that we had everything we needed in terms of planning.
    In the same ways with our reopening plan, everything was 
well coordinated between the school district down here and the 
tribal government, and then up at Pyramid Lake as well, there 
was a lot of back and forth with the tribes and the school.
    Another thing has to do with technology. In my written 
testimony I spoke about areas of improvement. This was spoken 
earlier, that we didn't know what we were up against. So in 
terms of distance learning and getting that curriculum online, 
which most of our teachers have never really done, we provided 
maybe three to one week of professional development and then 
said, all right, there you go, you have your training, and now 
it is time to go out and do your curriculum online.
    That was a challenge for some of our students as well, and 
our parents and guardians saw that as, they were unhappy with 
it, some of them. And they knew that the best for their 
children was to attend in person.
    Senator Cortez Masto. Was it good for their mental health? 
My concern during this pandemic and the challenges that we have 
seen for children particularly, the isolation and not being in 
normal school, that has impacted their mental health. Did you 
see that with any of your kids?
    Mr. West. They are only on campus for three hours a day per 
session. So we have not seen much because we are so focused on 
our reading and math blocks and getting the instruction to them 
as quick as possible. By the time any students have some off 
time or maybe some episodes of dysregulation occur, it has been 
rare. But again, they are at home more than they are here.
    Senator Cortez Masto. Right.
    So let me jump to Mr. Dearman because I know there were 
some glitches when we were talking about this and your 
implementation of the agency's first-ever comprehensive 
behavioral health and wellness program. I am trying to 
understand, if I heard you correctly, you said you already have 
training on mental health and wellbeing for the staff that you 
have conducted already. Is that correct?
    Mr. Dearman. Yes, it is.
    Senator Cortez Masto. How many have been trained?
    Mr. Dearman. The current numbers that I have, Senator, 432 
have actually been trained in the eight-hour course, with 
another 120 scheduled to go through the training in May.
    Senator Cortez Masto. And then as you develop the 
curriculum for the training that is necessary to understand the 
students' mental health and wellbeing, did you work with IHS or 
any health care professionals?
    Mr. Dearman. Great question, Senator. We are in weekly 
contact with IHS for support, and any type of trauma or any 
type of situation that comes up in any of our school locations, 
we make sure that we are reaching out and coordinating with 
Indian Health Services as well as the tribal health agency to 
make sure that we have counseling there on the ground.
    Another thing, Senator, that we have done, is we have 
identified the need for behavioral health. That has been in my 
previous testimonies. We have put positions of behavioral 
health support specialists within the Associate Deputy 
Director's offices. So all three Associate Directors' offices 
will have a behavioral health specialist underneath their 
authority to where they can directly work with the schools 
within their regions.
    We have two of the behavioral health specialists that have 
been cleared and are now on board. Our third one is still going 
through the background clearance as we speak.
    Senator Cortez Masto. Thank you. I know my time is up.
    I have additional questions, I will submit those for the 
record. Thank you again, everyone, for this discussion.
    The Chairman. And I know Mr. Dearman will respond to those 
questions for the record.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Dr. Thomas, what do you believe are the most important 
lessons learned over the past year when it comes to addressing 
the educational needs during this pandemic?
    Dr. Thomas. Thank you, Senator. In my opinion, as I have 
stressed in my testimony, it is looking back as to lessons 
learned, what worked and what didn't work. Because we are a 
cooperative school within the State of North Dakota, we also 
followed the State guidelines in regard to a return to learn 
plan.
    So speaking on behalf of North Dakota educators, with the 
guidance there, I thought we were very well prepared. My 
biggest fear is that what worked and what was proven effective 
for our Native students will be dismissed in lieu of trying to 
get a one size fits all. And I stressed that often in the 
testimony, that I hope the BIE considers what works at each 
respective school versus a blanket approach in regard to 
education.
    Senator Hoeven. So what were the biggest challenges?
    Dr. Thomas. Well, the biggest challenge is the 
connectivity. As Director Dearman stated, there were hotspots 
and jet packs. However, in Indian Country, one of our biggest 
issues is transportation. So actually getting those students to 
those hotspots proved to be very difficult. So we tried to set 
up hotspots within highly populated areas, such as our housing 
projects, but that doesn't reach those students in rural 
country with the thick forest, that prohibits the connectivity.
    So I would say in that event, it was the actual internet 
and technology issues.
    Senator Hoeven. Were there things you thought were 
particularly helpful that are temporary, based on the pandemic, 
and that we should look at extending or making permanent?
    Dr. Thomas. I have many thoughts. I can tell you our 
educators have come so far in regard to a hybrid approach. It 
forced creativity, I wouldn't say forced it, but I am so proud 
of our educators in Indian Country, because they found every 
way possible to reach our students.
    So that could be a question that could be answered by those 
who are in the trenches.
    Senator Hoeven. Yes, you might want to ask them that 
question. Because if there are some things that we should look 
at those, perhaps in legislation, in terms of continuing them 
after the pandemic. Are you back in school full time or are you 
still doing a hybrid?
    Dr. Thomas. Right now, we are still in a hybrid. We have 
weekly health meetings and luckily, we do have a tribal 
epidemiologist who assists us. However, there are some barriers 
that are preventing us from coming back onsite.
    In the State of North Dakota, we can provide Binax testing 
to our students under the clear waiver of DPI. However, we 
still are waiting on a consent form through the BIE to actually 
allow our parents to do it. Because we have our students in 
Federal buildings, we are unable to Binax test for asymptomatic 
individuals. We have the tests, we have the trained 
individuals, we just need that consent form to come back to our 
hands so we can begin.
    Senator Hoeven. And then how about in the area of mental 
health? Any particular challenges, any particular things, 
tools, that you found useful that we should be looking at 
extending or adding?
    Dr. Thomas. Well, as I stated, it is a huge issue. We are 
limiting the amount of IHS service providers here, and our 
staff are suffering right now. Because we started in mid-
September, the BIE determined our school date would be a month 
or so behind.
    Our staff are going to be teaching into mid-June. They have 
high burnout. We still have important professional development 
that we have to present. But at the same time, we know that 
they are not going to listen. They are tired.
    So we need more people in that area to provide direct 
support services to our staff and our students as well. We 
don't have enough people.
    Senator Hoeven. I certainly understand that.
    Dr. Thomas, thanks for all you are doing and all your 
service on behalf of the students. It is truly appreciated. 
Thank you for testifying today.
    Dr. Thomas. Thank you, sir. It was an honor.
    The Chairman. Thank you, Senator Hoeven, and Dr. Thomas.
    Let's follow up on the issue of the pending approval at BIE 
for the ability to test symptomatic students. That seems to be 
a resolvable issue, but also a very important one.
    Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you so much, Chair Schatz and Vice 
Chair Murkowski. Thanks to all of you for testifying today.
    I would like to talk a little bit about the state of BIE 
facilities around the Country. Last month I met with school 
leaders and educators from the National Indian Education 
Association. I heard a lot about the challenges that they have 
faced over this last year because of lack of access to 
broadband and to technology. This has clearly been a through 
line in the questions and the discussion that we have had all 
during this hearing.
    They are also worried about what is going to happen to 
students when they return to the classroom and how these 
buildings are going to be able to accommodate things like 
social distancing and staggered student schedules, and all the 
other adjustments that they are going to have to make. The main 
concern is making sure that BIE funded schools have the 
resources they need so that students can learn in a safe 
environment. Of course, we all know that this is a longstanding 
issue, annual funding for Bureau of Indian Education has been 
insufficient for years. The situation at some schools is 
deplorable. We have experienced this firsthand in Minnesota.
    Director Dearman, let me start with you. Could you tell me, 
what is the maintenance backlog at BIE funded schools across 
the Country?
    Mr. Dearman. Thank you, Senator Smith, for the question. 
That is something that I will definitely have to go back to the 
Department and provide that to you in writing. I know that we 
have been addressing the maintenance backlog as I have 
testified before. Through our inspections [indiscernible] we 
have taken over in BIE we have actually gone in and assisted 
schools in making sure that the abatement plans were input into 
the system to where it captured the estimated cost that it 
would take to correct all the deferred maintenance issues that 
we have identified.
    So I would be happy to go back and provide that in writing 
to you.
    Senator Smith. Thank you. I would appreciate that.
    I am told that the Department of Interior estimates that 
there is over $639 million needed to address just the most dire 
of needs in BIE schools, not yet all of the needs, but the most 
dire of needs.
    I would like to turn to Dr. Thomas and Dr. Kamana and Dr. 
West, could you just talk a little bit about what the impact of 
this maintenance backlog is? Dr. West, I can hear in your voice 
as I listen to you the stress that educators are under in this 
moment. I think about all the signals that we are sending to 
educators and students when we ask them to work in facilities 
that are not up to par. Maybe you would like to start.
    Mr. West. Yes, thank you for that question. At our facility 
at Pyramid Lake Schools we actually have a fairly modern 
facility. My only concern is social distancing and what 
guidance will look like. If they expect all our students to 
return in person, there is no way we will have the classroom 
space.
    Senator Smith. Right.
    Mr. West. So that is our biggest concern right now.
    Senator Smith. It is the space, not having the space, 
right.
    Dr. Thomas, I would love to hear your response.
    Dr. Thomas. The backlogs are extremely frustrating on 
everybody's part. There are still unsafe conditions that are in 
each respective school even prior to the COVID pandemic that 
have yet to be funded. But especially with the onset of the 
pandemic, the need for more space or adequate space is another 
problem in itself. Items on backlogs for years have continued 
to remain there. So I would agree, it is a big problem.
    Senator Smith. I know that this is one of those problems 
that we have talked about for a long, long time, since way 
longer than I have been in the Senate. Again, like so many 
issues, COVID is laying bare the inequities. It is not creating 
the inequity, but it is showing us what it is.
    We are also, both tonight and over the last couple of 
weeks, we are talking about making trillions of dollars of 
investment in infrastructure, housing infrastructure, roads and 
bridges, water systems, all desperately needed all over the 
Country.
    But I think particularly about educational infrastructure 
for Native learners, and the message that we can send by making 
this a priority. I am just determined about this, and I 
appreciate all of you and what you are doing. I look forward, 
Director Dearman, to hearing back from you.
    While I have you, I want to just mention, I know that you 
and I know that we have been in touch around the issue of Fond 
du Lac Tribal and Technology College eligibility given their 
unique status for COVID relief funds. I appreciate the letter 
that I received from you last month, I think it was, and I 
would ask if you will continue to stay in close touch, so that 
we make sure we get this issue resolved for Fond du Lac in a 
way that works.
    Mr. Dearman. Absolutely, Senator. Thank you.
    Senator Smith. Thank you, Chair Schatz.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I am going to 
be very brief. I am going to excuse myself and go vote, I know 
we need to do that.
    As you know, I am the Vice Chair of the Interior 
Appropriations Subcommittee. On that committee we had an 
opportunity to have folks from the IHS before us. So many of 
the same questions in terms of an inventory of need have been 
asked for and not received. To have Mr. Dearman say he is going 
to get back to us on the maintenance backlog, we keep asking, 
on this Committee, and I keep asking on the Interior 
Appropriations Committee.
    Sometimes you don't want to know how bad the bad news is in 
understanding the inventory and the maintenance backlog. But in 
order to adequately address it, we need this kind of 
information from the agency. We need the information from BIE 
just as we do from IHS.
    Several members have raised it, and I hope it does not fall 
on deaf ears. We have a new Administration, we have new folks 
in place. So I would certainly encourage all of us to keep the 
pressure on to get an accounting of where we are. We know the 
need is there, but we need to see that in writing.
    Thank you, Mr. Chairman, for letting me interrupt before 
other colleagues.
    The Chairman. Thank you. I couldn't agree more, Senator 
Murkowski. We have some follow-up oversight to do, and on a 
bipartisan basis.
    If there are no more questions for our witnesses, I want to 
say thank you for all of your good work. We look forward to 
continuing our collaboration and exercising our oversight 
obligations.
    Members may also submit follow-up written questions for the 
record. The hearing record will be open for two weeks. I want 
to thank all the witnesses and all the staff for their time and 
their testimony today.
    This hearing is adjourned.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Melissa Emrey-Arras
    Question 1. GAO recommends that BIE provide comprehensive guidance 
to schools on distance learning as a result of its recent findings. How 
will GAO evaluate BIE's efforts to address this recommendation?
    Answer. We will review the guidance BIE develops in response to the 
recommendation to see the extent to which it includes information 
requested by schools. For example, 13 of the 25 schools that responded 
to our survey said they wanted BIE to provide information on developing 
and implementing distance learning programs.

    Question 2. Your written testimony states, ``Different [BIE] field 
offices provided different [distance learning] trainings to schools in 
their jurisdiction.'' Based on GAO's review, does it appear that this 
decentralized approach to trainings was to provide flexibility to 
better meet local training needs? Or, was it the result of coordination 
issues between the education resources centers and BIE central offices?
    Answer. We did not evaluate whether BIE's approach to training was 
to provide flexibility to better meet schools' individual needs, or 
whether coordination between the education resources centers and BIE 
central offices was an issue. However, school officials we interviewed 
and surveyed said that BIE's overall level of support for delivering 
distance learning was insufficient. For example, officials we 
interviewed from five schools noted the limited nature of the support 
BIE provided to help them prepare for the 2020-2021 school year. An 
official from another school reported that the school felt it had to 
determine on its own how to deliver distance learning. Additionally, 
officials from another school told us that its local education resource 
center offered to provide help when asked, but it did not provide 
specific assistance.

    Question 2a. Does GAO believe that more coordination to share 
trainings between resource centers and schools would have improved 
distance learning professional development across BIE?
    Answer. We did not evaluate the effectiveness of BIE's approach to 
providing training to schools during the pandemic. According to BIE 
officials, a contractor is currently, among other tasks, evaluating 
BIE's delivery of distance learning to provide recommendations on the 
training, professional development, and integrated tools available for 
teachers, school staff and administrators so they can incorporate 
distance learning in their educational system.

    Question 3. Your testimony identifies issues BIE had determining IT 
needs at its schools as a major contributing factor in the delayed 
distribution of student laptops during COVID-19 campus closures. It 
also states: ``The Office of Information Management Technology (OIMT) 
is responsible for supporting IT across Indian Affairs, including BIE. 
OIMT includes staff responsible for assisting BIE-operated schools with 
their technology needs.'' Is GAO aware of the extent to which OIMT and 
BIE worked together prior to the pandemic to address student and school 
IT needs?
    Answer. We did not evaluate the extent to which BIE and OIMT worked 
together on school IT issues before the pandemic to address schools' 
and students' IT needs.

    Question 3a. Does GAO believe that OIMT and BIE coordination issues 
or delays contributed to the delayed distribution of student laptops 
purchased with COVID-19 relief funds?
    Answer. We did not conduct an analysis of coordination between OIMT 
and BIE on school IT issues.

    Question 3b. What role--if any--does GAO recommend OIMT play in 
addressing its recommendation that BIE establish policies and 
procedures to ensure it has complete, accurate, and up-to-date 
information on schools' technology needs?
    Answer. The focus of our recommendation was for BIE to work with 
OIMT to develop and implement policies and procedures to collect 
information on schools' IT needs.

    Question 4. GAO's work on this engagement focuses on BIE's efforts 
to improve distance learning capabilities for BIE students during 
COVID-19 related campus closures, but the Committee received reports 
suggesting teacher Internet access and IT hardware issues contributed 
to distance learning issues at many BIE schools. Specifically, last 
year, the Committee heard that deployment of a new BIE email and online 
portal system in April left many BIE staff without the required 
Personal Identification Verification (PIV) credential cards necessary 
to access the online BIE systems after BIE closed all school campuses 
for the Spring 2020 semester. Did GAO hear from any BIE schools that 
this credentialing changeover in BIE email systems left BIE staff 
members unable to access these systems and/or created additional 
distance learning barriers for BIE schools?
    Answer. While this was not a focus of our review, one school 
official told us in the fall that when BIE migrated emails to a new 
system over the summer, many teachers and administrators were unable to 
access email after the migration because BIE did not train them on how 
to do so.

    Question 4a. Is GAO aware of any efforts BIE undertook to ensure 
teachers and staff had access to the Internet and the IT equipment they 
needed to offer online instruction and complete their work remotely?
    Answer. According to Department of the Interior documentation, 
Indian Affairs' Division of Acquisitions, along with some BIE-operated 
schools, purchased over 1,600 laptops for teachers at BIE-operated 
schools between February and September 2020. Additionally, some school 
officials told us they provided Internet access to teachers at home. As 
of March 2021, 37 of the 54 BIE-operated schools reported that at least 
90 percent of teachers had access to the Internet at their homes.

    Question 5. The Bureau had difficulty providing real-time 
information on the operational status--in-person or remote--of BIE 
schools last year. Additionally, media reports suggest that some BIE 
schools operating remotely lost touch with students or suspended remote 
instruction completely.
    Your written testimony states, ``Many [BIE] schools provided 
learning opportunities while their school buildings were 
closed.officials from 23 of the 25 schools that responded to our July 
2020 survey reported that their school provided distance learning 
online or through paper instructional packets.'' Additionally, a 
footnote related to that portion of your testimony indicates that at 
least one school did not provide distance learning. Does GAO's footnote 
mean that the school that did not provide distance learning closed 
completely? Or, did this school not offer distance learning because its 
campus remained open for in-person instruction?
    Answer. Officials from the school referenced in the footnote 
reported in our July 2020 distance learning survey that the school 
ended the academic year on March 11, 2020 as a result of the pandemic-
about 8 weeks earlier than scheduled. The school officials also 
reported that they did not provide any distance education after that 
time. Our survey defined distance learning broadly to include any 
educational activity conducted with or assigned to students by school 
staff or contract personnel through a remote means, including paper 
instructional packets. We take the school officials' responses to mean 
that its students did not receive academic instruction of any kind 
during the last 8 weeks of the 2019-2020 school year.

    Question 5a. As part of its work on this engagement, did GAO find 
any evidence that some schools suspended all instruction and/or lost 
touch with students during COVID-19 related campus closures?
    Answer. Aside from the school discussed above, none of the 
remaining 24 schools that responded to our July 2020 survey, including 
the 10 we conducted interviews with in fall 2020, indicated that they 
had suspended all instruction during COVID-19 related school closures. 
However, our sample of schools was not generalizable to all BIE 
schools. Also, we were not able to determine whether the schools we 
collected information from lost touch with students during school 
building closures. However, some school officials we interviewed 
discussed the challenges of engaging with students during the pandemic. 
For example, one BIE school principal told us that some students had 
taken jobs during the pandemic and the school responded by recording 
lessons and making them available online so students could watch them 
later.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                               Lance West
    Question 1. Please describe the infrastructure and facilities needs 
of the school systems you work with and the federal resources that 
would most help schools serving Native communities to address these 
needs.
    Answer. Schurz Elementary School requires a modernization of our 
schools: Adequate playground equipment, artificial grass, and 
basketball playing surface. Our equipment is badly outdated. Our 
playground is a dirt lot with an asphalt basketball court. Both are at 
least 20 years old. We need a baseball field, track field, softball 
field. We need the basics in our community. Mental health for our youth 
is in the form of physical activities and extracurricular 
opportunities. In terms of federal resources, I would ask any 
Congressmen that sits on the House Education and Labor Committee to 
help us meet our needs. I ask that the GAO also conduct or include 
recent surveys and data that validate the need for improvements to 
infrastructure and facilities with schools that support high native 
student populations. This could be a coordination effort between the 
GAO and US Dept of Education. I would ask that the federal government 
complete a comprehensive review of the Nevada Department of Education 
and any recent research or recommendations for educational 
institution's infrastructure in rural Nevada.

        a. In addition--repaving of our parking lot and a physical 
        barrier system to prevent out of control vehicles from driving 
        into our classrooms. Our school is just feet away from a major 
        US highway (US 95).

        b. Replacement of all classroom furniture. Furniture is 
        outdated.

        c. Additional transportation including multiple vans, school 
        vehicles.

    Pyramid Lake Junior/Senior HS: Additional buildings to house 
classrooms and CTE equipment. Our current facilities limit the number 
of students we can enroll.

        a. A second gymnasium and practice facility.

    Question 2. Native school systems have made progress towards 
closing the digital divide this past year. But it is obvious there is 
still more work to be done. Will Schurz Elementary continue to utilize 
digital learning tools once all students return to in-person learning?
    Answer. Yes, Schurz will continue to utilize digital learning tools 
after our students return to in-person learning. We must continue to 
utilize technology to fully prepare our students with 21st Century 
skills needed for success in their future careers.

    Question 2a. What do we need to concentrate on in this area moving 
forward - broadband infrastructure, capital investments (e.g., hotspots 
and laptops), or digital supports (e.g., learning management systems, 
professional development, and STEM opportunities)?
    Answer. All of the above. The CARES Act and ARP funds be expended 
at some point. My concern is there is not a comprehensive framework 
that can provide an equitable manner to cycle replacements and repairs 
of aging/outdated equipment including broadband, laptops/chromebooks. 
Digital supports focusing heavily on LMS (google or Canvas UIs) require 
continual professional development opportunities for our educators. 
STEAM supports cannot be undervalued. Our school and staff are huge 
supporters of any STEAM kits that are purchased from PCS Edventures! 
(PCS Edventures--Experts In Hands-On STEM Education. Their drone, 
bricklab, and digital video collections are top notch in providing 
hands-on and engaging content to our elementary students. Their 
products and similar companies offer so much benefit.

    Question 3. Your testimony mentioned the successful use of a 
"reopening committee" composed of staff, parents, administrators, and 
representatives of relevant government entities within the Mineral 
County School District to guide operating decisions at Schurz 
Elementary School. Would you recommend BIE schools take a similar 
approach when planning for the 2021-2022 school year?
    Answer. Yes! BIE must step up their support beyond email or phone 
calls. They must show a full commitment of supporting our BIE-funded 
school.

    Question 3a. Do you have any suggestions on how to ensure that 
these types of "reopening committees" are successful?
    Answer. The best advice I can give is for BIE leadership to submit 
guidance documents that set specific requirements for reopening to all 
of their schools. There must be set deadlines that include a required 
collaboration between the school, tribe, and all stakeholders. A 
template or model of a ``full reopening plan'' must also be provided as 
a blueprint. The approval process must include a sign off my tribal 
leadership and/or any other local government leaders. I would like to 
think of the collaboration for full reopening in the same manner as the 
junior high/high school accreditation process. You seek input and 
survey the stakeholders. Incorporate those concerns into a living 
reopening document. Have committees composed of different levels of 
reopening (food services, transportation, curriculum/instruction, 
administration). Include parents, students, and community in those 
committees. There must be follow through and quarterly evaluation of 
the progress or any changes made by the schools. Documentation off 
changes or progress are key. The committees/teams should be included 
and updated as well.

    Question 4. You recommended that the Committee prioritize mental 
health funding as it considers how to support Native education systems' 
COVID-19 response. In your opinion, are there enough resources for 
locally-led school mental health initiatives?
    Answer. No, there are not enough resources for locally-led school 
mental health initiatives. The only forms of additional supports have 
come from the Nevada Department of Education in the form of free tele-
doc services where parents/students can meet virtually with licensed 
mental health professionals. It seems very poorly planned and rolled 
out too quickly. From what I can recall, this initiative is grant 
funded. Most tribal communities have very limited funding in social 
work and/or HIS counselors, psychologists, etc. Most communities have 
one employee of each type on staff. I have not seen nor heard of any 
tribes in Nevada using funds to expand/increase staffing in Social 
Services, or tribal health clinics. All tribal governments continue to 
express this importance but is quickly forgotten.

    Question 4a. What resources do you think schools serving Native 
communities need to help Native students navigate the mental health 
challenges posed by COVID-19? And are the needs of BIE schools 
comparable to those of local public schools serving Native communities?
    Answer. Our local public school (Schurz Elementary) must create 
spaces for extracurricular activities. It is my opinion, based on my 
experiences this past year and a half, that our kids simply need more 
to do rather than be at home or play on the playground for 45 min daily 
or PE. Our community has extremely limited adequate playground, 
swimming pools, gymnasiums, baseball and softball fields, outdoor 
running track, football field. We lack so much extracurricular 
infrastructure that is pathetic. Our kids and their parents cannot be 
content with the below minimum expectations in our community. We need 
your help!! This is what mental health supports look like for my 
students. Of course, I ask for additional funding for more social 
workers in the school along with a counselor. We are the only school in 
Mineral County School District that does not have a counselor!!! Our 
parents constantly advocate for more fun activities and participatory 
events for their kids. These extracurriculars can also support our 
parents/guardians/community members as a way to cope with the 
challenges and stressors due to the Pandemic. The needs of BIE schools 
are comparable.

    Question 5. You also noted that recruitment and retention of highly 
qualified Native educators is a growing need for many schools serving 
Native communities, and suggested expanding federal programs that 
specifically support Native educator training and professional 
development. Have Mineral County schools and Pyramid Lake seen an 
increase in teacher and staff vacancies and retirements since March, 
2020?
    Answer. Yes!
    Question 5a. In addition to providing more support for Native 
teacher training programs, how else could Congress help support 
pathways for recruiting and retaining Native educators?
    Answer. Congress must require state departments of education to 
collaborate with their respective tribes to develop a framework that 
can be presented to their respective university/college higher 
education system leadership. This framework prototype has been created 
by a local nonprofit organization, Indigenous Educators Empowerment 
based out of Las Vegas. I would encourage Congressional officials to 
reach out to this nonprofit for detailed information.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                           Dr. Kauanoe Kamana
    Question 1. Your testimony underscores that infrastructure is both 
a COVID-19 issue and a larger pre- COVID-19 challenge facing Nawahi 
School. Can you provide any additional details on the kinds of 
infrastructure and facilities needs you are facing? And, what federal 
infrastructure resources would most help your school and other Native 
Hawaiian immersion schools?
    Answer. As a P-12 laboratory school, Nawahi faces all the 
challenges listed in the attached report regarding Hawaiian Culture-
Focused Charter Schools. Among those needs are basic facilities 
funding, culturally relevant facilities, and room for expanding 
enrollments. The Nawahi campus includes K-8 programming funded as a 
charter school, Nawahi Iki. That portion of the program was included in 
the data provided for the attached Hawaiian Culture-Focused Charter 
Schools report. There are other needs at Nawahi`s preschool and high 
school levels.
    Ke Kua `O Nawahiokalani`opu`u (Nawahi) is a P-12 laboratory 
program. It is the largest Indigenous language medium/immersion program 
in Hawai`i and the United States as a whole with students on three 
campuses. Nawahi is an interagency collaboration between the Ke Kua `O 
Nawahiokalani`opu`u Iki K-8 (Nawahi Iki) charter school program, the 
Punana Leo Preschool early education program and the DOE Hilo High 
School program. All are located on the main campus of 
Nawahiokalani`opu`u in Kea`au, Hawai`i. The preschool and K-8 charter 
components include two satellite campuses, one in Waimea, Hawai`i and 
the other in Wai`anae, O`ahu. All features of the program have 
infrastructure needs. Our model of growth includes entities that are 
outside standard sources of funding and are likely to be overlooked. 
Nawahi requires constant attention to the provision of support to 
address the facilities needs at all levels.
    The 0-5 early education program on the Nawahi campuses is operated 
by the non-profit `Aha Punana Leo (`APL) with qualifying four-year old 
children from certain economic backgrounds being funded through the 
Nawahi charter school. The `APL early education program and K-12 
program are also integrated in terms of parent programs, development of 
curriculum/instruction and teacher in-service. The main campus is owned 
by the `APL under an agreement that encumbers the property to the state 
Office of Hawaiian Affairs (OHA). The satellite campuses are located on 
Department of Hawaiian Home Lands property.
    The Punana Leo is the preferred entry level for families seeking 
Hawaiian medium education at Nawahi. Its long waiting list and limited 
space are ongoing barriers to meeting community demand to enroll at 
Nawahi. There are ten other Punana Leo schools statewide that serve as 
the base for Hawaiian language medium/immersion public and charter 
school K-12 programs.
    Under COVID-19 restrictions, at the preschool level there is a 
combined Fall 2021 enrollment of 75 on the three campuses of Naw. Once 
COVID-19 restrictions are lifted that enrollment is predicted to return 
to full capacity of 117. That preschool enrollment receives no 
facilities support from any government agency.
    For the Fall 2021 school year, Nawahi has 575 K-8 charter school 
students. Neither the state Department of Education nor the state 
Charter School Commission provides facilities funding for those 
students.
    Nawahi has a Fall 2021enrollment of 159 in grades 9-12 that is 
supported with some resources from the state mainstream public high 
school system. However, the state public high school system does not 
provide any facilities support for Nawahi.
    The needs of Nawahi`s collaborative model are more complex than 
those of most other schools because of Nawahi`s strategic uniting of 
three distinct organizational entities with a purpose of assuring 
services through Hawaiian for families. The `APL has supported Nawahi 
building on its main campus, and could build on all campuses if funding 
were available.
    Nawahi is unable to meet the demand for its program given the 
facilities and infrastructure that exist at present. At the main campus 
we need ten more classrooms to meet P-8 needs and another 8 classrooms 
to meet anticipated high school needs. The preschool utilizes old and 
deteriorating facilities sufficient to house only half of those who 
apply yearly. The existing facilities need to be replaced and 
additional facilities provided in order to serve another 50 students. 
Our growing enrollment continues to create a need to house performing 
arts, physical education, a science laboratory as well as an athletic 
field, all in addition to facilities to accommodate ever changing 
student academic needs and interests.Similar needs, but on a smaller 
scale exist at the two Nawahi satellite campuses.
    A challenge for all schools taught through Hawaiian, including 
Punana Leo preschools and K-12 programs is that the state of Hawai`i 
focuses on funding the mainstream English language medium model of 
education. Hawaiian language schools historically emerge from 
grassroots efforts from within the community. Public school principals 
decide on whether or not to accommodate Hawaiian language medium 
streams in their schools. Families are dependent on those few schools 
where principals have decided to offer or maintain Hawaiian medium/
immersion education.
    Nawahi has opened two satellite campuses in partnership with the 
`.PL to accommodate communities where there is no access to Hawaiian 
language medium education or where families have faced challenges at 
existing schools.
    On Hawai`i Island there is a single state Department of Education 
operated K-12 Hawaiian immersion site. It is in the Kona District. 
There are no other Department of Education operated K-8 Hawaiian 
immersion programs on Hawai`i Island. There are no Hawaiian language 
medium education schools in the large and remote districts of Ka`u, 
North Kohala or Hamakua. In the Hilo and Puna districts Hawaiian medium 
education is provided solely by Nawahi and one other charter school. In 
South Kohala, the sole program for Hawaiian medium education is offered 
at a satellite campus of Nawahi.
    On Maui, there are three Hawaiian immersion streams in English 
medium complex areas: Hana School; Pa`ia Elementary-Kalama 
Intermediate-Kekaulike High School; Nahi`ena`ena Elementary-Lahaina 
Intermediate-Lahainaluna High School. There are three Punana Leo 
preschools feeding into those streams. Those Punana Leo need facilities 
development support.
    On Kaua`i Island there are no Department of Education-provided 
Hawaiian immersion sites. Education through Hawaiian on that island is 
provided by two charters as well as by the nonprofit `APL.
    On Lana`i Island, there is no Hawaiian immersion education. The 
State of Hawai`i lost a lawsuit regarding access to education through 
Hawaiian on Lana`i (Clarabal vs State of Hawai`i 2019), yet no such 
education has been provided by the Department of Education there.
    Moloka`i Island has a single Hawaiian immersion stream. It combines 
the private `APL, a Hawaiian immersion stream in an English medium 
Hawaiian culture-focused K-6 charter in Ho`olehua, a Hawaiian stream in 
Moloka`i Middle School and a Hawaiian stream in Moloka`i High School. 
These programs are on four separate sites, only two of which are 
operated by the state Department of Education.
    On O`ahu, the most populous island, there is one total Department 
of Education operated K-12 Hawaiian immersion site and five Hawaiian 
immersion streams in elementary schools. There is a K-8 satellite site 
of Nawahi and a P-12 Hawaiian immersion charter.
    The difficulty in addressing community demand for Hawaiian 
immersion education is due to the manner in which the state operates 
through the Department of Education. The decision to open a Hawaiian 
immersion stream in an existing Department school rests with 
principals, who also decide whether such a stream continues and under 
what conditions such a stream operates. Standard Department of 
Education schools are not designed to provide education from a Hawaiian 
cultural base and lack culturally-appropriate facilities to provide 
such an education.
    Charters are the vehicle that communities depend upon to develop 
Hawaiian culture-focused education, including Hawaiian language medium 
education for their children. However, the lack of facilities funding 
and other equity challenges in funding charters, hamper the development 
of a charter response to community demand for education through 
Hawaiian. The Hawai`i State Department of Hawai`i does not have an 
effective strategy to meet community demand for Hawaiian medium/
immersion education.
    In order to assist Nawahi and other Hawaiian medium/immersion 
schools, the federal government could possibly provide funding through 
the one of the following: (1) charter schools, (2) the Hawai`i State 
Hawaiian Language College laboratory school program, (3) Native 
Hawaiian language non-profits (e.g., `Aha Punana Leo), (4) Office of 
Hawaiian Affairs, or other entities. Such support could be part of a 
national effort to support Native American language medium education. 
It is my understanding that challenges similar to those that exist in 
Hawai`i exist for other Native American language medium schools.

    Question 2. Your testimony also highlights the unique issues Native 
language medium schools faced transitioning to distance learning and 
hybrid scheduling. Could you provide any examples to illustrate the 
issues created by lack of distance learning language materials created 
for your teachers and students over the last year?
    Answer. Nawahi teachers are unable to provide education through 
Hawaiian on a level comparable to that provided by English medium 
teachers due to lack of distance learning materials and resources in 
Hawaiian and other teaching materials.
    Mainstream English medium education has access to much distance 
learning material, both for purchase and for free (e.g., Khan Academy). 
Such distance material can also be used during face to face instruction 
by a regular teacher or by a substitute when a teacher is unable to 
teach, for example if the teacher is sick, or has to tend to a sick 
child. Such materials can also be used by parents to help children 
learn material when they need to review what was covered by the 
teacher. Also when a teacher lacks expertise in a particular area, such 
material can also be used in face to face education or distance 
education by the teacher to provide more complete instruction. Distance 
learning materials include illustrations, video clips, and sound clips 
that enrich teaching in the digital classroom environment to make up 
for the lack of field trips and laboratory work.
    Nawahi teachers, students and parents lack such educational 
materials support.
    Native language medium schools already struggled before COVID-19 
due to limited resources in the Native American language of 
instruction. Besides audiovisual resources important for both face to 
face and distance education, Native American language medium schools 
have needs in terms of science equipment, art equipment, sports 
equipment and transportation to and from school and for field trips. 
Teacher shortages have required Native American language medium schools 
to assign teachers to instruct in subject areas where they have limited 
academic content knowledge. Without digital resources and support such 
teachers are not able to deliver adequate instruction face to face or 
online. When teachers are absent from work for various reasons, it is 
often impossible for those substituting or watching over students to 
provide adequate instruction without digital learning materials and 
technology. Substitute teachers may not even have the language 
proficiency to provide any instruction without access to digital 
materials in the language.

    Question 2a. How has COVID-19 and the challenges of the last year 
impacted Native language medium schools' ability to recruit and retain 
certified teachers?
    Answer. COVID-19 had a major impact on Native language medium 
schools in Hawai`i and elsewhere relative to recruiting and retaining 
certified teachers. Teacher shortages in these schools were already 
dire previous to COVID-19. The pandemic made the situation worse.
    Teacher shortages in Hawaiian medium/immersion schools provide an 
illustration of the problem. In the 2020-2021 school year, 43 percent 
of those teaching in Hawaiian immersion school classrooms lacked 
certification ( https://www.hsta.org/crisis/ ). The overall state 
shortage of certified teachers has been around 4 percent. That 
percentage much lower than that in Hawaiian medium/immersion schools is 
considered by the state to be a major problem ( https://
www.civilbeat.org/2019/05/where-hawaiis-chronic-teacher-shortage-hits-
hardest/ ). The challenge for Hawaiian medium/immersion education has 
not been an inability of schools to recruit and retain certified 
Hawaiian speaker teachers, but a lack of sufficient numbers of such 
individuals. COVID-19 negatively impacted addressing the need for 
certified Hawaiian speaking teachers by reducing the numbers of college 
enrollments--specifically in Hawaiian language courses--the source of 
teachers for Hawaiian language medium education. COVID-19 also affected 
the desirability of becoming a teacher under the difficult conditions 
of teaching whether through distance education or face to face given 
COVID-19 hazards and restrictions.
    Addressing teacher shortages in Native American language medium 
education requires teacher recruitment and training strategies and 
programming different from those used to address teacher needs for 
English medium schools. There is little understanding in mainstream 
education in the United States, including in Hawai`i, of the 
distinctive challenges in developing a teaching staff for Native 
American language medium education. The first and biggest challenge is 
to develop a pool of highly proficient speakers, readers and writers of 
the Native American language used in Native American language medium 
schools.
    The U.S. Foreign Service ranks languages by difficulty for English 
speakers with a recommended number of hours needed to reach 
professional level proficiency ( https://www.state.gov/foreignlanguage-
training/ ). Research from the State Hawaiian Language College of the 
University of Hawai`i at Hilo places Hawaiian and other Native American 
languages at no less than Tier 3 of the U.S. Foreign Service list. Tier 
3 requires 1,100 hours of study by adults to reach professional level 
proficiency, roughly the equivalent of 30 semester college courses of 3 
credits each meeting three times a week.
    To my knowledge, the only bachelor level students able to access 
such a number of hours in Hawaiian or any other Native American 
language are at the College of Hawaiian language at the University of 
Hawai`i at Hilo. Others who have access to that level of study of 
Hawaiian are enrolled in graduate level Hawaiian courses at that 
College or at the University of Hawai`i at its Manoa and Hilo campuses.
    Throughout Native American communities, those who grew up with 
first language proficiency in Native American languages are generally 
too old to teach in a K-12 Native American language medium/immersion 
school. Native American language medium schools therefore must depend 
on second language learners for teachers. For all Native American 
languages other than Hawaiian there are limited hours of college 
coursework available. At no college or university outside Hawai`i are 
there sufficient course hours available in any Native American language 
to reach the professional proficiency recommended by the U.S. Foreign 
Service. In order to develop teachers' Native American language 
proficiency, community organizations affiliated with local Native 
American language medium/immersion schools provide proficiency training 
in the local Native American language. Such training extends beyond 
what is available in local tribal colleges or state institutions. 
Development of that proficiency takes much time. That time is in 
addition to time required to obtain teacher certification.
    For teachers of older students there is a need for additional time 
to master higher level content in academic areas such as mathematics 
and science. Furthermore, standard programs in teacher certification 
and in academic content areas do not typically provide an approach 
designed for integration with a Native American language and culture. 
Teaching from a perspective based in the culture and history of the 
local Native American people is a crucial component of a successful 
Native American language medium/immersion program such as that of 
Nawahi School.
    Scholarships for Native students are not generally available for 
the development of proficiency in a Native American language to a level 
appropriate for teaching in a Native American language medium school. 
Furthermore, time limits on general scholarships for Native American 
students are too short for young adult Native Americans to pursue 
Native American language proficiency, teacher certification and 
specialized academic content knowledge under the same scholarship. For 
Native Hawaiian students, for example, there is currently pressure from 
university administrations and scholarship providers on students to 
complete a bachelor`s degree in four years. It is impossible to achieve 
in four years, both Hawaiian language proficiency and content knowledge 
sufficient to teach through the language in areas such as mathematics, 
science, or computer science. Furthermore, teacher certification 
requires additional college coursework.
    There are considerable populations of students in the United States 
in ``dual language programs'' for foreign languages. Those programs 
have distinctive teacher needs similar to those of Native American 
language medium/immersion schools. However, the solutions to obtaining 
teachers are quite different. Utah is an example of a state with 
extensive ``dual language'' programs taught through such foreign 
languages as Chinese, Portuguese and Spanish. Utah recruits a large 
portion of such teachers from foreign countries, something impossible 
to do for Native American language medium teachers.
    The reality, then, is that Native American language medium school 
teacher shortages cannot be met by applying strategies that have worked 
for bringing in teachers from other states to English medium schools or 
for bringing in foreign teachers for foreign language immersion/dual 
language schools.

    Question 2b. In addition to providing more scholarship support for 
Native language teacher training and funding for Native language 
immersion, how else could Congress help Native language schools and 
programs address their staffing challenges and the lack of learning 
materials available in Native languages?
    Answer. The following are some possible ways to address staffing 
and learning materials challenges for Native American language schools:

        1. Extend the length of scholarships for those seeking to 
        become teachers in Native American language medium schools to 
        provide for: (a) U.S. Foreign Service recomended hours of study 
        Tier 3 for development of Native American language proficiency; 
        (b) hours of study of an academic content area (e.g., 
        mathematics, science, computer science, history, etc.); and (c) 
        hours of teacher preparation in order to become licensed.

        2. Establish a Native American Language Resource Center with a 
        mandate to provide support for higher level study of a wide 
        array of Native American languages. Such study must lead to a 
        level of proficiency sufficient to operate Native American 
        language medium/immersion schools through such languages.

        3. Provide regular funding of positions in such a Native 
        American Language Resource Center (which may have dispersed 
        satellite campuses) with individual specialists positions 
        dedicated to the needs of particular languages. Such language 
        specialists shall have the ability to provide distance 
        education through their respective languages to several schools 
        in shared courses. They shall also have the ability to produce 
        high quality distance education resources and other materials 
        when not teaching.

        4. Provide regular funding of positions in such a Native 
        American Language Resource Center (which may have dispersed 
        satellite campuses) with individual specialists positions 
        focused on cultural content and cultural-focused science, 
        mathematics, and language arts content regarding a particular 
        Native American cultural area (e.g., the Plains, Woodlands, 
        Northwest Pacific Coast, Pacific Islands, etc.) and language 
        family (Algonquin, Athabascan, Austronesian, etc.). Such 
        specialists would work in producing materials in cooperation 
        with the specialists listed in 3.

        5. Establish distinctive Native American language medium school 
        pathways to meeting the need to demonstrate high quality in 
        teaching. Such pathways should be modeled on best practice. 
        Best practice should be reflective of community values and of 
        actual high school graduation and college attendance. Such 
        distinctive pathways should be an alternative to having Native 
        American language medium/immersion schools demonstrate high 
        quality through single state assessments and/or accreditation 
        under accrediting entities designed for mainstream English 
        medium schools. Such distinctive pathways will allow Native 
        American language medium schools to focus on the development of 
        teachers and materials that address their actual needs. Much 
        effort is currently diverted from best practice when Native 
        American language schools try to fit their programs into 
        frameworks not designed for them and spend time trying to meet 
        expectations that have minimal to no relevance to Native 
        American language medium programs and students.

    Question 3. Native school systems have made progress toward closing 
the digital divide this past year. But it is obvious there is still 
much work to be done. a. Will Nawahi School continue to utilitize 
digital learning tools now that students have returned to in-person 
learning?
    Answer. Yes, Nawahi will continue to utilize digital learning tools 
into the future. Such tools are important for Nawahi under a number of 
circumstances, including: (1) sharing courses with satellite campuses 
which lack a teacher with expertise in a particular area; (2) serving 
children who are absent from school due to medical and other 
emergencies; (3) serving students whose parents move into an area where 
there is no Hawaiian language medium education; (4) providing extra 
help to students; (5) accessing dual credit courses through Hawaiian 
from the Hawaiian language college and other distance resources.

    Question 3a. What should Congress concentrate on in this area 
moving forward--broadband infrastructure, capital investments (e.g., 
hotspots and laptops), or digital supports (e.g., learning management 
system, professional development, and STEM opportunities)?
    Answer. Broadband infrastructure, learning management systems, 
hotspots and laptops are essential for any contemporary school in the 
United States in order to participate in the benefits of 
technologically assisted education. Certainly, these things are needed 
and should be provided. I would hope that Congress assures that all 
Native communities have such resources as a base from which to build. 
However, infrastructure and technology are of no use if the staff and 
students at schools lack the skills to use them or lack sufficient 
Native American language proficiency to deliver content appropriately. 
Funding for developing high levels of Native American language 
proficiency is a priority need. There is also an important need for a 
concerted effort to spread skills in terms of academic content 
knowledge such as STEM related coursework. A unique need is to provide 
professional development to teach content knowledge through a Native 
American language in particular cultural-contexts to which Native 
students relate.
    An effective strategy would be to support the design of approaches 
that reflect the holistic worldview of a Native American language and 
culture. It would integrate a variety of resources where areas of study 
are understood in the context of broader cultural values and Native 
worldviews.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Tony L. Dearman
    Question 1. Last year, you testified that the Occupational Safety 
and Health Administration (OSHA) is conducting an investigation into 
BIE related to the Bureau's handling of school campus closures at the 
start of the COVID-19 pandemic. Please provide an update on the status 
of this investigation and any additional information you can regarding 
the circumstances that triggered this investigation.
    Answer. BIE provided responses to three separate OSHA reports 
during the pertinent timeframe. As such, OSHA closed the three reports 
with the submission of the BIE Safety Office response.

    Question 2. The Department's decision to delay the start of the 
2020-2021 school year for Bureau-operated schools caused confusion for 
BIE staff who work under contract with the Bureau. The Committee heard 
from a number of such staff concerned about their pay and benefits, 
including housing for those who reside in Bureau-owned residences; BIE 
staff also informed the Committee that they received no direct 
communication from the Department regarding these matters when it 
announced the delayed start. How did the Department communicate with 
BIE staff about the impacts of the school year start delay on pay and 
benefits?
    Answer. The Department did not send out communications directly to 
BIE staff related to this matter. BIE Leadership coordinated with 
divisional leadership to notify supervisors and the chain of command 
while BIE human resources (HR) communicated to BIE staff and faculty. 
HR sent out notices to BIE employees to provide as much information as 
possible while BIE Leadership coordinated weekly calls to explain 
information to the field as they supported their schools directly. BIE 
HR also actively coordinated with the Union throughout this process.

    Question 2a. Did the Department continue benefits, including health 
insurance coverage, life insurance coverage, and housing without 
interruption for BIE staff impacted by the school year start delay?
    Answer. BIE HR worked with the Department of the Interior Business 
Center (IBC) and the individual Benefit Plan Providers to ensure all 
BIE staff benefits continued without lapse. HR also worked with IBC and 
the Bureau of Indian Affairs (BIA) housing officers to ensure that 
staff housing was not negatively affected.

    Question 3. The Committee received reports last year that 
deployment of a new BIE email and online portal system in April 2020 
left many BIE staff without the required Personal Identification 
Verification (PIV) credential cards necessary to access the online BIE 
systems. Is the Department aware of reports that the changeover in BIE 
email systems left many BIE staff members unable to access these 
systems?
    Answer. The BIE email migration did not start until June 2020 to 
diminish the interruption at the school level, to the extent 
practicable. Any reported access issues prior to that time were not the 
result of the migration. It is likely that these reports are the result 
of misunderstanding by BIE PIV cardholders between access to DOI online 
system, such as DOITalent and email. The Indian Affairs Office of 
Information Management Technology, which provides direct information 
technology (IT) support to BIE, completed the migration in tranches 
while working in conjunction with the BIE Personnel Security Office to 
ensure migrated users had an active PIV card in their possession.
    To support the IT work, BIE HR established a way to activate PIV 
cards to ensure continuity of employee access to BIE systems. Employees 
lacking an active PIV card could still access BIE email on the Internal 
Exchange Servers to minimize disruption. While it took time to convert 
over all staff, access problems are currently at a minimal level and 
are addressed on an ongoing, case-by-case basis. Currently, there are 
39 users that need to complete a card activation prior to the migration 
of their account.

    Question 3a. What impacts did the inability of BIE staff members to 
access the Bureau's email system and other online portals have on 
delivery of distance learning instruction during the spring 2020 term 
and on the ability of these employees to successfully telework?
    Answer. Please see above that BIE is not aware of widespread email 
or other access issues that would have widely disrupted successful 
telework by employees. However, similar to school districts across the 
country, the quick transition to virtual learning affected many BIE 
schools who had to use education packets and other resources when 
adequate technology was absent. Over the course of the last year, BIE 
provided critical technology and hardware, as addressed in its written 
testimony, to address such gaps and better prepare BIE schools for 
supporting virtual learning in the future.

    Question 4. The Bureau had difficulty providing real-time 
information on the operational status--in-person or remote--of BIE 
schools last year. Additionally, media reports suggest that some BIE 
schools operating remotely lost touch with students or suspended remote 
instruction completely. Has BIE investigated claims that some schools 
suspended remote instruction and/or lost touch with students?
    Answer. BIE divisional leadership reports to BIE Central Office on 
an ongoing weekly basis regarding current school operating status and 
recommendations to address areas of local-level need and gaps in 
support, where applicable. Remote learning suspension was often 
attributable to the lack of Internet/wireless services. However, 
through guidance provided by BIE and coordinated through the chain of 
command, schools were expected to provide education packets, as needed. 
Through similar coordination, and as mentioned in the written 
testimony, BIE Leadership worked to address technology gaps to better 
support remote learning going forward.

    Question 4a. How has BIE ensured that peripheral dormitory 
residents are able to access distance learning opportunities offered by 
the non-BIE schools they attend?
    Answer. BIE Divisions coordinated with local site leaders and 
homeliving staff to assist residents, to the extent possible, with 
accessing non-BIE schools' distance learning opportunities. In many 
cases, local public schools provided laptops to their respective 
students and ensured access to online learning for those who lacked Wi-
Fi. Public schools also extended flexible hours for students who may 
not fit the typical school day. They also partnered with Tribal nations 
by assisting with transportation needs and providing meals for 
students. In other cases, homeliving specialists contacted former 
residents to check on enrollment and participation in distance and 
hybrid learning models. Facilities like Blackfeet Boarding Dormitory 
provided weekly enhancement and engagement packets to support grant- 
and other federally-funded work. In another instance, Richfield 
Residential Hall, remained open throughout the pandemic to ensure 
supports, IT hardware, and access to online learning for residents 
continued.

    Question 4b. How has DOI ensured that BIE students with 
disabilities have equal access to educational opportunities and the 
services identified in their individual education programs during 
COVID-19-related campus closures?
    Answer. Regardless of operating status (on-site, remote, hybrid), 
each BIE school was required to submit an alternate/distance learning 
plan that ensured appropriate services to students eligible under the 
Individuals with Disabilities Education Act (IDEA) and Section 504 of 
the Rehabilitation Act of 1973. BIE field staff provided technical 
assistance to support school teachers and/or staff as they documented 
such services provided, and where virtual means may have been limited. 
BIE school staff made phone calls or delivered packets to students 
using proper safety protocols. Where students required additional 
supports, schools worked to convert to a hybrid learning model as 
quickly and safely as possible to provide the pertinent in-person 
services students needed.

    Question 4c. Is BIE able to review system-wide trends in student 
absenteeism or performance over the course of the pandemic?
    Answer. Yes; BIE's Native American Student Information System 
(NASIS) now captures Bureau operated school absences data, as part of 
the BIE's five-year Strategic Direction implementation. For the 2020-
2021 school year, absences data, whether excused or unexcused, were 
reported by schools using the NASIS system.

    Question 4d. How has BIE worked to improve its coordination with 
and monitoring of Bureau funded schools over the course of the COVID-19 
pandemic to ensure the educational needs of students are met, 
regardless of operating status? And will the new learning management 
system you mentioned in your testimony assist in these efforts?
    Answer. When BIE closed school sites in March 2020, BIE's Chief 
Academic Office worked closely with its divisional leadership to 
provide initial guidance on access to educational supports. Where gaps 
persisted during the pandemic, BIE staff worked to provide improved 
supports to schools as they prioritized instructional access to 
students no matter the operating status. BIE's Chief Academic Office 
coordinated daily and weekly calls to discuss how schools were serving 
students, mental health supports provided, best virtual learning 
practices, and key IT support needed. As mentioned in BIE's written 
testimony, BIE schools developed individual school reopening plans that 
identified needs for reopening virtually and transitioning between 
hybrid and in-person learning. BIE divisional leadership coordinated 
calls to ensure schools had the necessary supports in place and 
coordinated with BIE Central Office where gaps persisted.
    BIE divisional leadership and the Chief Academic Office coordinated 
to assist schools as they updated their individual school plans when 
transitions from one type of learning mode were made, in accordance 
with guidance from the Departments of the Interior and Education, and 
the Centers for Disease Control and Prevention. The coordination 
activities using the BIE's chain of command have continued throughout 
the pandemic. As planning continues for the 2021-2022 School Year, 
weekly divisional reporting has provided high-level updates when 
strategic support is needed, such as the development of a BIE Learning 
Management System (LMS), which is expected to assist in efforts to 
coordinate activities across the BIE system and improve tailored 
supports to schools and students. The implementation of the LMS is one 
component to ensure the educational needs of students are met with the 
vision that students who live in a metropolitan area and the students 
who live in a rural area, such as many BIE students, have access to the 
same educational experience.

    Question 5. Does BIE plan to expand its ``smartbus'' pilot program 
to deploy Wi-Fi-capable buses along more BIE school bus routes? If so, 
how will BIE prioritize where it expands the pilot? And, would BIE need 
additional resources to support these efforts?
    Answer. BIE leadership is in communication with the incoming Indian 
Affairs' leadership team to determine next steps on such projects.

    Question 6. Your written testimony states that BIE staff 
``investigated how solar chargers might be used to support distance 
learning'' for students in homes without electricity. What were the 
results of this investigation? And did BIE ultimately provide solar 
chargers as part of its efforts to expand access to e-learning during 
the pandemic?
    Answer. Through its field coordination, BIE identified that solar 
chargers were an option for students in homes without electricity and 
included it as part of its support framework for distance learning. In 
cases where students did not have electricity but could access a local 
Internet provider, these solar chargers were ordered by the local 
school administrator and distributed with instructions and technical 
support for distance learning.

    Question 7. In your testimony, you noted that BIE's COVID-19 
related consultations identified mental health supports as one of five 
priorities for Indian Country. You also outlined several steps the 
Bureau has taken in response to this Tribally-identified priority. 
Regarding the BIE's expansion of its current Employee Assistance 
Program contract to temporarily include students and Tribally-operated 
school staff: How did BIE work with the Program contractor to ensure 
students receive age appropriate supports?
    Answer. Throughout the pandemic, BIE HR and supervisors have 
continued to communicate regarding resources provided by the Employee 
Assistance Program (EAP) as well as access to other mental health 
resources, such as self-care webinars. EAP specific federal employee 
supports are not tailored for students and the current EAP contract 
with the Department of the Interior does not provide services to tribal 
school staff.

    Question 7a. How has BIE informed students and staff about these 
new EAP resources?
    Answer. Please see the response above regarding eligibility under 
the EAP contract. However, in addition to EAP resources, BIE created a 
completely new Behavioral Health and Wellness Program (BHWP) contract 
that will provide additional supports. The purpose of the BHWP contract 
is to provide culturally relevant, evidence-based, and trauma-informed 
behavioral health and wellness services accessible to students and 
staff at all bureau-funded institutions (BIE Staff, Bureau Operated 
Schools, Tribally Controlled Schools, and BIE post-secondary 
institutions).
    Led by the BIE's student health specialist and working through the 
BIE chain of command, BIE has provided information to the field 
regarding the services provided under the contract. The BHWP contract 
was awarded in October 2020 to Tribal Tech LLC, a Native-Owned vendor 
that has significant ties across Indian Country and extensive 
experience providing behavioral health and wellness supports in a 
multitude of Tribal communities. To date, the BHWP contractor, in close 
coordination with BIE staff, has primarily focused on providing 
behavioral health and wellness trainings while simultaneously creating 
the infrastructure needed to provide direct behavioral health 
counseling and crisis intervention services for students and staff at 
the institutions referenced in the question.

    Question 7b. Regarding the new $2 million telehealth contract with 
a Native-owned vendor: What is the length of this contract?
    Answer. The $2.1 million BHWP contract currently has one base year 
with an additional option year, as needed. However, the BIE has plans 
to continue funding this activity to ensure the behavioral health and 
wellness needs from across the system are met.

    Question 7c. Could you provide examples of the types of trainings 
and events the vendor will provide?
    Answer. The vendor has held culturally-relevant talking circles to 
support staff in schools with loss of students to suicide during the 
pandemic as well as the loss of staff due to COVID-19. A few examples 
of the BHWP's culturally adapted and trauma-informed supports include:

  <bullet> Virtual Staff Talking Circles to assist staff with 
        processing the impact of the pandemic on the school 
        environment, feelings of grief/anxiety, and other types of 
        mental health or wellness challenges experienced.

  <bullet> Youth Mental Health First Aid Trainings to equip our schools 
        and staff with evidenced-based skills for helping our students 
        through mental health challenges.

  <bullet> Direct Technical Assistance to schools and residential 
        programs requesting assistance with wellness and behavioral 
        health challenges.

  <bullet> Behavioral Health Resource Directories that are tailored to 
        meet the unique needs of a specific school and include Indian 
        Health Service (IHS) and Tribal resources available locally.

  <bullet> Wellness Wednesdays Webinars focused on staff wellness and 
        self-care, initiated May 12, 2021.

  <bullet> Drug Prevention Virtual Learning Community using BIE's 
        ``Culture and Drugs Don't Mix'' curriculum that will kick off 
        this coming school year.

    Question 7d. Will BIE have permanent access to the BIE-specific 
resource library made available through this contract? Or will it only 
have access during the contract period?

    Answer. All materials furnished or produced as a result of the 
contract, including but not limited to: documents, research, data, 
reports, and correspondence are the property of the BIE. Such resources 
shall remain confidential, as appropriate, in accordance with BIE 
policies and applicable privacy laws including the Privacy Act of 1974 
(5 U.S.C.  552a) and section 444 of the General Education Provisions 
Act (commonly known as the Family Educational Rights and Privacy Act of 
1974) (20 U.S.C.  1232g) and their implementing regulations.

    Question 7e. Regarding the $400,000 clinical/therapeutic service 
contract with a Native-owned clinical provider: How will the services 
offered by this contract differ from or overlap with the ``telehealth 
counseling support with licensed clinicians from the University of New 
Mexico'' offered through the contract referenced in (b) above?
    Answer. The University of New Mexico BHWP contract had expired. The 
current contract now includes training and counseling supports.

    Question 7f. It appears BIE will pay $2,000 per service delivery 
hour through this contract ($400,000 for 200 hours of service 
delivery). Can BIE confirm this price per service delivery hour is 
correct? And, if so, can BIE provide assurances that such a rate is 
comparable to the price of these services typically?
    Answer. This question references the expired University of New 
Mexico BHWP contract.

    Question 7g. Does BIE need further funding or statutory authority 
to support school capacity to address the mental health needs of Native 
students in the long-term?
    Answer. BIE funding and statutory requests are included in the 
President's FY 2022 Budget Request released on May 28, 2021 and 
specifically outlined in the FY 2022 BIE Budget Greenbook.

    Question 8. BIE's COVID-19 consultations also identified Native 
language supports as another Indian Country education priority during 
the pandemic. Your testimony outlines supports within BIE for Native 
language education but also notes that--due to the pandemic--''local 
implementation [of Native language programs] may have varied over the 
last year in delivery.'' Does BIE have any information on which of its 
schools were able to offer Native language classes or immersion 
programing during the pandemic?
    Answer. Information regarding grantees who provide such supports is 
collected through BIE's Tribal Education Department grant work. 
Further, BIE Divisions each have Native language support staff who 
directly support their respective schools to provide varying Native 
language services.

    Question 8a. Has BIE done any outreach to Native language teachers 
in Bureau and Tribally operated schools to determine if they need 
additional supports or resources during the pandemic?
    Answer. At the local level, BIE Native language support staff 
within each division provides direct support and outreach to Native 
language programs and teachers, usually in the form of providing 
workshops, summer trainings, sharing curriculum resources, etc.

    Question 8b. Is the $14 million in language immersion awards 
referenced in your written testimony generated from ISEP funding 
formula for language development? And, if so, can you explain why the 
ISEP language development funding decreased from $27.6 million in the 
2019-2020 school year to only $14 million this year?
    Answer. The amount referenced in your question and the written 
testimony reflects funding awarded at that time. BIE will award 
additional funds as it obligates funds by the end of the fiscal year.

    Question 8c. Does BIE need additional resources to support delivery 
and expansion of Native language instruction for its students?
    Answer. BIE funding and statutory requests are included in the 
President's FY 2022 Budget Request released on May 28, 2021 and 
specifically outlined in the FY 2022 BIE Budget Greenbook.

    Question 9. Your testimony outlines over $4 billion in BIE school 
construction needs. Does this estimate include the facility needs of 
Tribal Colleges and Universities?
    Answer. As stated in the written testimony, the average cost of 
replacing a school in poor condition is $62 million, putting the total 
cost of replacing BIE schools in poor condition at roughly $4.5 
billion. This estimate excludes funding for facility needs at the 37 
Tribal Colleges and Universities (TCUs). Indian Affairs (IA) conducted 
Tribal consultations on May 7, 2021 with TCU leaders and stakeholders 
to request input on developing a methodology for determining TCU 
operating and maintenance needs to inform future budget requests. 
Responses and comments were received through May 21, 2021 and are 
currently in review. Responses received will assist in developing a 
transparent and consistent methodology, determining need, and informing 
future budget requests.

    Question 9a. Has BIE looked at any other school infrastructure 
needs? For example, are there estimates for school bus route 
improvement needs, addressing maintenance backlogs, or modernizing 
school heating/ventilation systems?
    Answer. IA is engaged in a Deferred Maintenance (DM) backlog 
initiative which identifies deficiencies related to fire safety, 
accessibility, life-safety, health, including DM items backlogged for 
three to five years. Projects are focused at school and quarters 
locations at Southwestern Indian Polytechnic Institute, Haskell Indian 
Nations University, and select schools throughout North and South 
Dakota.
    The current DM backlog at educational facilities (non-quarters) is 
$823,291,249 and $102,066,648 at educational quarters. The IA-Public 
Health Service Program is also working to assess ventilation systems 
for COVID-19 compliance at 192 school locations.

    Question 9b. What other BIE-related needs should Congress consider 
related to President Biden's American Jobs Plan? For example, does the 
Department of the Interior have enough contracting officers and support 
staff to quickly get shovels in the ground if BIE were to receive a 
signification infusion of infrastructure funding?
    Answer. BIE funding and statutory requests are included in the 
President's FY 2022 Budget Request released on May 28, 2021 and 
specifically outlined in the FY 2022 BIE Budget Greenbook. BIE 
continues to work to increase the number of Contracting Officer 
Representatives with subject matter expertise to improve support for 
contracts. For projects over a million dollars, BIE works with the IA 
Deputy Assistant Secretary-Management for contractual support.

    Question 10. Mr. West testified at this hearing regarding the 
successful use of a ``reopening committee'' composed of staff, parents, 
administrators, and representatives of relevant government entities 
within the Mineral County School District. Has BIE considered 
encouraging its schools to form local-level ``reopening committees'' in 
preparation for 2021-2022 school year planning?
    Answer. BIE always encourages local coordination among its schools 
with parents, Tribes, and stakeholders when considering reopening 
planning that uses the latest guidance from the Departments of the 
Interior and Education (ED), and the Centers for Disease Control and 
Prevention (CDC). Using an inclusive approach helps to make sure local 
needs are better addressed.

    Question 10a. How will BIE ensure the views of staff, parents, and 
Tribal leaders are captured in time to meaningfully inform planning for 
the 2021-2022 school year?
    Answer. BIE held Tribal consultation regarding safe school 
reopening on May 10-11, 2021 to ensure more timely input regarding the 
upcoming school year. Stakeholders had 30 days to comment and provide 
feedback on any gaps related to BIE schools in the latest guidance from 
ED and CDC. BIE staff compiled feedback and is formalizing the creation 
of a School Reopening Task Force that includes cross-divisional BIE 
experts who will support field staff as they work directly with school 
leaders in their implementation of ED and CDC guidance for safely 
reopening school sites.

    Question 11. Your written testimony stated that nearly 46 percent 
of the BIE workforce was retirement eligible in 2018 and that the 
eligibility rate continues to increase annually.
    Answer. To clarify, the number of retirement eligible staff has 
increased annually in recent years. With the priority of expanding 
staff capacity through hiring, the percentage is now approximately 39 
percent. BIE continues to actively hire to further reduce the 
retirement eligible rate as part of its ongoing workforce planning.

    Question 11a. What were the teacher and staff vacancy rates at BIE 
immediately prior to campus closures in March, 2020?
    Answer. For BIE operated schools, which BIE has available 
information, BIE had a total of two principal and 16 teacher vacancies. 
For other support staff positions, BIE was at an approximate 5 to 7 
percent vacancy rate. That figure includes an average across BIE's 53 
directly operated schools, with staff leaving and new staff coming 
onboard every pay period. In total, from March 2020 to present, BIE has 
had 198 vacancies (from retirements to separations) with most of these 
being filled or in the process of being filled.

    Question 11b. Has the Bureau seen an increase in teacher and staff 
vacancies since March, 2020?
    Answer. Yes; BIE has experienced a small increase. This is mostly 
attributable to the locations of many of our positions and the effects 
of the pandemic, which often make positions often hard to fill.

    Question 11c. Has the Bureau seen an increased rate of retirements 
compared to the previous three years?
    Answer. Yes; there was a slight increase of about 21 additional 
staff member retirements this past year compared to the previous three 
years.

    Question 11d. What resources and/or legislative proposals would 
best help BIE recruitment and workforce retention efforts?
    Answer. BIE funding and statutory requests are included in the 
President's FY 2022 Budget Request released on May 28, 2021 and 
specifically outlined in the FY 2022 BIE Budget Greenbook.

                                  <all>
</pre></body></html>
